<html>
<title> - H.R. 3086, GLOBAL WILDLIFE CONSERVATION, COORDINATION, AND ENHANCEMENT ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
H.R. 3086, GLOBAL WILDLIFE CONSERVATION, COORDINATION, AND ENHANCEMENT 
                              ACT OF 2009 

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, July 28, 2009

                               __________

                           Serial No. 111-30

                               __________

       Printed for the use of the Committee on Natural Resources

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-960 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Jeff Flake, Arizona
Frank Pallone, Jr., New Jersey       Henry E. Brown, Jr., South 
Grace F. Napolitano, California          Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Louie Gohmert, Texas
Madeleine Z. Bordallo, Guam          Rob Bishop, Utah
Jim Costa, California                Bill Shuster, Pennsylvania
Dan Boren, Oklahoma                  Doug Lamborn, Colorado
Gregorio Sablan, Northern Marianas   Adrian Smith, Nebraska
Martin T. Heinrich, New Mexico       Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Neil Abercrombie, Hawaii             Robert J. Wittman, Virginia
Frank Pallone, Jr., New Jersey       John Fleming, Louisiana
Gregorio Sablan, Northern Marianas   Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Bill Cassidy, Louisiana
    Islands                          Doc Hastings, Washington, ex 
Diana DeGette, Colorado                  officio
Ron Kind, Wisconsin
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                












                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, July 28, 2009...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Derek, Bo, Board Member, WildAid.............................    23
        Prepared statement of....................................    24
        Response to questions submitted for the record...........    26
    Gould, Rowan, Ph.D., Acting Director, Fish and Wildlife 
      Service, U.S. Department of the Interior...................     5
        Prepared statement of....................................     7
        Response to questions submitted for the record...........    10
    Monfort, Steven L., Ph.D., Acting Director, Smithsonian 
      Institution National Zoological Park.......................    48
        Prepared statement of....................................    49
        Response to questions submitted for the record...........    54
    Potter, J. Craig, International Wildlife Lawyer, Law Offices 
      of J. Craig Potter.........................................    72
        Prepared statement of....................................    74
        Response to questions submitted for the record...........    77
    Roberts, Carter, President and CEO, World Wildlife Fund......    27
        Prepared statement of....................................    29
        Response to questions submitted for the record...........    38
    Wasser, Samuel K., Ph.D., Director, The Center for 
      Conservation Biology, University of Washington.............    59
        Prepared statement of....................................    61
        Response to questions submitted for the record...........    69

Additional materials supplied:
    Calvelli, John F., Executive Vice President, Public Affairs, 
      Wildlife Conservation Society, Statement submitted for the 
      record.....................................................    90
    Manson, Hon. Craig, Distinguished Professor and Lecturer in 
      Law, Capital Center for Public Law and Policy, University 
      of the Pacific McGeorge School of Law, and Former Assistant 
      Secretary of Interior, Statement submitted for the record..    92
                                     



    LEGISLATIVE HEARING ON H.R. 3086, GLOBAL WILDLIFE CONSERVATION, 
               COORDINATION, AND ENHANCEMENT ACT OF 2009

                              ----------                              


                         Tuesday, July 28, 2009

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 1:05 p.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Bordallo, Brown, Kildee, 
Faleomavaega, Abercrombie, Pallone, Sablan, Christensen, 
DeGette, Kind, Capps, Shea-Porter, Kratovil, Pierluisi, Young, 
Flake, Lamborn, Wittman, Fleming, and Chaffetz.

           STATEMENT OF HON. MADELEINE Z. BORDALLO, 
                A DELEGATE IN CONGRESS FROM GUAM

    Ms. Bordallo. Good afternoon. The legislative hearing by 
the Subcommittee on Insular Affairs, Oceans and Wildlife will 
come to order.
    Today, we will hear testimony concerning H.R. 3086, the 
``Global Wildlife Conservation, Coordination, and Enhancement 
Act of 2009.''
    Under Committee Rule 4[g], the Chairwoman and the Ranking 
Minority Member will make opening statements.
    People across the globe depend on biodiversity for food and 
water, for the regulation of climate and disease, and for 
maintaining the natural balance and resilience of the Earth's 
ecosystems. Unfortunately, over the past few hundred years, the 
myriad threats facing global wildlife have been intensifying, 
and the rates of species' extinction have accelerated.
    In the 20th Century, we finally came to recognize the very 
serious negative consequences that result when biodiversity is 
diminished, and the ecosystems' health degraded. For more than 
a century, the United States has taken steps, both domestically 
and abroad, to conserve wildlife, preserve biodiversity, and 
maintain healthy ecosystems. As a result, the United States now 
is largely regarded as the global frontrunner in international 
fish and wildlife conservation, our systems of public lands the 
envy of the world, and our knowledge and technical abilities in 
the conservation of wildlife and wildlife habitat admired and 
emulated.
    Despite a record of innovation and progress, evidence from 
the field indicates that our conservation efforts have been, at 
best, partially effective. In the 110th Congress, this 
Committee convened two hearings to highlight challenges 
confronting global wildlife conservation. The daunting scale of 
the illegal trade in wildlife exposed the inefficiencies and 
the inadequacies of existing programs within the Department of 
the Interior and across other Federal agencies.
    In addition, our reliance on CITES to monitor the regulated 
trade of wildlife appears insignificant considering the scale 
of the threats and the huge unmet needs for assistance in the 
field. Moreover, lack of awareness by the United States' 
consumers on how their purchases form a growing global market 
for illegally traded wildlife indicates that our public 
outreach needs improvement.
    H.R. 3086 is intended to address these concerns and others. 
We have an excellent opportunity to work with a new 
administration to more broadly engage the Department of the 
Interior with the global conservation community. The 
legislation proposes new structures, new tools, and new 
direction to guide this effort and, most importantly, new 
priorities to broadly engaged stakeholders and the American 
public in this effort.
    It also includes provisions similar to those in Congressman 
Young's bill, H.R. 3198, and I look forward to working with him 
on that and the broader scope of issues encompassed in H.R. 
3086.
    I realize that since H.R. 3086 was introduced that some 
observers have expressed concerns about the bill, especially 
provisions that would upset the bureaucratic status quo. Of 
course, you do not have to be in this town long to realize that 
the quickest way to spark an argument is to propose rearranging 
the bureaucracy. Nevertheless, this dilatory tendency should 
not be allowed to prevent us from engaging in a very important 
dialogue to reinvigorate and reenergize wildlife conservation 
as a tool for U.S. diplomacy and leadership abroad.
    So, to that end, I welcome the views of all, and I stand 
ready to roll up my sleeves and get to work on the task at 
hand. We have no time to waste.
    [The prepared statement of Ms. Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    Good afternoon. People across the globe depend on biodiversity for 
food and water, for the regulation of climate and disease, and for 
maintaining the natural balance and resilience of the earth's 
ecosystems. Unfortunately, over the past few hundred years the myriad 
threats facing global wildlife have been intensifying, and the rates of 
species extinction have accelerated.
    In the 20th Century, we finally came to recognize the very serious 
negative consequences that result when biodiversity is diminished and 
ecosystem health degraded. For more than a century, the United States 
has taken steps--both domestically and abroad--to conserve wildlife, 
preserve biodiversity, and maintain healthy ecosystems. As a result, 
the United States now is largely regarded as the global frontrunner in 
international fish and wildlife conservation and our systems of public 
lands the envy of the world, and our knowledge and technical abilities 
in the conservation of wildlife and wildlife habitat admired and 
emulated.
    Despite a record innovation and progress, evidence from the field 
indicates that our conservation efforts have been at best partially 
effective. In the 110th Congress, this Committee convened two hearings 
to highlight challenges confronting global wildlife conservation. The 
daunting scale of the illegal trade in wildlife exposed the 
inefficiencies and inadequacies of existing programs within the 
Department of the Interior, and across other Federal agencies. In 
addition, our reliance on CITES to monitor the regulated trade of 
wildlife appears insufficient, considering the scale of the threats and 
the huge unmet needs for assistance in the field. Moreover, lack of 
awareness by U.S. consumers on how their purchases form a growing 
global market for illegally traded wildlife indicates that our public 
outreach needs improvement.
    H.R. 3086 is intended to address these concerns and others. We have 
an excellent opportunity to work with a new Administration to more 
broadly engage the Department of the Interior with the global 
conservation community. The legislation proposes new structures, new 
tools and new direction to guide this effort, and importantly, new 
priorities to broadly engage stakeholders and the American public in 
this effort. It also includes provisions similar to those in 
Congressman Young's bill, H.R. 3198, and I look forward to working with 
him on that and the broader scope of issues encompassed in H.R. 3086.
    I realize that since H.R. 3086 was introduced that some observers 
have expressed concerns about the bill, especially provisions that 
would upset the bureaucratic status quo. Of course, you do not have to 
be in this town long to realize that the quickest way to spark an 
argument is to propose re-arranging the bureaucracy.
    Nevertheless, this dilatory tendency should not be allowed to 
prevent us from engaging in a very important dialogue to reinvigorate 
and re-energize wildlife conservation as a tool for U.S. diplomacy and 
leadership abroad. To that end, I welcome the views of all, and I stand 
ready to roll up my sleeves and set to work on the task at hand. We 
have no time to waste.
                                 ______
                                 
    Ms. Bordallo. I now recognize Mr. Brown, the Ranking 
Republican Member of the Subcommittee. The gentleman is from 
South Carolina, and I recognize him now for his opening 
statement.

  STATEMENT OF HON. HENRY E. BROWN, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Brown. Thank you, Madam Chair. Today, we will hear 
testimony on your ambitious bill to recognize the U.S. Fish and 
Wildlife Service and to greatly expand the size and function of 
this agency.
    Under H.R. 3086, you would create a new office called the 
Institute of International Wildlife Conservation, a new Global 
Wildlife Coordination Council, a new International Wildlife 
Conservation Fund, a new Emergency Rehabilitation and Recovery 
Grant program, a new Global Wildlife Conservation Advisory 
Committee, and the expenditure of up to $20 million in 
taxpayers' money for wildlife grants and university 
fellowships.
    This legislation also authorizes the Wildlife Without 
Borders program, which has administratively existed since 1983 
and has been effectively managed by the Service's International 
Affairs Office. I have been a supporter of this program and 
note that this Subcommittee held a hearing just last year on a 
bill introduced by the former Chairman of this Committee to 
authorize the Wildlife Without Borders program. In fact, the 
language in H.R. 3086 is strikingly similar to that measure, 
which was overwhelmingly endorsed by not only the Fish and 
Wildlife Service but a number of prominent wildlife 
conservation organizations.
    While there are a number of positive provisions in H.R. 
3086, there is no indication of what it would cost our 
taxpayers to create this new Federal bureaucracy and what 
ultimately happens to the International Affairs Office, which 
would apparently be left to issue CITES permits and evaluate 
foreign endangered species listings.
    This legislation will require a massive reorganization not 
only of the Fish and Wildlife Service but also a number of 
other Federal agencies.
    Madam Chair, we also support wildlife conservation, whether 
it is here in the United States or international. There are no 
Republican or Democrat endangered species. We are all 
interested in doing whatever we can to save wildlife species 
from extinction, whether they are elephants, great apes, 
tigers, or marine turtles, and we are all working to ensure 
that our grandchildren have the opportunity to save these 
animals in their natural habitat.
    It is, therefore, frustrating that despite my specific 
request to spend a little time digesting the details of this 
52-page bill prior to its introduction, it was full steam ahead 
with no input from this side of the aisle. Nevertheless, I 
would renew my request that, following this hearing, we will 
begin to work together on this legislation in a bipartisan 
manner. I look forward to that opportunity.
    Finally, I would like to warmly welcome our distinguished 
witnesses, including the President of the World Wildlife Fund, 
Mr. Carter Roberts; the Acting Director of the National Zoo, 
Dr. Steve Monfort; and Dr. Sam Wasser, Mr. Craig Potter, and 
Dr. Rowan Gould; and a young lady and talented actress who, in 
the tradition of Theodore Roosevelt, has dedicated her life to 
wildlife conservation, Bo Derek.
    They have all traveled long distances to give us their 
valuable insight on this legislation, and we appreciate their 
presence.
    Thank you, Madam Chair. I look forward to the witnesses.
    [The prepared statement of Mr. Brown follows:]

  Statement of The Honorable Henry E. Brown, Jr., Ranking Republican 
      Member, Subcommittee on Insular Affairs, Oceans and Wildlife

    Madam Chairwoman, today, we will hear testimony on your ambitious 
bill to reorganize the U.S. Fish and Wildlife Service and to greatly 
expand the size and functions of this agency.
    Under H.R. 3986, you would create a new line office called the 
Institute for International Wildlife Conservation, a new Global 
Wildlife Coordination Council, a new International Wildlife 
Conservation Fund, a new Emergency Rehabilitation and Recovery Grant 
Program, a new Global Wildlife Conservation Advisory Committee and the 
expenditure of up to $20 million in taxpayer money for wildlife grants 
and university fellowships.
    This legislation also authorizes the Wildlife Without Borders 
program which has administratively existed since 1983 and has been 
effectively managed by the Service's International Affairs Office. I 
have been a supporter of this program and note that this Subcommittee 
held a hearing just last year on a bill introduced by the former 
Chairman of this Committee to authorize the Wildlife Without Borders 
Program. In fact, the language in H.R. 3086 is strikingly similar to 
that measure which was overwhelmingly endorsed by not only the Fish and 
Wildlife Service but a number of prominent wildlife conservation 
organizations.
    While there are a number of positive provisions in H.R. 3086, there 
is no indication of what it would cost our taxpayers to create this new 
federal bureaucracy and what ultimately happens to the International 
Affairs Office which would apparently be left to issue CITES permits 
and evaluate foreign endangered species listings. This legislation will 
require a massive reorganization of not only the Fish and Wildlife 
Service but also a number of other federal agencies.
    Madam Chairwoman, we all support wildlife conservation whether it 
is here in the United States or international. There are no Republican 
or Democratic endangered species. We are all interested in doing 
whatever we can to save wildlife species from extinction, whether they 
are elephants, Great apes, tigers or marine turtles, and we are all 
working to ensure that our grandchildren have the opportunity to save 
these animals in their natural habitat.
    It is, therefore, frustrating that despite my specific request to 
spend a little time digesting the details of this 52-page bill prior to 
its introduction, it was full stream ahead with no input from this side 
of the aisle. Nevertheless, I would renew my request that following 
this hearing we will work together on this legislation in a bipartisan 
manner. I look forward to that opportunity.
    Finally, I would like to warmly welcome our distinguished witnesses 
including the President of the World Wildlife Fund, Mr. Carter Roberts, 
the Acting Director of the National Zoo, Dr. Steve Monfort and a young 
lady and talented actress, who in the tradition of Theodore Roosevelt, 
has dedicated her life to wildlife conservation, Bo Derek. They have 
all traveled long distances to give us their valuable insights on this 
legislation and we appreciate their presence.
    Thank you, Madam Chairwoman.
                                 ______
                                 
    Ms. Bordallo. I thank the gentleman from South Carolina, 
the Ranking Member of this Subcommittee, and before I recognize 
the members of the panel, I would like to ask unanimous consent 
to enter into the record a letter in support of H.R. 3086 
submitted by the Wildlife Conservation Society. The statement 
is that of John F. Calvelli, Executive Vice President, Public 
Affairs, Wildlife Conservation Society. Hearing no objection, 
so ordered.
    [NOTE: The statement of John F. Calvelli can be found on 
page 90.]
    I would like to also recognize one other Member of our 
Committee, the gentlelady from the Virgin Islands, Donna 
Christensen, who is here with us. Thank you very much, Donna.
    And now I would like to recognize our panel of witnesses to 
testify. Our witnesses include Dr. Rowan Gould, the Acting 
Director, the Fish and Wildlife Service; Ms. Bo Derek, who I 
had the opportunity to meet yesterday--she is an actress, a 
model, and an activist, and she is a board member of WildAid; 
Dr. Carter Roberts, President of the World Wildlife Fund; Dr. 
Steven Monfort, Acting Director, Smithsonian Zoological Park; 
Dr. Sam Wasser, Director, Center for Conservation Biology, 
University of Washington; and, finally, Dr. J. Craig Potter, 
International Wildlife Lawyer, Law Offices of J. Craig Potter.
    I welcome you all this afternoon to the panel and, as we 
begin, I would like to note for all of the witnesses that the 
red timing light on the table will indicate when five minutes 
have passed, and your time has concluded. We would appreciate 
your cooperation in complying with these limits, but be assured 
that your full written statement will be submitted for the 
hearing record and, at this point, I would now like to 
recognize Dr. Gould. Could you please begin?

STATEMENT OF ROWAN GOULD, PH.D., ACTING DIRECTOR, UNITED STATES 
  FISH AND WILDLIFE SERVICE; ACCOMPANIED BY BENITO A. PEREZ, 
     CHIEF, LAW ENFORCEMENT, U.S. FISH AND WILDLIFE SERVICE

    Dr. Gould. Thank you for the opportunity to present the 
Administration's view on H.R. 3086, the ``Global Wildlife 
Conservation, Coordination and Enhancement Act of 2009.'' H.R. 
3086 focuses on the role the United States plays in the 
conservation of wildlife and natural resources around the globe 
and expands the mandates of the U.S. Fish and Wildlife Service 
in international wildlife conservation.
    While the Administration supports the Subcommittee's intent 
to further international conservation efforts, we have serious 
concerns with the bill and cannot support it as drafted. We 
appreciate the Subcommittee's continued support of the 
Multinational Species Conservation Acts and look forward to 
continuing to work with you to conserve rare and endangered 
species.
    Through MOUs and other agreements, the Department of the 
Interior and its bureaus cooperate with over 100 countries on 
environmental conservation and natural resource management. The 
Committee should be aware that other agencies within DOI have 
international conservation responsibilities and programs. 
However, since I am currently serving as the acting director of 
the U.S. Fish and Wildlife Service, the remainder of my 
testimony will be focused on the Service's international 
activities.
    The Service has a proven track record of achievement in 
international conservation, both through our proactive efforts 
with programs such as Wildlife Without Borders, and our 
enforcement of U.S. treaties and laws that regulate 
international wildlife trade. The Service has cultivated a 
broad-reaching network of partners around the world that 
support our international conservation efforts. I would like to 
highlight some of the successes that the Service's 
international affairs and law enforcement programs have 
demonstrated.
    Since its inception, the Service's Wildlife Without Borders 
program has strived to facilitate and promote meaningful 
international conservation efforts to conserve the world's 
diverse species. We have collaborated with over 500 
international conservation organizations and institutions to 
support more than 800 conservation projects around the world. 
We appreciate the Subcommittee's interest in strengthening the 
Administration's international conservation efforts.
    In general, we support the bill's provisions that would 
codify the Service's Wildlife Without Borders program with 
modifying language to retain the Secretary's discretionary 
authority to implement the program. The Service, through its 
law enforcement program, is the principal Federal agency 
responsible for enforcing U.S. laws and treaties that prohibit 
wildlife trafficking and regulate wildlife trade. The program 
has long supported the efforts of other nations to improve 
wildlife law enforcement capacity. Since 2000, Service agents, 
wildlife inspectors, and forensic scientists have conducted or 
participated in more than 70 training programs for enforcement 
officers representing more than 60 different countries.
    The Administration does, however, have serious concerns 
with some of the provisions of the legislation.
    First, H.R. 3086 establishes an Institute for International 
Wildlife Conservation within the Service. Creating this 
institute would cause conflict within the Department of the 
Interior, as well as create overlapping responsibilities within 
the Service. It is unclear in the language of the bill how the 
proposed institute and the Service's existing international 
affairs and international wildlife trade programs would fit 
together. For these reasons, we do not support the creation of 
a new institute to house the work that we are doing already.
    Second, the bill mandates the contents of a strategic plan 
for Service law enforcement. We feel that this would unduly 
restrict the flexibility needed to direct law enforcement 
resources.
    Regarding the International Wildlife Conservation Fund, the 
Administration is concerned that donations and gifts received 
by the Secretary could present a conflict of interest if 
accepted from the same entities that the Service regulates.
    Finally, the Administration is concerned that the 
provisions of this bill would require significant new financial 
and staffing resources and does not provide any authorization 
level. The expectation that the Department of the Interior 
would support all of the new programs as currently written in 
the bill was not anticipated in the Administration's Fiscal 
Year 2010 budget submission.
    Thank you, Madam Chairwoman, for the opportunity to testify 
on H.R. 3086. The Administration sincerely appreciates the 
Subcommittee's continued support of international wildlife 
conservation efforts. This concludes my remarks, and I be happy 
to answer any questions at this time.
    [The prepared statement of Dr. Gould follows:]

 Statement of Rowan Gould, Acting Director, Fish and Wildlife Service, 
                    U.S. Department of the Interior

    Thank you for the opportunity to present the Administration's views 
on H.R. 3086, the Global Wildlife Conservation, Coordination, and 
Enhancement Act of 2009 and describe Interior Department programs that 
support the role that the United States plays in the conservation of 
wildlife and natural resources around the globe. While the 
Administration supports the intent of the Subcommittee to further the 
goal of international conservation efforts, we have serious concerns 
with the bill and cannot support it as drafted. I would like to explain 
why in the context of our existing programs.
Department of the Interior International Programs
    Through Memoranda of Understanding or reimbursable agreements, the 
Department of the Interior (DOI) and its Bureaus cooperate with over 
100 countries on environmental conservation and natural resource 
management. DOI has the most activities with: Mexico, Canada, the 
countries of Central America, Afghanistan, Jordan and Tanzania. DOI 
currently has over 150 full-time employees who work on international 
activities, most of whom are with the U.S. Geological Survey and the 
U.S. Fish and Wildlife Service (Service). DOI employees make 
approximately 2,500 annual trips abroad to carry out international 
cooperation activities. Our international programs enhance our domestic 
responsibilities.
    Under the Office of the Secretary, the DOI Office of International 
Affairs (which reports to the Assistant Secretary--Policy, Management, 
and Budget) coordinates international activities involving more than 
one Bureau, approves international travel, and is the primary DOI point 
of contact for: the State Department and other U.S. Government agencies 
engaged in international activities; foreign embassies and ministries; 
and international organizations. Since I am currently serving as the 
Acting Director of the Service, my testimony will be focused on the 
international activities of the Service. However, the Committee should 
be aware that other agencies within DOI, including the National Park 
Service, have international conservation responsibilities and programs.
U.S. Fish and Wildlife Service's International Programs
    We appreciate the Subcommittee's continued support of the 
Multinational Species Conservation Acts and look forward to continuing 
to work with the Subcommittee to conserve rare and endangered species.
    Wildlife and natural resources are under pressure from growing 
human populations and corresponding changes in land use, pollution, and 
consumption of natural resources. The complexity and diversity of these 
challenges require a coordinated, strategic approach led by skilled 
conservationists. Wildlife management for long-term sustainability; 
capacity building; conservation of endangered species, landscapes, and 
ecosystems; and environmental outreach, education, and training are 
tools that can address current and emerging issues in wildlife 
conservation. The Service is in a strong position to influence and 
shape the outcome of wildlife conservation abroad by building on 
demonstrated successes utilizing existing expertise in wildlife 
management, outreach, and accessing best available technologies.
    The Service has a proven track record of achievement in 
international conservation, both through our proactive efforts with 
programs such as Wildlife Without Borders and our enforcement of U.S. 
treaties and laws that regulate international wildlife trade. The 
Service has cultivated a broad-reaching network of partners around the 
world that support our international conservation efforts. I would like 
to highlight some examples of the successes that the Service's 
International Affairs and Law Enforcement programs have demonstrated in 
the area of international conservation.
    Since its inception, the Service's Wildlife Without Borders program 
has strived to facilitate and promote meaningful conservation efforts 
to help ensure conservation of the world's diverse species. The program 
has collaborated with over 500 international conservation organizations 
and institutions to support more than 800 conservation projects around 
the world.
    In 2008, Wildlife Without Borders Regional programs supported 
habitat protection for the endangered Andean tapir in and around two 
Ecuador protected areas, bringing local government officials and 
community leaders together to learn about the importance of the 
species, and how to integrate conservation strategies with livelihood 
opportunities. Similarly, in Africa, the newly created national park 
system of Gabon supported by Wildlife Without Borders has developed 
effective management strategies and the training of protected-area 
personnel. In Asia, Wildlife Without Borders grants have increased 
capacity to mitigate human-wildlife conflicts, established community 
development programs, and supported the ongoing efforts of 13 range-
country governments to survey and monitor their elephant populations 
and develop effective management strategies for them.
    The Multinational Species Conservation Funds and Wildlife Without 
Borders Species programs are the linchpin for the success of targeted, 
effective on-the-ground conservation efforts for species worldwide. The 
Marine Turtle Conservation Fund has enabled the Service to support 
intensified nesting beach protection of critically endangered 
leatherback sea turtles on beaches in Mexico, Costa Rica, Indonesia, 
and Papua New Guinea. In 2008, the African Elephant Conservation Fund 
supported a project to analyze satellite images and conduct preliminary 
aerial and ground surveys that will serve as the basis for drafting new 
conservation action plans for Upemba and Kundelungu national parks in 
the Democratic Republic of Congo, where wildlife populations have not 
been assessed in more than two decades due to civil strife and collapse 
of the national infrastructure.
    Wildlife Without Borders also serves a key role within the Service 
in facilitating bilateral and multilateral dialogues through the 
organization of fora such as the United States-Russian Federation Joint 
Committee on Cooperation for Protection of the Environment and Natural 
Resources; the Western Hemisphere Migratory Species Initiative; and the 
US-Mexico-Canada Trilateral Committee for Wildlife and Ecosystem 
Conservation and Management. The Service, through participation in such 
fora, has developed an understanding of techniques used around the 
world to better facilitate technology transfer, making wildlife 
conservation more efficient and effective.
    The Service, through its International Wildlife Trade (IWT) 
program, carries out the functions and responsibilities for the 
implementation of the Convention on International Trade in Endangered 
Species of Wild Fauna and Flora (CITES) for the United States. These 
responsibilities are specifically assigned to the Service under the 
Endangered Species Act (ESA). In addition to CITES, the IWT program 
also has responsibilities for regulating the international and 
interstate movement of wildlife under several other statutes, including 
the Endangered Species Act, Wild Bird Conservation Act, Migratory Bird 
Treaty Act, Lacey Act, and Marine Mammal Protection Act.
    The IWT program issues 15,000-20,000 permits annually for import, 
export, interstate and foreign commerce, take of captive specimens, 
transport of live invasive species, and other activities involving 
wildlife and plants. The Service also cooperates with State and tribal 
partners to ensure the conservation and sustainable use of U.S. native 
species subject to international trade, including American ginseng, 
paddlefish, shovelnose sturgeon, American alligator, freshwater 
turtles, bobcat, and river otter.
    The Service coordinates and communicates with the other 174 
countries that are Parties to CITES on specific permit issues as well 
as broader policy and implementation. From 2000-2007, the United States 
submitted 20-25% of the species listing proposals considered by the 
CITES Parties, and many of these were co-sponsored with other countries 
(including Australia, Bolivia, China, Fiji, Georgia, Germany, India, 
Indonesia, Ireland, Kenya, Mexico, Namibia, Nepal, the Netherlands, and 
Sri Lanka).
    The Service, through its Office of Law Enforcement, is the 
principal Federal agency responsible for enforcing U.S. laws and 
treaties that prohibit wildlife trafficking and regulate wildlife 
trade. Working with available resources and a network of U.S. and 
global partners, the Office of Law Enforcement investigates illegal 
trade, inspects wildlife imports and exports to detect and deter 
unlawful trade and conducts outreach to promote compliance with 
wildlife laws.
    The Service's Office of Law Enforcement has long supported the 
efforts of other nations to improve wildlife law enforcement capacity 
and strengthen safeguards for their native species. Since 2000, for 
example, Service special agents, wildlife inspectors, and forensic 
scientists have conducted or participated in more than 70 training 
programs for wildlife investigators, park rangers, customs inspectors, 
game wardens, and other enforcement officers representing more than 60 
different countries. Ongoing partnerships with the International Law 
Enforcement Academy/Botswana and Association of Southeast Asian 
Nations-Wildlife Enforcement Network (ASEAN-WEN) provide investigative 
training to officers from multiple range states in sub-Saharan Africa 
and Southeast Asia.
    Such efforts, which have been undertaken utilizing existing 
resources, within DOI and with resources from DOS and USAID as part of 
their existing conservation efforts clearly contribute to capacity 
building in nations where wildlife resources are threatened by illegal 
or unsustainable trade. Global wildlife conservation also benefits from 
broader U.S. participation in groups such as the North American 
Wildlife Enforcement Network, the CITES Law Enforcement Experts Group, 
and the Interpol Wildlife Working Group and from ongoing communication 
and coordination with regional enforcement alliances (such as ASEAN-WEN 
and the Lusaka Task Force) and enforcement agencies in other countries.
H.R. 3086
    We appreciate the Subcommittee's intent of this legislation to 
strengthen the Administration's international conservation efforts and, 
in general, support the provisions of the legislation that codify the 
Service's Wildlife Without Borders Program with modifying language to 
retain the Secretary's discretionary authority to carry out and 
implement the program. However, we have serious concerns with the 
remaining provisions of the legislation.
    H.R. 3086 recognizes the conservation benefits that the Service is 
accomplishing via the Wildlife Without Borders program. Title I, 
Subtitle B, would codify the Wildlife Without Borders program, 
incorporating various activities of the International Affair's Division 
of International Conservation into a more unified and cohesive program. 
It would provide a coordinated approach toward existing and emerging 
threats to wildlife at varying scales, leveraging and complementing the 
Service's efforts in these areas.
    H.R. 3086 authorizes the Service's three Wildlife Without Borders 
sub-programs that operate in concert with one another to address 
threats to global wildlife. The Species program implements the 
Multinational Species Conservation Acts and their associated grants 
programs, which allow specialists to share information, conduct 
research, and implement management activities for targeted species. The 
Regional program addresses grassroots wildlife conservation problems 
from a broader, landscape perspective using capacity building and 
institutional strengthening as primary tools. The Global program 
implements global habitat and conservation initiatives such as the 
Ramsar Convention on Wetlands, and assists the Service in addressing 
global threats to wildlife, such as the spread of invasive species and 
wildlife disease.
    The Service has actively cultivated strong relationships with other 
Federal agencies, states, foreign governments, academic institutions 
and non-governmental organizations around the world. Within the U.S. 
Government, the Department of Interior works closely with the 
Department of State and the Agency for International Development to 
assist with their broader policy and integrated conservation 
development programs. The Service continues to provide targeted 
technical support to these programs, particularly in regard to wildlife 
enforcement and park management. The Service does not support the 
creation of a new Institute to house the work that we are already 
doing. Nor do we support the requirement to develop and implement a 
plan to expand programs in Mexico, Latin America and the Caribbean, 
Russia, and Africa. Implementing this plan, which would be mandatory if 
this bill is passed, may drain valuable resources necessary for other 
international wildlife efforts
    We have several concerns regarding the bill's proposed 
restructuring of the Service's International Affairs program; 
challenges that would arise from this new organization of the program; 
potential conflicts of interest; and the lack of authorization that 
would be required to implement the bill as currently written.
    H.R. 3086 mandates the contents of a strategic plan for Service law 
enforcement in a manner that would unduly restrict the flexibility 
needed to direct enforcement resources. It calls for efforts that are 
either underway or beyond the program's capabilities. It calls for 
placement of seized wildlife without consultation with the Service 
(which enforces regulations that limit such placements) and authorizes 
the Law Enforcement program to accept gifts and donations--again 
creating the potential for conflicts of interest and potential 
questions about the fairness and objectivity of enforcement efforts.
    H.R. 3086 establishes an Institute for International Wildlife 
Conservation within the Service. The creation of this Institute with 
responsibilities related to the work of other Department bureaus would 
engender cross-bureau conflict within the Department of the Interior as 
well as create overlapping responsibilities within the Service. It is 
unclear in the language of the bill how the proposed Institute and the 
Service's existing International Affairs program would fit together.
    The Global Wildlife Conservation, Coordination and Enhancement Act 
would also create an Assistant Director position to head the Institute. 
This position would be appointed by the Secretary, rather than the 
Director, and the Act does not specify to whom the Assistant Director 
would report and, again, poorly integrates the new infrastructure with 
the existing organization. The bill authorizes the newly-appointed 
Assistant Director to coordinate international conservation efforts 
within the Department of the Interior. As mentioned previously, the 
Department of the Interior already has an Assistant Secretary for 
Policy, Management, and Budget that oversees the Department's Office of 
International Affairs. This office coordinates international activities 
involving more than one Bureau. The position created by the bill 
appears to duplicate some of what is currently being done. Significant 
clarification on the roles and responsibilities of the new Assistant 
Director is needed, particularly since the Department already has an 
Assistant Secretary in place to oversee the Department's international 
program and the other Interior bureaus have their own international 
programs.
    H.R. 3086 proposes to establish the International Wildlife 
Conservation Fund which would consist of donations, gifts, and 
contributions received by the Secretary of the Interior for 
international wildlife conservation. The Fund would receive donations 
and gifts from potentially the same entities and individuals that the 
Service regulates and to whom we issue permits and award grants. The 
Administration has concerns that this may be seen as a conflict of 
interest by outside parties. There are also potential conflicts with 
Service obligations under CITES and the Endangered Species Act with 
regard to the suggested functions of the Center for International 
Wildlife Recovery Partnerships. In addition, the lack of availability 
for these funds to be used by the Wildlife Without Borders program (as 
restricted in the legislation) seems to be at cross purposes with the 
intent of the bill to support that program.
    Title II of H.R. 3086 proposes the establishment of a Global 
Wildlife Coordinating Council. The Administration would not support the 
establishment of this formal coordinating authority and is gravely 
concerned that this Council could seriously hinder our broader 
international efforts to conserve wildlife globally, particularly those 
efforts undertaken within the mandate of other Federal agencies. 
Existing mechanisms, such as the CITES Coordinating Committee, already 
provide for CITES-related coordination and consultation among Federal 
departments and agencies, and between the federal and state 
governments.
    Finally, the Administration is concerned that this bill would 
require significant new financial and staffing resources and only 
provides authorization amounts for specific subsections of the bill. 
The Administration's FY 2010 Budget submission did not anticipate or 
include funding to support new and expanded programs as outlined in the 
bill.
    Thank you, Madam Chairwoman, for the opportunity to testify on H.R. 
3086. The Administration appreciates the Subcommittee's continued 
support of international wildlife conservation efforts. We look forward 
to working with the Subcommittee to further international conservation. 
This concludes my remarks, and I would be happy to answer any questions 
at this time.
                                 ______
                                 

  Response to questions submitted for the record by Dr. Rowan Gould, 
            Acting Director, U.S. Fish and Wildlife Service

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  I recognize that the administration has concerns with the new 
        organizational structures authorized in H.R. 3086. It is my 
        understanding, however, that the administration does not 
        necessarily object to the principal objectives of the bill 
        (i.e., greater coordination within the Department of the 
        Interior and with other relevant Federal agencies; expanded 
        public outreach and education regarding the illegal trade in 
        wildlife and wildlife products; authorization of the Wildlife 
        Without Borders Program; expansion of training opportunities, 
        especially for law enforcement capabilities in range states; 
        greater collaboration with non-Federal NGO stakeholders, 
        especially utilization of technical and educational assets 
        within the zoo and aquarium community, etc.). Is that a correct 
        assumption?
    The Administration appreciates the intent of the Subcommittee to 
strengthen the Department of the Interior's coordination and 
collaboration with other agencies and stakeholders on international 
wildlife conservation issues and to strengthen outreach and training 
opportunities. While all of these components are important, H.R. 3086, 
as currently written, does not allow the Secretary to use his 
discretionary authority to carry out and implement priority programs 
that best support the Department's international wildlife conservation 
efforts in conjunction with other U.S. Government and other partners.
2.  In your written statement you express concern that the 
        International Wildlife Conservation Institute created in the 
        bill would be ineffective in coordinating international 
        wildlife conservation activities with the Department, and that 
        this Institute would create organizational confusion within DOI 
        and within the U.S. Fish and Wildlife Service. Should the 
        Committee amend the bill to strike the authorization of the 
        Institute, and instead, direct the DOI Assistant Secretary for 
        International Affairs to take the lead on coordination within 
        Department? Would the administration support this revision?
    The Administration supports striking the bill's language 
authorizing an Institute. If H.R. 3086 were to be amended as you 
indicate, the Administration would have the same concern regarding the 
creation of new organizational structures without clarification of how 
they fit into or with the existing structure. There is no DOI Assistant 
Secretary for International Affairs, and the Department's Office of 
International Affairs is under the Assistant Secretary for Policy, 
Management, and Budget. The Office of International Affairs currently 
coordinates activities that are cross-cutting, international wildlife 
conservation activities as well as other matters that involve more than 
one DOI Bureau. The Administration supports the provisions on 
information-sharing and collaboration with other Bureaus but not one 
that directs the Service to lead these efforts within the Department.
3.  How often are you, as the acting director of the Service, involved 
        in face-to-face meetings with other agency and department heads 
        to discuss international wildlife conservation, the illegal and 
        unsustainable trade in wildlife and wildlife products, the role 
        of the U.S. consumer in aiding and abetting that trade, and the 
        coordination of conservation efforts domestically and 
        internationally?
    Meetings with other agency and departmental heads are held as 
needed on policy issues that impact the operations of other agencies or 
the Department. For example, meetings were held with the U.S. 
Geological Survey (USGS) to coordinate climate change strategies and 
research needs. In addition, Service leadership meets with other agency 
and department heads to address interagency conflicts or issues on U.S. 
negotiating positions in preparation for international meetings such as 
the Convention on International Trade in Endangered Species (CITES) and 
to coordinate law enforcement actions regarding illegal trafficking.
    There is on-going communication and coordination between the 
Service and other government entities at all levels of responsibility 
on the implementation of international conservation issues and 
activities. For example, managers and staffs of our International 
Wildlife Trade and International Conservation and Law Enforcement 
programs work directly on a regular basis with counterparts from a 
variety of departments and agencies to address international 
conservation. U.S. participation in CITES is coordinated step by step 
with other Cabinet level departments (including State, Commerce, 
Agriculture, Homeland Security, and Justice) and with numerous agencies 
(including the Office of the U.S. Trade Representative, the Animal and 
Plant Health Inspection Service, U.S. Forest Service, Council on 
Environmental Quality, NOAA Fisheries, Customs and Border Protection, 
the U.S. Agency for International Development, the Smithsonian 
Institution, and the Interior Department's Office of International 
Affairs).
    Other bureaus with the Department of the Interior also are actively 
coordinating with International community on wildlife conservation 
efforts.
    For example, the National Park Service (NPS) Office of 
International Affairs (OIA) is the NPS focal point for international 
activities and serves as the primary contact for other bureaus, 
agencies, foreign governments, and international and private 
organizations on related matters. Through OIA, the NPS exchanges 
technical and scientific information, shares knowledge and lessons 
learned, and provides technical assistance to other nations on park and 
heritage resource management issues.
    The NPS Park Flight Migratory Bird Program is the national and 
international migratory bird program in the NPS. The Program has 
implemented projects and technical exchange efforts in national parks 
across the U.S., and in national parks and protected areas in 19 other 
countries in the Western Hemisphere which share migratory bird species.
    The NPS also conducts the Intermountain Region International 
Conservation Program (IMRICO) which facilitates international 
cooperation in the stewardship of resources with Canada and Mexico. 
IMRICO also provides technical assistance to the Intermountain Region 
parks by working with their Mexican and Canadian colleagues on research 
projects, inventories, and the development of appropriate protection 
strategies for natural resources in the border region such as bat, 
jaguar and Sonoran pronghorn conservation.
4.  Title II of the bill was adapted from the legislative authority 
        used to establish the U.S. Coral Reef Task Force which, as you 
        know, has been successful in promoting greater coordination and 
        cooperation among Federal, State and Territorial governments in 
        protecting and conserving U.S. coral reef resources. Assuming 
        that the Obama administration supports international wildlife 
        conservation, and further recognizing that nothing in Title II 
        would change the statutory authorities of any of the Federal 
        agencies participating on the Global Wildlife Coordination 
        Council, nor require these agencies to implement any new 
        programs, can you please describe how Title II could be amended 
        to address the concerns of the administration?
    The Administration supports international wildlife conservation. 
The concept of a Global Wildlife Coordination Council has potential 
benefits and could be effective to the extent that it can forge new 
ground. However, under H.R. 3086, the Council overlaps with specific 
pre-existing committees and coordination efforts.
    We recognize the U.S. Coral Reef Task Force has been effective in 
reaching across jurisdictional lines and intergovernmental barriers to 
ensure that Federal, State and territorial agencies work together to 
conserve coral reefs in the United States. The Task Force's success, 
however, does not necessarily make it a universal model for promoting 
interagency cooperation in every arena. The U.S. Coral Reef Task Force 
was developed in order to fill a need where there was no existing 
coordinating activity or body, whereas H.R. 3086 would result in 
overlap, redundancy, and conflict with current coordinating structures.
    Unlike U.S. coral reef conservation, multiple coordination 
mechanisms already exist to apply Federal expertise in supporting range 
state conservation and capacity building, ensuring sustainable trade, 
and assistance in combating illegal wildlife trafficking. The proposed 
Global Wildlife Coordination Council would bring together the same 
experts representing the member departments and agencies who are 
already engaged in such coordination through other forums.
    For example, the CITES Coordinating Committee (whose members are 
listed in our response to question 3 above) already oversees Federal 
agency efforts to fulfill U.S. obligations under the CITES treaty and 
provides an arena for communication and collaboration with respect to 
international wildlife conservation. Creating a new Council for these 
same purposes would be duplicative. Coordination of U.S. efforts to 
support global wildlife conservation are also effectively addressed via 
the Council on Environmental Quality, as evidenced by the coordinated 
work of the many agencies involved in developing and implementing the 
recent Lacey Act amendments for combating illegal trade in timber and 
other plants. With respect to law enforcement, coordination already 
exists on the ground through such mechanisms as port-based interagency 
task forces for intercepting illegal trade and Service participation in 
the development of the planned International Trade Data System, which 
will facilitate interagency information sharing and smuggling 
interdiction for more than 20 partner agencies that police trade.
    The duties of the proposed Council would require significant staff 
resources and call for assessing virtually every aspect of global 
wildlife trade. The proposed Council is also required to develop a 
global wildlife action strategy, which calls for either redundant or 
even more wide-reaching assessments. Since there is no funding for 
administratively supporting a Council or staff, meeting these mandates 
would fall on the agency programs and offices whose missions include 
international conservation and on NGOs and academics invited to 
participate in working groups.
    For the reasons outlined above, the Administration does not support 
the creation of a Global Wildlife Coordination Council and recommends 
that Title II be removed from H.R. 3086.
5.  As one of the world's largest consumers of both the legal and 
        illegal wildlife market, are the United States' international 
        conservation efforts hampered by a lack of interagency 
        coordination?
    U.S. CITES implementation, U.S. conservation assistance to other 
countries, and U.S. wildlife trade enforcement in this country are all 
closely coordinated with a host of other agencies, and the Service 
actively seeks and welcomes appropriate additions to, or expansions of, 
its existing partnerships.
    In combating global wildlife trafficking, for example, the 
Service's Office of Law Enforcement works closely with the Department 
of Homeland Security (particularly Customs and Border Protection and 
Immigration and Customs Enforcement), the Department of Agriculture's 
Animal and Plant Health Inspection Service, the Food and Drug 
Administration, the Centers for Disease Control and Prevention, U.S. 
Attorney's Offices, the Justice Department's Environment and Natural 
Resources Division, Interior Department Solicitor's offices, and 
Interior's International Technical Assistance Program. The Office of 
Law Enforcement has also recently increased its liaison with the U.S. 
National Central Bureau-Interpol. Enforcement and capacity building 
efforts are coordinated on a regional and global basis through such 
entities as the North American Wildlife Enforcement Group, the CITES 
Law Enforcement Experts Group, the CITES Secretariat, the Interpol 
Wildlife Working Group, the Association of Southeast Asian Nations-
Wildlife Enforcement Network, the International Law Enforcement 
Academy/Botswana, and enforcement authorities in individual nations.
6.  How is the Service cultivating the next generation of conservation 
        scientists and leaders? Would the fellowships authorized in 
        section 122(c) of the bill help in this regard?
    The fellowships described in H.R. 3086 would complement and 
leverage the work the Service is already doing to support foreign 
students and the in-service, in-country capacity building efforts we 
support in various countries. The Service's international programs have 
a history that spans more than twenty years of cultivating future 
conservation leaders in the developing world. Capacity building to 
promote and enhance sound management of wildlife and other natural 
resources is a central component of the Wildlife Without Borders 
Species and Regional programs. For example, this fall, the 
International Institute for Wildlife Conservation and Management, a 
highly interdisciplinary graduate program located at the National 
University of Costa Rica, will celebrate 25 years of partnership with 
the Wildlife Without Borders Program. Throughout Latin America, more 
than 400 graduates from this program, the first of its kind in the 
region, are now leading conservation efforts in their home countries.
    It is important to note that the Service's history in supporting 
the development of scientists and leaders internationally has, to date, 
been primarily focused on building these capacities within range 
countries.
    Engagement with the International community and the development of 
the next generation of conservation scientists and leaders is a 
priority for many of the bureaus within the Department of the Interior, 
and not just within the U.S. Fish and Wildlife Service. The National 
Park Service has a long tradition of international engagement, and has 
either helped create or significantly influenced the development of 
park systems in nearly every other country in the world.
    The NPS Park Flight Migratory Bird Program technical exchanges have 
contributed significantly to capacity building for migratory bird 
conservation in Latin America. Examples include:
    <bullet>  The assistance of NPS International Volunteers in Parks 
(IVIPs) from Latin America, Canada and the Caribbean with Park Flight 
monitoring and education projects in U.S. national parks. Since FY 
2001, 68 IVIPs, including 65 from 14 Latin American countries, two from 
Canada, and one from the Caribbean have assisted with Park Flight 
monitoring and education projects in NPS units. These IVIPs contributed 
a total of almost 30,000 hours valued at over $550,000, with an 
additional 10,000+ hours being contributed in FY 2009.
    <bullet>  Park Flight has provided technical assistance related to 
migratory birds to eight countries in Latin America and the Caribbean, 
for monitoring, data analysis, environmental education, trail 
interpretation, exhibit planning and design, visitor management, site 
planning, protected area management, and sustainable tourism.
    Currently, efforts are underway between Africa and the Dry Tortugas 
National Park to protect habitat of the sooty tern which migrates 
between these two countries to breed on Bushy Island within the park. 
The Administration supports these ongoing efforts to create a cadre of 
future leaders in international conservation. Additionally, the 
Administration appreciates the Subcommittee's shared interest in 
cultivating the next generation of conservation scientists and leaders, 
but recommends the use of existing successful programs rather than 
creating a new Fellowship program.
7.  How can the Service better benefit from the advice of public and 
        private organizations that have expertise in international 
        wildlife conservation? Does the administration support the 
        establishment of the Global Wildlife Conservation Advisory 
        Council as provided in section 131 of H.R. 3086?
    To ensure the Service receives as much input as possible from the 
experts and a broad spectrum of the public, we currently work with 
partner institutions that represent significant expertise in 
international conservation. The Service's International Wildlife Trade 
program actively seeks public input, both through public comment 
periods announced in the Federal Register and by hosting public 
meetings in the development of CITES proposals and other documents, as 
well as in the development of U.S. positions for meetings of the 
Conference of the Parties to CITES. The participation of experts in the 
CITES decision-making process is extremely important to the United 
States. In addition to seeking public participation in its own decision 
making process, the United States actively promotes the participation 
of experts in discussions at CITES meetings.
    The Service acknowledges that an advisory committee could provide 
the Service regular access to field-based experts and relevant 
information for the Service's consideration in implementing its grant 
programs aimed at supporting high-priority field-based conservation 
programs. However, the establishment of an advisory committee is 
already authorized under the provisions of the Federal Advisory 
Committee Act, and therefore we do not support the establishment of the 
Global Wildlife Conservation Advisory Committee as provided in section 
131 of H.R. 3086.
8.  Clearly the administration has concerns about the authorization of 
        a Center for International Wildlife Recovery Partnerships. 
        However, does the administration necessarily oppose the program 
        activities (i.e., wildlife research; wildlife conservation and 
        reintroduction; international coordination, public education 
        and training)? Acknowledging the fact that Smithsonian 
        Institution has recently re-organized directorates to create a 
        new Smithsonian Conservation Biology Institute, which in many 
        respects mirrors the program activities of the proposed Center, 
        would the administration support amending the bill to 
        incorporate the Smithsonian's capabilities via a formal 
        partnership agreement to function as the bridge to enable 
        greater cooperation between the Department of the Interior and 
        non-Federal NGO stakeholders?
    Projects supported by Wildlife Without Borders have demonstrated 
over their 30 years of program history that protecting wildlife through 
monitoring, research, law enforcement, and community outreach and 
education is effective in stabilizing and increasing the populations of 
animals where they are currently living in the wild. For example, the 
Zakouma elephant project in Chad, funded by the African Elephant 
Conservation Fund, immediately stabilized elephant populations upon 
receiving funding in 2007, as demonstrated by annual total aerial 
counts. This success came after an initial elephant population drop 
from 3,200 to 900 in a period of two years, leading wildlife experts to 
estimate that the project saved an entire regional population of 
elephants from extinction.
    The Service appreciates and within available resources hopes to 
build on the existing opportunities to collaborate with organizations 
on varied conservation activities as appropriate. The Service's 
International Affairs program already engages in a number of 
partnerships, cooperating with NGOs including the Association of Zoos 
and Aquariums, the World Wildlife Fund, Conservation International, the 
Wildlife Conservation Society, TRAFFIC, WildAid, as well as groups such 
as the Humane Society of the United States and Safari Club 
International. In addition, the Service has a Memorandum of 
Understanding (MOU) with the Conservation Centers for Species Survival 
(C2S2) including institutions such as the Smithsonian's Conservation 
and Research Center, Zoological Society of San Diego, White Oak 
Conservation Center, Fossil Rim Wildlife Center, and The Wilds. The MOU 
established the Service's coordination with these partners on 
endangered species research. We believe that formalizing a partnership 
between the Service and one particular organization such as the 
Smithsonian Institution would limit the Service's capacity to engage 
more broadly with other entities and NGO stakeholders in its work.
9.  What is the Fish and Wildlife Service doing now to enforce our 
        wildlife laws against those who trade illegal ivory and other 
        wildlife over the Internet?
    As an operational priority, the Service's Office of Law Enforcement 
investigates trafficking in protected wildlife (including trade 
conducted via the Internet) and uses outreach to the public (including 
Internet site providers) to promote compliance with wildlife protection 
laws and treaties. Many recent Service cases show that violators have 
used computer technology to further criminal activity.
    In response, Service Law Enforcement is leveraging Internet 
technologies in its intelligence gathering and investigations; 
partnering with website owners to increase public awareness of wildlife 
laws; providing cybercrime and computer forensics training to 
enforcement staff; building cybercrime investigative and forensics 
capacity; conducting appropriate undercover operations; and teaming 
with other Federal agencies to combat wildlife trafficking, including 
e-commerce.
    Service special agents and intelligence analysts routinely 
communicate with website companies to secure the removal of illegal 
auctions or listings, obtain identifying information on buyers and 
sellers, and--as appropriate--pursue investigations. The Law 
Enforcement program has added computer forensics staff at the National 
Fish and Wildlife Forensics Laboratory and has trained select officers 
in the seizure and analysis of computers and electronic media to 
bolster high-tech investigative capacity in the field. The Office of 
Law Enforcement is now in the process of establishing a Digital 
Evidence Recovery and Technical Support Unit staffed by special agents 
with both computer forensic and investigative skills to further improve 
the Service's ability to identify, retrieve, analyze, and utilize ``e-
evidence'' of wildlife crimes.
    The Service is also working with the CITES Secretariat and other 
international groups to address this issue on a global basis. In 2006, 
the Office of Law Enforcement helped plan and participated in an 
Internet investigations video conference with regional counterparts in 
the North American Wildlife Enforcement Group. Staff from the Law 
Enforcement and International Wildlife Trade programs represented the 
United States at a CITES-sponsored e-commerce workshop this past winter 
where they helped develop recommendations on combating Internet-based 
wildlife trade for the CITES Standing Committee.
    The Service, of course, cannot possibly investigate every web 
posting that offers ivory or some other potentially prohibited wildlife 
item for sale. The Law Enforcement program does not believe that such 
an undertaking would represent either the best use of the agency's 
enforcement resources or add significantly to progress in curtailing 
large-scale global wildlife trafficking.
10.  I understand that the administration has concerns regarding 
        section 141 of the bill. How does the administration propose 
        streamlining this provision? What would be an appropriate time 
        frame? Should the implementation of a revised Office of Law 
        Enforcement Strategic Plan be subject to the availability of 
        appropriations? Are there certain elements within section 141 
        that the administration would strike due to the need to 
        maintain confidentiality of data and information and avoid 
        exposure of ongoing investigations?
    Although the Service welcomes the Subcommittee's interest in and 
support of efforts to improve enforcement of U.S. laws that protect 
global species, we recommend removing section 141 in its entirety from 
this bill. This section calls for efforts that are already in progress 
under the program's existing strategic and workforce plans; envisions 
investments and expansions that reach well beyond the program's current 
capabilities and resources; and mandates some activities that are 
unlikely to have any serious impact on global wildlife trafficking. It 
also seemingly ignores the Service's important role in enforcing laws 
that protect native U.S. species from threats that include habitat loss 
and industrial hazards as well as illegal take and trade.
    Work is already underway to update the existing Office of Law 
Enforcement strategic plan (which covers 2006-2010) to provide overall 
direction, broad goals, and guiding principles for enforcement efforts 
in the period 2011-2015. We would welcome consultation with the 
Subcommittee during this process. The strategic plan would address the 
need for operational flexibility, the full nature of the program's 
enforcement mission, and the scope of its resource priorities.
    Unfortunately, Section 141 tries to address this last issue by 
authorizing the Service to accept donations and gifts from outside 
groups to support enforcement initiatives targeting global wildlife 
conservation. Such arrangements could create potential conflicts of 
interest, since groups ``donating'' may well be organizations engaged 
in activities regulated and policed by the Service. Enforcement 
programs should avoid any activity that might raise questions about 
their ability to fairly and objectively enforce the law.
11.  Section 132 would create an International Wildlife Conservation 
        Fund to provide a vehicle for the Secretary to accept and hold 
        donations, gifts, etc. to support activities under the bill. 
        Recognizing that the administration believes that there is a 
        potential conflict of interest, how would the administration 
        recommend amending this provision to eliminate that concern? 
        Would formally designating the National Fish and Wildlife 
        Foundation, a congressionally chartered non-profit with no 
        regulatory authority, as the administrator of the Fund address 
        that concern?
    The Division of International Conservation currently has a 
mechanism to accept and receive gifts or donations from the general 
public directed toward specific conservation programs such as ``African 
elephant conservation.'' This does not present a conflict of interest, 
as the Division of International Conservation is not a regulating or 
permitting body.
    The Fund, as proposed in the legislation, would present a conflict 
of interest if the monies collected were to go to the permitting and 
regulatory offices of the International Wildlife Trade program and the 
Office of Law Enforcement, rather than being directed to support the 
competitive grant activities of the Division of International 
Conservation. A regulating body should not receive gifts from those 
parties that are potentially regulated by it. Therefore, the potential 
conflict of interest exists regardless of the entity administering and 
managing the funds.
    Based on the current capacity of the Division of International 
Conservation to successfully manage its donations and appropriated 
funds, there would be no benefit from the National Fish and Wildlife 
Foundation being designated as an administrator of the Fund. The 
Service recommends that in order to avoid potential conflicts, gifts or 
donations continue to be routed through existing channels.
    The Administration additionally opposes the investment authority 
granted to the Fund in section 132(d) because it would allow the 
investment of appropriations, which are limits on spending, not sums of 
cash to be invested. The investment language should be changed to 
Treasury's standard language, excluding the investment of 
appropriations. There are also potential conflicts with Service 
obligations under CITES and the Endangered Species Act with regard to 
the suggested functions of the Center for International Wildlife 
Recovery Partnerships. In addition, the lack of availability for these 
funds to be used by the Wildlife Without Borders program (as restricted 
in the legislation) seems to be at cross purposes with the intent of 
the bill to support that program.
Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
1.  Doesn't the U.S. Fish and Wildlife Service currently coordinate 
        with other agencies within the Department of the Interior, with 
        federal agencies and with the International community on 
        wildlife conservation efforts? Is there something lacking with 
        the existing coordination efforts that should be addressed by 
        this Committee?
    The Service currently coordinates with other agencies and bureaus 
on wildlife conservation efforts and activities using our current 
capacity and resources. The Service's International Wildlife Trade, 
International Conservation, and Law Enforcement programs regularly work 
directly with our counterparts from a variety of departments and 
agencies to address international conservation. U.S. participation in 
the Convention on International Trade of Endangered Species (CITES), 
for example, is coordinated step by step with other Cabinet level 
departments such as the Departments of State, Commerce, Agriculture, 
Homeland Security, and Justice and with numerous agencies such as the 
Office of the U.S. Trade Representative, the Animal and Plant Health 
Inspection Service, U.S. Forest Service, Council on Environmental 
Quality, NOAA Fisheries, Customs and Border Protection, the U.S. Agency 
for International Development, the Smithsonian Institution, and the 
Interior Department's Office of International Affairs.
    The Service acknowledges that coordination and information-sharing 
could be strengthened, especially with agencies such as the U.S. Agency 
for International Development that fund wildlife conservation projects. 
The Wildlife Without Borders Global Program has already undertaken an 
effort to increase collaboration on project proposal reviews with the 
Global Environment Facility, run through the Department of the 
Treasury.
    In combating global wildlife trafficking, the Service's Office of 
Law Enforcement works closely with the Department of Homeland Security 
(particularly Customs and Border Protection and Immigration and Customs 
Enforcement), the Department of Agriculture's Animal and Plant Health 
Inspection Service, the Food and Drug Administration, the Centers for 
Disease Control and Prevention, U.S. Attorney's Offices, the Justice 
Department's Environment and Natural Resources Division, the State 
Department's Bureau of Oceans and International Environmental and 
Scientific Affairs, Interior Department Solicitor's offices, and 
Interior's International Technical Assistance Program. The Office of 
Law Enforcement has also recently increased its liaison with the U.S. 
National Central Bureau-Interpol. Enforcement and capacity-building 
efforts are coordinated on a regional and global basis through such 
entities as the North American Wildlife Enforcement Group, the CITES 
Law Enforcement Experts Group, the CITES Secretariat, the Interpol 
Wildlife Working Group, the Association of Southeast Asian Nations-
Wildlife Enforcement Network, the International Law Enforcement 
Academy/Botswana, and enforcement authorities in individual nations.
    Other bureaus with the Department of the Interior also are actively 
coordinating with International community on wildlife conservation 
efforts. For example, the National Park Service has teamed with the 
Department of Defense and Department of Energy, and Parks Canada, 
Tanzania National Parks, and Kenya Wildlife Service in international 
wildlife health work. Over 30 ``sister park'' relationships exist 
between NPS units and foreign parks that share natural features, 
management issues, or cultural ties. The majority of this assistance is 
funded with outside financial support, primarily from the U.S. Agency 
for International Development, the U.S. State Department and the World 
Bank.
2.  H.R. 3086 would ``provide specific authority to the Secretary to 
        coordinate activities within the Department [of the 
        Interior]''. Doesn't the Secretary already have authority to 
        coordinate the activities of its agencies? If not, what 
        specifically needs to be addressed in legislation?
    Yes, the Secretary already has this authority to coordinate the 
work of the various bureaus within the Department of the Interior and 
we do not believe there are any needs that need to be addressed through 
legislation.
3.  Why is it necessary to fund graduate fellowship programs within 
        H.R. 3086? What benefits are gained from these fellowships?
    The Service already supports several graduate programs and in-
country, in-service training efforts in a number of countries. The 
Administration appreciates the Subcommittee's shared interest in 
cultivating the next generation of conservation scientists and leaders, 
but recommends the use of existing successful programs rather than 
creating a new Fellowship program.
4.  How many existing fellowship programs are there within the U.S. 
        Fish and Wildlife Service and what benefits have they produced?
    For over twenty years, the Service's international programs have 
supported graduate students pursuing degrees in wildlife conservation 
and management through the Wildlife Without Borders Regional Program 
for Latin America and the Caribbean. To date, the Service has supported 
over 400 graduates through small scholarships. The students are working 
in 20 countries throughout the region, and many are professors teaching 
the next generation of conservation biologists, are directors within 
their respective wildlife management agencies, or are managing programs 
for conservation non-profits. Currently, the Service is developing an 
innovative new training program for graduate students in Latin America 
and the Caribbean. This fall, environmental leaders from more than 26 
countries and territories throughout the Western Hemisphere will gather 
to provide input into the development of this multidisciplinary 
program.
    A second fellowship program supported by the Service is the MENTOR 
Fellowship Program (Mentoring for Environmental Training in Outreach 
and Resource conservation). MENTOR was established two years ago 
through the Wildlife Without Borders Regional Program for Africa. In 
August, 2009, the MENTOR program graduated its first cadre of wildlife 
professionals from four Eastern African countries (Tanzania, Kenya, 
Uganda, and South Sudan) who have gained the requisite skills to 
address the illegal bushmeat trade. Fellows have undertaken a unique 
combination of active fieldwork and individually-tailored instruction 
in preparation for participation in a network of Eastern African 
wildlife professionals dedicated to reversing the rising trend of 
illegal hunting. Through this program, the Bushmeat-free East Africa 
Network (BEAN) was established, engaging government officials, non-
governmental organizations, and wildlife managers in unprecedented 
levels of cooperation to utilize law enforcement and outreach 
activities in addressing the illegal bushmeat trade.
    In addition, the Service's Wildlife Without Borders Program was 
recently approached by the University of Michigan's School of Natural 
Resources and the Environment (SNRE), one of the most recognized 
graduate environmental programs in the U.S., with a request to place 
graduate students as summer volunteer interns within the Wildlife 
Without Borders Program beginning in the summer of 2010.
5.  Has the Service been unable to fulfill its obligations under 
        international treaties, domestic laws, agreements, or 
        cooperative agreements due to lack of legislative authorities? 
        Will H.R. 3086 provide any authorities that are not currently 
        available to the Service?
    Under existing legislative authorities, the Service believes it is 
able to fulfill its obligations under international treaties, domestic 
laws, agreements, and cooperative agreements.
    H.R. 3086 provides new authority to conduct the Wildlife Without 
Borders Program and a fellowship program, and to convene a group of 
external experts to advise the program. All of these activities can be 
accomplished under existing authorities. The Administration supports 
the provisions of the legislation that codify the U.S. Fish and 
Wildlife Service's (Service) Wildlife Without Borders Program with 
modifying language to retain the Secretary's discretionary authority to 
carry out and implement the program.
    H.R. 3086 authorizes the Service's Law Enforcement program to 
accept donations and gifts from outside groups to support enforcement 
initiatives targeting global wildlife conservation. Such arrangements 
could create potential conflicts of interest, since groups ``donating'' 
may well be organizations engaged in activities regulated and policed 
by the Service. Enforcement programs should avoid any activity that 
might raise questions about their ability to fairly and objectively 
enforce the law.
    H.R. 3086 also authorizes and funds Emergency Rehabilitation and 
Recovery Grants to provide care for seized wildlife. The Service 
already has the authority to donate live wildlife to organizations 
qualified to care for exotic animals, and those organizations must meet 
specific requirements under Service regulations to be eligible to 
receive seized wildlife. As the agency has only limited ability (via 
the Lacey Act Reward Account) to pay for wildlife care, the Service 
welcomes this provision. However, consultation with the Service should 
be mandatory for any grant process for wildlife placement to ensure 
that regulatory requirements are met.
    We also note that zoos, aquaria, and other institutions readily 
accept ``marquee'' species that add to the public allure or scientific 
value of their holdings, but are often reluctant or unable to 
rehabilitate and provide life-long shelter for less ``desirable'' 
species--particularly when the seized wildlife consists of tens or 
hundreds of commonly traded specimens of no interest from an 
exhibition, captive-breeding or conservation research perspective.
6.  One of the findings in H.R. 3086 refers to the existing wildlife 
        programs and conservation efforts run by the Service and the 
        federal government and states that they are ``generally 
        insufficient and in need of improved and focused attention''. 
        Do you agree with this statement?
    The Service disagrees with the statement that existing wildlife 
programs and conservation efforts are ``generally insufficient.'' While 
the Service's work in international conservation can always benefit 
from more focused attention, recognition, and support, the 
characterization that our efforts are ``insufficient'' fails to 
recognize decades of excellent work by the Service in this area within 
existing resources. For example, since its inception, the Wildlife 
Without Borders Program has funded over 800 conservation projects, 
working with more than 500 partners. The Service's special agents and 
wildlife inspectors have broken up thousands of smuggling operations 
impacting the world's most imperiled species and have conducted scores 
of law enforcement training programs for global counterparts. The 
Service's International Wildlife Trade program issues 15,000-20,000 
permits annually for the import, export, interstate and foreign trade 
of species; take of captive specimens; transport of live invasive 
species; and other activities involving wildlife and plants. This 
program also works closely with many of the other 174 Parties to CITES 
to ensure that international wildlife trade is conducted legally and 
sustainably.
7.  Do you believe that authorizing legislation would be useful for the 
        Wildlife Without Borders Program?
    As noted in the Service's testimony, the Administration supports 
the provisions in H.R. 3086 that codify the Service's Wildlife Without 
Borders Program with modifying language to retain the Secretary's 
discretionary authority in implementing the program. Authorizing the 
program would enable the Service to build upon the existing program, 
engage more partners, and work toward building the next generation of 
conservation leaders. In addition, the Service could expand its focus 
on regional and global work, building on the strength of the 
complementary Species-Regional-Global approach.
8.  H.R. 3086 would create an International Wildlife Conservation 
        Institute and a Center for International Wildlife Recovery 
        Partnerships. Your written testimony outlined the confusion the 
        creation of these new entities will have on existing offices. 
        While Section 5 of H.R. 3086 states that ``nothing in this Act 
        affects authorities, responsibilities, obligations, or powers 
        of the Secretary under any other statute'', do you believe that 
        would be the case if the bill was enacted into law?
    The Administration has concerns regarding the creation of new 
organizational structures without clarification on how they fit in or 
with the existing programs and supports striking the Institute and the 
Center for this reason. For example, the Assistant Director position 
created by H.R. 3086 appears to duplicate some of the responsibilities 
which the Assistant Director now manages but excludes the International 
Wildlife Trade program. With regard to the Institute, the Department of 
the Interior already has an Assistant Secretary for Policy, Management, 
and Budget that oversees the Department's Office of International 
Affairs. This office coordinates the international activities in the 
Department's Bureaus and other activities unrelated to wildlife and 
habitat conservation.
    With regard to the Center, the Service already engages in a number 
of existing partnerships, cooperating with NGOs including the 
Association of Zoos and Aquariums, the World Wildlife Fund, 
Conservation International, the Wildlife Conservation Society, TRAFFIC, 
WildAid, and other groups such as the Humane Society of the United 
States and Safari Club International. In addition, the Global Wildlife 
Conservation Council established in Title II of the bill would impact 
and potentially duplicate existing mechanisms aimed at enhancing 
coordination and cooperation with other federal and NGO entities.
9.  How much of the authorities in H.R. 3086 would duplicate existing 
        Service programs and activities?
    While some provisions of H.R. 3086, such as the authorization of 
the Wildlife Without Borders Program, are beneficial, many elements of 
the bill are duplicative of existing activities and authorities. For 
example, the establishment of a Council duplicates interagency 
coordination that already exists. The establishment of an advisory 
committee is already authorized under the provisions of the Federal 
Advisory Committee Act.
    Section 122 calls for a far-reaching and ambitious educational 
outreach program focusing on increasing the awareness of U.S. consumers 
about concerns such as wildlife trade. Service efforts to address this 
particular issue date back to the 1970s and continue today, often in 
partnership with non-profit conservation groups (see question 12 
below). While the scale and scope of the outreach program proposed in 
section 122 is clearly beyond the agency's current capabilities and 
resources (particularly given the timetable mandated), it would also 
run the risk of duplicating efforts that have already been carried out 
or are currently underway in the NGO community--a community that may 
well be better equipped to address this issue not only in the United 
States but on a global scale, targeting both consumers and suppliers.
    Subtitle D mandates a number of activities that are already 
underway within the Office of Law Enforcement, or that the Office has 
the authority to pursue if the need and/or necessary resources are 
available. For example, the revision of the Office of Law Enforcement's 
Strategic Plan is already scheduled to be revised on a five-year cycle. 
The Law Enforcement program is already improving its ability to address 
the use of computer technology in wildlife crime. Service Law 
Enforcement is leveraging Internet technologies in its intelligence 
gathering and investigations; partnering with website owners to 
increase public awareness of wildlife laws; providing cybercrime and 
computer forensics training to enforcement staff; building cybercrime 
investigative and forensics capacity; conducting appropriate undercover 
operations; and teaming with other Federal agencies to combat wildlife 
trafficking, including e-commerce.
    Service special agents and intelligence analysts routinely 
communicate with website companies to secure the removal of illegal 
auctions or listings, obtain identifying information on buyers and 
sellers, and--as appropriate--pursue investigations. The Law 
Enforcement program has added computer forensics staff at the National 
Fish and Wildlife Forensics Laboratory and has trained select officers 
in the seizure and analysis of computers and electronic media to 
bolster high-tech investigative capacity in the field. The Office of 
Law Enforcement is now in the process of establishing a Digital 
Evidence Recovery and Technical Support Unit staffed by special agents 
with both computer forensic and investigative skills to further improve 
the Service's ability to identify, retrieve, analyze and utilize ``e-
evidence'' of wildlife crimes.
    The Service has worked, as resources allow, to strengthen its 
forensics and intelligence-gathering capabilities. The Office of Law 
Enforcement emphasizes the importance of enforcement partnerships and 
cooperation in investigations and intelligence sharing; is working to 
address the issue of international wildlife crime data systems; focuses 
on outreach to increase compliance; and has long supported efforts to 
build enforcement capacity overseas.
10.  If there are new authorities that are not within existing 
        programs, do you think it would be more effective to authorize 
        the Service to carry out these functions instead of creating a 
        new Institute and Center?
    As noted in the Service's testimony, the Administration supports 
the bill's provisions codifying the Service's Wildlife Without Borders 
Program with modifying language to retain the Secretary's discretionary 
authority in implementing the program.
11.  To increase stakeholder participation, H.R. 3086 would create a 
        Global Wildlife Conservation Advisory Committee and a Global 
        Wildlife Council. How does the Service currently coordinate 
        with federal agencies or foreign governments on wildlife 
        conservation? Are these new components of H.R. 3086 necessary? 
        Do you think the Council and Committee will promote better 
        conservation efforts?
    The Advisory Committee created by the bill would provide a vehicle 
for the Service to receive input and advice from a group of external 
experts, which would be representative of the broad organizations and 
groups interested in our work in supporting on-the-ground conservation 
efforts in range States. However, such a committee can be established 
under the existing authorities of the Federal Advisory Committee Act. 
The Council, on the other hand, despite providing a new structure for 
interaction, would fill few gaps in coordination, some of which are 
already being addressed through other means such as through the 
Service's interagency CITES Coordination Committee and the Service's 
longstanding enforcement partnership with U.S. Customs/Homeland 
Security. All Divisions within International Affairs coordinate with 
the State Department on international activities. The Wildlife Without 
Borders Global Program is also currently interacting with the 
Department of Treasury on proposal review with the Global Environmental 
Facility. Although there is a need for increased coordination between 
the Division of International Conservation and the U.S. Agency for 
International Development on conservation initiatives, this can be 
accomplished through existing authorities. While the need for 
continuous coordination is recognized, the Service feels that the 
Council, as authorized in the bill, would cause additional bureaucracy 
and consume valuable resources needed elsewhere.
12.  How does the Service currently educate the public on wildlife 
        conservation programs and efforts? What does the Service need 
        to make these efforts more effective?
    The Division of International Conservation currently educates the 
public on its wildlife conservation programs and efforts through a 
variety of media including print, web, and video. The Division's 
Internet site includes information on each of the Wildlife Without 
Borders Species, Regional, and Global programs, and all related 
conservation activities. Fact sheets are produced for each program on 
an annual basis and, moving forward, the programs will each produce 
five-year reports on grant projects and funding activities. In 
addition, the program intends to work with NGO partners to increase its 
use of video and new media to engage the public. Over the past five 
years, there have been over 100 media and web articles published on 
Division programs, distributed in over 800 web or print media outlets, 
in addition to over 15 publications by the program and its staff. We 
feel these initiatives have been very worthwhile and see value in their 
continued development. Regarding the need to aid in the effectiveness 
of these efforts, the program is constantly striving to try new tools 
and methodologies to improve delivering the conservation message within 
the program's capacity.
    The Office of Law Enforcement outreach efforts emphasize providing 
accurate and timely regulatory information to the wildlife import/
export community via various means. Outreach mechanisms utilized for 
promoting compliance include a web-based public bulletin system; 
participation in broker association, chamber of commerce, and similar 
trade-focused meetings; training programs for brokers, freight 
forwarders, international express mail company employees, 
representatives of the fashion, fur, leather and other industries, 
museum officials, and other groups directly engaged in wildlife trade 
or wildlife transport; and one-on-one assistance to individuals, 
companies, and carriers. Service Law Enforcement and International 
Affairs personnel staff a compliance outreach booth at the annual 
Safari Club International meeting, and compliance outreach materials 
are distributed to hunters and anglers crossing our land borders to 
pursue their sport. Outreach efforts in recent years have also included 
presentations to such groups as the Animal Transport Association and 
Independent Pet and Animal Transport Association International and 
participation in trade-targeted events such as the UPS Trade Compliance 
Fair in Louisville, the Baltimore Washington International Airport 
Cargo Expo, and the International Air Cargo Convention in Houston.
    Broad-based law enforcement outreach to the general public on trade 
issues includes such activities as co-production and distribution of 
the Buyer Beware brochure with WWF/TRAFFIC North America; an ongoing 
partnership with multiple NGOs to make wildlife items available for use 
by educators in conjunction with the ``Suitcase for Survival'' wildlife 
trade education curriculum; and the donation of wildlife items to 
educational institutions, museums, non-profit groups, and other 
organizations for use in educating the public about trade. Service 
wildlife inspectors and special agents also conduct outreach at 
community events (such as Earth Day celebrations, sporting shows, and 
State fairs) and give school, scout, and other presentations. 
Enforcement officials provide briefings and panel discussions at media 
forums (such as the Society of Environmental Journalists annual 
meeting); and participate in symposia at universities, law schools, and 
``think tanks'' such as the Woodrow Wilson International Center for 
Scholars.
    On an annual basis, the Service's International Wildlife Trade 
program handles over 6,000 permit applications, as well as responding 
to over 20,000 public inquiries. This one-on-one outreach to potential 
and active participants in international trade in protected plants and 
animals has greatly improved the public's understanding of the impacts 
of wildlife trade. The program also has numerous wildlife trade-related 
fact sheets and web pages dedicated to specific taxonomic groups of 
interest. In addition, the program regularly participates in or hosts 
booths at meetings of the Association of Fish and Wildlife Agencies, 
the Association of Zoos and Aquariums, Safari Club International, the 
American Fisheries Society, the American Federation of Aviculture, and 
the World Orchid Congress.
    Finally, in addition to the efforts cited above, the Service, like 
many other Federal entities, is exploring the use of alternative forms 
of electronic media, such as pod-casting, blogging, and the use of 
Facebook to reach a younger generation of the public and will 
incorporate these tools to the extent possible within existing funding 
resources.
13.  What is the state role in national wildlife conservation education 
        efforts? Does H.R. 3086 usurp any state responsibilities?
    State wildlife agencies conduct a variety of educational programs, 
many of them focused on the protection of native species and 
recreational activities such as hunting and fishing. The States, 
through the Association of Fish and Wildlife Agencies' International 
Relations Committee work with the Service on educational programs that 
affect native species in trade. Although some State-protected resources 
are used to address illegal global wildlife trade, international 
wildlife trafficking is more likely to be an educational/outreach focus 
for conservation non-profits and the zoological/aquarium community than 
for the States.
    To our knowledge, H.R. 3086 would not usurp any state 
responsibilities in the area of conservation education. It may, 
however, be directing the Federal government to engage in duplicative 
educational efforts in the United States that can better be 
accomplished utilizing the knowledge, skills, and resources of 
conservation groups that have historically played a major role in 
teaching the public about wildlife trade and conservation.
14.  Education of American consumers would seem to be something that 
        could be done without a new law. Do the existing multi-species 
        funds or wildlife grant programs run by the Service authorize 
        funds for education efforts? Has the agency requested funding 
        for education programs in the President's 2010 Budget request?
    The Service has supported WildAid public service announcement 
advertising campaigns and RARE conservation campaigns, which target the 
consumers of species in the locations where their products are known to 
be primarily consumed. The Rhinoceros and Tiger Conservation Fund and 
the African Elephant Conservation Fund have provisions that permit 
education that is not targeted at international audiences. For 
instance, the Rhinoceros and Tiger Conservation Fund provided a grant 
to the World Wildlife Fund to support the creation of a brochure 
targeted at U.S. consumers of illegal wildlife products. Without any 
specific mandates, the Service has successfully educated American 
consumers through initiatives such as the Suitcase for Survival and 
Buyer Beware programs. Additionally, many of the Service's 
International Affairs NGO partners are better suited and equipped to 
conduct outreach and education campaigns targeting the American public. 
The Service has not requested funding specifically for education 
programs targeting American consumers in the President's 2010 budget 
request.
15.  What about law enforcement efforts? Has the agency requested 
        enough funding in the President's 2010 budget request to 
        support law enforcement efforts nationally and internationally?
    The Service law enforcement efforts have been very successful and 
the Administration has provided sufficient funding to ensure these 
efforts continue. The Service's Office of Law Enforcement investigates 
trafficking in protected wildlife (including trade conducted via the 
Internet) and uses outreach to the public (including Internet site 
providers) to promote compliance with wildlife protection laws and 
treaties.
16.  The U.S. has been very proactive in many conservation efforts to 
        reduce the illegal trade in wildlife. What is the main 
        underlying issue hindering the success of these efforts?
    Even if relatively unlimited resources were available to U.S. based 
and international efforts to reduce illegal trade, these efforts would 
continue to be hindered by the lack of appropriate laws and/or on-the-
ground ability to enforce them in supplier nations. More fundamentally, 
economic and social conditions in range states will continue to fuel 
the trade. Poverty provides an understandable incentive for poaching--a 
fact that wildlife profiteers eagerly exploit.
    Ultimately, it will not be enough for the United States and other 
market countries to police incoming trade and promote consumer 
awareness, as has been done since the late 1960s with some degree of 
success. But the United States can work to address the economic and 
social conditions that make wildlife poaching a way to survive for the 
impoverished; and the Service can continue its efforts to support other 
nations in developing strong conservation laws and building 
prosecutorial and enforcement capacity.
17.  Mr. Roberts mentioned in his testimony that seizures of illegal 
        products do not necessarily result in prosecution. Is this a 
        big issue in the U.S. or is mainly occurring in other 
        countries? What action needs to be taken to address the lack of 
        prosecutions in these cases?
    Mr. Roberts' statement (as reflected in his written testimony) 
refers specifically to Southeast Asia where training programs for 
enforcement officers have led to an increase in the number of wildlife 
seizures without apparently a corresponding increase in successful 
prosecutions. In response, the Association of Southeast Asian Nations 
Wildlife Enforcement Network (ASEAN-WEN) has broadened the scope of its 
training and capacity building efforts to encompass not only 
enforcement officers but prosecutors and judges as well. These efforts 
have been supported by the Department of Justice, the Service, the U.S. 
Agency for International Development, the Department of State, and non-
profit groups working in the region.
    Effective wildlife law enforcement requires a sound legal framework 
and the ability to investigate and prosecute wildlife crimes. These 
critical elements are lacking not only in Southeast Asia (where ASEAN-
WEN is addressing them) but in other parts of the world as well, and 
the Service is working with the Departments of Justice and State and 
other partners to provide training to address these issues.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Gould, for the 
Service's work in international wildlife conservation.
    Before we proceed, for those standing in the back of the 
room, if you wish to be seated, you can sit on the chairs on 
the lower part here. It may be a long hearing, and I am sure 
you would appreciate a seat. Thank you.
    It is my pleasure now to introduce someone who is very 
passionate, and I had the opportunity to meet and talk with her 
yesterday. We share many of the same concerns, and she has 
certainly devoted her life to the care and the interests of 
animals.
    So, Ms. Derek, it is a pleasure to welcome you before the 
Subcommittee, and you are now recognized to testify.

          STATEMENT OF BO DEREK, BOARD MEMBER, WILDAID

    Ms. Derek. Madam Chairwoman, Honorable Members, thank you 
for the opportunity to address you today. I speak today as a 
board member of WildAid, a conservation organization dedicated 
to ending the illegal trade in wildlife, and on behalf of the 
Animal Welfare Institute. I am not speaking in my capacity as 
``Special Envoy to the Secretary of State on Wildlife 
Trafficking,'' a position created under the last administration 
and continued under this one. However, my duties in this role 
have taken me across the United States and internationally to 
broaden my understanding of, and passion for, this important 
issue.
    Madam Chairwoman, wildlife knows no borders, and nor should 
wildlife conservation efforts. The United States has long been 
a leader in this field by encouraging other nations and by 
providing vital technical and financial support. This bill 
would help to ensure that we continue to lead in a way which is 
greatly appreciated and builds goodwill and strong bridges with 
other nations in a very positive manner.
    This bill is also an insurance policy against loss of 
biodiversity, against the extinction of some species, against 
wildlife crime, and against the very real risk of the emergence 
and spread of a serious new disease epidemic. ``An ounce of 
prevention is worth a pound of cure,'' and the programs 
proposed under this bill could help to prevent billions of 
dollars of remedial measures down the line.
    Whether from expensive species recovery plans, species 
entering the United States, or from the cost of a disease 
outbreak, illegal wildlife trafficking is an almost perfect 
vector for a new epidemic. The origins of SARS were traced back 
to exotic wildlife trade, and had an estimated cost to Asian 
economies of some $60 billion.
    So perhaps instead of ``Can we afford this?'' the question 
should be, ``Can we afford not to take this action?''
    I would like to offer a concrete example from my own 
experience in the Galapagos Islands of Ecuador on the positive 
impact our support can make. The Galapagos Marine Reserve is 
one of the largest in the world and, when establishing it in 
1998, Ecuador made an appeal for outside support. There were 
almost no resources available for law enforcement in this World 
Heritage Site. This is a typical situation in less-wealthy 
nations.
    While they are prepared to forego converting wilderness 
into farmland or short-term gains from fisheries exploitation, 
pressing human needs mean they find it hard to finance adequate 
protection for these areas. Meanwhile, on the other side, there 
was a fleet of foreign and Ecuadorian boats raiding the reserve 
for shark fin, tuna, and sea cucumbers on a daily basis.
    Now, with U.S. assistance from both private and public 
sources, it has some of the best marine-protection capabilities 
anywhere in the world. The U.S. has provided officers from our 
Fish and Wildlife and Park Services for training rangers, 
building strong ties with our Ecuadorian counterparts, and 
increasing their professionalism and morale.
    We have financed vital equipment, such as GPS, binoculars, 
and even a float plane. In the last few months, specially 
trained sniffer dogs have detected an illegal shark fin cache, 
while, in its first month of operation, a state-of-the-art 
satellite vessel monitoring system provided by U.S. NGO's has 
led to the capture of four boats illegally fishing. Thanks to 
assistance in vessel maintenance, they are now carrying out 
more patrolling with less staff and other costs. What was a 
free for all has truly become a protected area, only with the 
support of the United States.
    Often the wildlife ranger is the only law enforcement 
official in these remote regions, and supporting them will have 
an impact in other security issues, such as drug trafficking. 
Again, in the Galapagos, their wildlife protection assets have 
led to the interception of cocaine in a number of cases.
    This Committee has previously heard how the United States 
is thought to be the second-largest importer of illegal 
wildlife after China, and I believe it is essential that we not 
only address the problems abroad but here, too. We can help our 
international partners by reduction demand for illegal wildlife 
here and helping them do the same in their countries.
    Unfortunately, budget pressures have made it very hard for 
the U.S. Fish and Wildlife Service to maintain its activities 
in this area. To this end, I have myself seen how public/
private partnerships can be the most cost-effective method. The 
State Department's public service message with Harrison Ford, 
carried out in partnership with WildAid, has reached hundreds 
of millions around the world and cost the taxpayer less than 
$100,000, while projecting a positive image of the United 
States.
    In my dialogue with wildlife-management professionals, 
members, staff, NGO's, and other interested parties, I find a 
tremendous consensus on the need for this bill. As currently 
drafted, there are a number of concerns that have been 
expressed to me from institutional issues to concerns that the 
current cost and complexity may prevent it moving forward.
    On the cost issue, I believe a less-ambitious program now 
can always be enhanced down the line upon proven success and 
that this issue should not be allowed to prevent the bill's 
swift progress.
    Frankly, given the overwhelming support for the core goals, 
none of these issues seem to be too difficult to reconcile with 
some concerted dialogue, and I believe that, with the Chair's 
leadership and input from both sides of the House and 
interested agencies, we can rapidly arrive at a bill that can 
enjoy all our support and move with the unstoppable momentum 
that it needs.
    Just as wildlife has no geographical borders, conservation 
knows no political borders. It is absolutely a bipartisan issue 
with passionate advocates from both parties, and I would urge 
both sides to unite and confer for the passage of this bill and 
fight for the resources necessary to make it a reality. Thank 
you, Madam Chairwoman.
    [The prepared statement of Ms. Derek follows:]

              Statement of Bo Derek, Board Member, WildAid

    Madame Chairwoman, Honorable Members thank you for the opportunity 
to address you today.
    I speak to you as a board member of WildAid, a conservation 
organization dedicated to ending the illegal trade in wildlife and on 
behalf of the Animal Welfare Institute. I am not speaking in my 
capacity as ``Special Envoy to the Secretary of State for Wildlife 
Trafficking'', a position created under the last Administration and 
continued under this one. However, my duties in this role have taken me 
across the United States and internationally to broaden my 
understanding of, and passion for, this important issue.
    Madame Chairwoman, wildlife knows no borders and nor should 
wildlife conservation efforts. The United States has long been a leader 
in this field by encouraging other nations and by providing vital 
technical and financial support. This bill would help to ensure we 
continue to lead in a way that is greatly appreciated and builds 
goodwill and strong bridges with other nations in a very positive 
manner.
    It is also an insurance policy against loss of biodiversity, 
species extinction, wildlife crime and the very real risk of the 
emergence and spread of a serious new disease epidemic. In the hard 
economic times, it is perhaps even more important to have insurance 
against potential disasters. An ounce of prevention is worth a pound of 
cure and the programs proposed under this bill could help to prevent 
billions of dollars of remedial measures down the line, whether from 
expensive species recovery plans, invasive species entering the United 
States or from the costs of a disease outbreak. Illegal wildlife 
trafficking is an almost perfect vector for a new epidemic. The origins 
of SARS were traced back to exotic wildlife trade and that was 
estimated to cost Asian economies some US$60 billion. So perhaps 
instead of can we afford this, the question should be can we afford not 
to take this action?
    I would like to offer a concrete example from my own experience in 
the Galapagos Islands of Ecuador on the positive impact our support can 
make. The marine reserve there is one of the largest in the world and 
when establishing it in 1998 Ecuador made an appeal for outside 
support. There were almost no resources available for law enforcement 
in this World Heritage Site. This is a typical situation in less 
wealthy nations. While they are prepared to forego converting 
wilderness into farmland or short term gains from fisheries 
exploitation, pressing human needs mean they find it hard to finance 
adequate protection for these areas. Meanwhile on the other side there 
was a fleet of foreign and Ecuadorian boats raiding the reserve for 
shark fin, tuna and sea cucumbers on a daily basis. Now with U.S. 
assistance from both private and public sources, it has some of the 
best marine protection capabilities anywhere in the world. The U.S. has 
provided officers from our Fish and Wildlife and Parks Services for 
training rangers building strong ties with their Ecuadorian 
counterparts and increasing their professionalism and morale. We have 
financed vital equipment, such as GPS, binoculars and even a 
floatplane. In the last two months, specially trained sniffer dogs have 
detected an illegal shark fin cache, while in its first month of 
operations a state-of-the-art satellite vessel monitoring system 
provided by U.S. NGOs has lead to the capture of four boats illegally 
fishing. Thanks to assistance in vessel maintenance, they are now 
carrying out more patrolling with less staff and other costs. What was 
a free for all, has become a truly protected area thanks to the support 
of the United States.
    Often the wildlife ranger is the only law enforcement official in 
these remote regions and supporting them will have an impact on other 
security issues, such as drug trafficking. Again, in Galapagos their 
wildlife protection assets have lead to the interception of cocaine in 
a number of cases.
    This Committee has previously heard how the United States is 
thought to be the second largest importer of illegal wildlife after 
China and I believe it is essential that we not only address the 
problems abroad, but here, too. We can help our international partners 
by reducing demand for illegal wildlife here and helping them do the 
same in their countries. Unfortunately, budget pressures have made it 
very hard for the U.S. Fish and Wildlife Service to maintain its 
activities in this area. To this end, I have myself seen how public/
private partnerships can be the most cost effective method. The State 
Department's public service message with Harrison Ford carried out in 
partnership with WildAid has reached hundreds of millions around the 
world and cost the taxpayer less than $100,000, while projecting a 
positive image of the United States.
    In my dialogue with wildlife management professionals, members, 
staff, NGOs and other interested parties I find a tremendous consensus 
on the need for this bill. As currently drafted, there are a number of 
concerns that have been expressed to me from institutional issues to 
concerns that the current cost and complexity may prevent it moving 
forward.
    On the cost issue, I believe a less ambitious program now can 
always be enhanced down the line upon proven success and that this 
issue should not be allowed to prevent the bill's swift progress.
    Frankly, given the overwhelming support for the core goals; none of 
these issues seem to be too difficult to reconcile with some concerted 
dialogue and I believe that with the Chair's leadership and input from 
both sides of the House and interested agencies we can rapidly arrive 
at a bill that can enjoy all our support and move with the unstoppable 
momentum that it needs.
    Just as wildlife has no geographic borders, conservation knows no 
political borders; it is absolutely a bipartisan issue with passionate 
advocates from both parties and I would urge both sides to unite and 
confer for the passage of this bill and fight for the resources 
necessary to make it a reality.
    Thank you Madame Chairwoman and members of the Committee for the 
opportunity to discuss this important bill.
                                 ______
                                 

      Response to questions submitted for the record by Bo Derek, 
                         Board Member, WildAid

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  How has WildAid demonstrated that public awareness campaigns can 
        change consumer behavior?
    In follow up surveys conducted by independent professional survey 
companies in Hong Kong 8% stopped eating shark fin soup and 40% said 
they would eat it less.
    In Taiwan 15% stopped and 40% said they would eat less.
    In Singapore there was a reported 30% drop.
    In Thailand traders unsuccessfully sued WildAid for a 33-50% loss 
of business. The court found that WildAid's campaign was factually 
accurate and therefore dismissed the suit.
    In China 55% of Beijingers questioned remembered the campaign with 
82% of those saying they would eat stop eating it or eat less.
2.  How can public-private partnerships decrease the costs of public 
        awareness campaigns?
    For example, WildAid has leveraged millions of dollars of 
production for high quality public service announcements.
    WildAid has also leveraged tens of millions of dollars of free 
airtime with networks, such as CCTV, National Geographic, Discovery, 
CNN, Doordashan, Fox and CBS.
    It is unlikely that the Federal government would be able to 
leverage such pro bono support.
3.  Recognizing that the administration has expressed concerns with the 
        new organizational structures in H.R. 3086, would you support 
        amending the bill to strike the creation of these new entities, 
        and instead, utilize the existing office of the Assistant 
        Secretary for International Affairs as the appropriate point 
        for strengthening international wildlife coordination within 
        the Department?
    Absolutely although the Department would require increased 
appropriations to deal with the workload. This would be more cost 
effective than creating new entities and not involve jurisdictional 
conflicts.
4.  In general, do you support the establishment of a Global 
        International Wildlife Coordination Council within the 
        Executive Branch (Title II of H.R. 3086) to better coordinate 
        the international wildlife conservation activities of relevant 
        Federal agencies?
    Yes.
5.  Does WildAid support the establishment of a Global Wildlife 
        Conservation Advisory Committee to provide a formal means for 
        non-Federal NGO conservation stakeholders to interact and 
        engage Federal agencies?
    Yes.
Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
1.  You mention in your testimony that there is ``overwhelming support 
        for the core goals [of the bill]''. Do you believe the Service 
        currently handles many of these core goals?
    Most fall under their remit, although they are seriously under-
financed at present and therefore they are not being carried out.
2.  If not, do you believe the Service should be authorized to 
        undertake these additional authorities, instead of creating a 
        new Institute and Center?
    Yes. Although the Department would require increased appropriations 
to deal with the increased workload. This would be far more cost 
effective than creating new entities and not involve jurisdictional 
conflicts a new entity would doubtless create.
3.  You mention that the U.S. is the second largest importer of illegal 
        wildlife after China. This is according to the Bush 
        Administration State Department although how you might measure 
        this is debatable. What actions are currently being taken to 
        address this illegal trade?
    Although stretched in resources the U.S. is a world leader in 
wildlife enforcement efforts. However, public outreach and education 
has been virtually unfunded and current efforts need a serious overhaul 
and proper financial support.
4.  Is the issue here the lack of funding for enforcement officers or a 
        lack of public education?
    More enforcement officers are needed and perhaps new techniques 
such as sniffer dog programs at airports should be deployed, but in our 
opinion the most significant gap, which could be most cost effectively 
filled is in public education/demand reduction, an area where 
government/ngo partnership could be most effective. Due to lack of 
funding the Service is unable to carry out even basic public education 
currently.
5.  What species are the most prevalent in the illegal wildlife trade 
        in the U.S.?
    A very wide variety, but elephant ivory, tortoiseshell (from marine 
turtles), sturgeon caviar, reptile skins and coral products.
6.  Are there certain species that are more prevalent than others?
    Certain species are very specific to certain cultures such as Asian 
use of rhino horn, tiger bone and bear gall, Latino use of turtle eggs, 
African use of bushmeat.
7.  How many other nations are working with the U.S. on wildlife 
        conservation?
    A question for the government, but there is a great willingness for 
international cooperation in this area and over 170 nations are parties 
to the UN CITES treaty which governs this area.
8.  What do you see as the leading cause driving illegal trade in 
        wildlife?
    Demand for illegal wildlife products.
9.  Is money the sole motive?
    There are some cultural beliefs, such as traditional cures. But it 
is primarily money driven from the small amounts paid to often poor 
poachers to the large traders.
                                 ______
                                 
    Ms. Bordallo. I thank you, Ms. Derek, for your continued 
leadership and your passionate interest in this, particularly 
in international wildlife conservation, and for your support of 
H.R. 3086.
    And now we recognize Dr. Roberts. Welcome to the 
Subcommittee, and you are now recognized to testify for five 
minutes.

STATEMENT OF CARTER ROBERTS, PRESIDENT AND CEO, WORLD WILDLIFE 
                              FUND

    Mr. Roberts. Thank you, Madam Chairwoman and Honorable 
Members of the Committee. It is a great pleasure to be here 
today.
    I speak on behalf of WWF and our five million members 
around the world and also on behalf of our staff, who work in 
partnership with U.S. agencies around the world on this very 
topic.
    Some say that the United States invented conservation. It 
is true that our country has a long legacy of conserving the 
natural world and recognizing its dependence on the same. All 
you have to do is look around this room at the grand paintings 
that depict the history of our country to see the relationship 
between our people and the natural world, particularly its 
wildlife.
    We have done an exceptional job conserving our wildlife in 
the United States over time, and we have a long legacy of 
helping other countries do the same, and this bill makes some 
important steps forward in strengthening our ability to do 
that, particularly through the Fish and Wildlife agency.
    If you go to most other countries where we work, you can 
see this relationship between people and wildlife, and it is 
quite strong, it is powerful, but it needs help, and our U.S. 
agencies which have the expertise, the legal talent, the 
scientific talent, the application of approaches have much to 
offer in this regard.
    Species extinctions are now something on the order of 100 
to 1,000 times more quickly than the ``normal'' extinction rate 
that we find in the fossil record due to the loss of habitat, 
but also, perhaps more importantly, the lack of capacity in 
countries where this important wildlife exists, and we have a 
responsibility to help those countries build that capacity.
    This bill recognizes that need, and it seeks to strengthen 
our ability to address that need. The bill also needs work.
    I want to just comment on the parts that World Wildlife 
Fund supports the most and those parts that need work. The 
parts that we believe are at the core of this bill are the 
emphasis on saving wildlife where it lives in the wild, 
particularly the Wildlife Without Borders program and the 
species programs that are at the heart of the bill.
    We also very much applaud the effort to increase the 
coordination among parts of the Fish and Wildlife agency. If 
all of these parts are interrelated, they need to work better 
together. We applaud the intent to make that happen.
    Finally, we applaud the effort to strengthen the ability of 
the whole agency to do its work.
    There are some issues that we would ask the Committee to 
keep an eye on. One is to keep it simple. Coordination that 
also brings complication is never quite welcome, and there are 
ways to make this bill work that will keep the administration 
and the coordination simple. That includes the administration 
of the overall program to use existing programs within Fish and 
Wildlife but also to use Fish and Wildlife to administer the 
funds that flow to this program.
    We also would encourage the Committee to keep the core 
goals simple. There are lots of goals, lots of language in the 
Committee that refer to different pieces of wildlife 
conservation, and we would just encourage the Committee to keep 
wildlife in wild places at the heart of this bill.
    Finally, and I think just about every speaker here will say 
the same thing, improving the coordination and the ability of 
fish and wildlife agencies to do this work without approving 
the appropriations to get it done is somewhat of a half 
victory, and we would encourage you to look hard at what is 
required to succeed in this very important work and to 
appropriate the amount of funds that the agency truly needs.
    WWF stands ready to help you out with that work in 
improving the bill, so I hope you will count on us, but also I 
am happy to answer any questions. Thank you.
    [The prepared statement of Mr. Roberts follows:]

Statement of Carter Roberts, President and CEO of World Wildlife Fund, 
           on behalf of the World Wildlife Fund, and TRAFFIC

    Madam Chairwoman, Mr. Ranking Member, and members of the 
Subcommittee, thank you for the opportunity to testify today. My name 
is Carter Roberts, and I am the President and CEO of World Wildlife 
Fund (WWF). For more than 45 years, WWF has been protecting the future 
of nature. Today we are the largest multinational conservation 
organization in the world. WWF's unique way of working combines global 
reach with a foundation in science, involves action at every level from 
local to global, and ensures the delivery of innovative solutions that 
meet the needs of both people and nature. We currently sponsor 
conservation programs in more than 100 countries, thanks to the support 
of 1.2 million members in the Unites States and more than 5 million 
members worldwide. I am also testifying on behalf of TRAFFIC, the 
wildlife trade monitoring program of WWF and IUCN. TRAFFIC works to 
ensure that trade in wild plants and animals is not a threat to the 
conservation of nature. Over the past 30 years, TRAFFIC has gained a 
reputation as a reliable and impartial organization and a leader in the 
field of conservation as it relates to wildlife trade. It is a global 
network, with 25 offices around the world.
    WWF and TRAFFIC congratulate the Subcommittee on H.R. 3086, the 
Global Wildlife Conservation, Coordination, and Enhancement Act of 
2009. The intent behind this bill to garner additional government 
resources and coordination to the benefit of global biodiversity 
conservation is to be applauded. WWF and TRAFFIC have worked hand in 
hand with the U.S. government for decades in efforts to protect species 
and habitats worldwide. The U.S. has been a leader in international 
conservation efforts for over 100 years, and that leadership has been 
greatly appreciated by governments, conservation groups and--most 
importantly--the local people in those countries that have directly 
benefited from it.
    We highlight here the key messages that WWF and TRAFFIC hope our 
comments on H.R. 3086 will convey:
    <bullet>  Greater coordination and cooperation amongst U.S. 
agencies investing in biodiversity conservation are needed to ensure an 
effective and efficient effort. However, this coordination should not 
come at the cost of agency flexibility and autonomy; added layers of 
bureaucracy will not alone resolve this issue. The structures proposed 
in H.R. 3086 must be clarified and carefully evaluated, and the most 
streamlined approach possible should be used which will still achieve 
the greatest conservation impact.
    <bullet>  Resources should be focused on saving wild species in 
wild places, working in close cooperation with local communities and 
range State governments.
    <bullet>  Adequate authorization levels must be included, and 
appropriations allocated, to ensure that the programs proposed in H.R. 
3086 can achieve any level of success in positively affecting 
conservation initiatives on a global scale.
    WWF and TRAFFIC have provided this Subcommittee with testimony 
related to these issues on several occasions, including on previous 
legislative proposals to expand U.S. Fish and Wildlife Service (FWS) 
international programs and on efforts to address trafficking in illegal 
wildlife and wildlife products and the U.S. role as consumer in the 
international wildlife trade. Efforts to expand the U.S. role in 
protecting species and habitats around the world are driven by an 
urgent crisis affecting our planet's biodiversity. Species are now 
disappearing at an unprecedented rate--100 to 1,000 times more quickly 
than the ``normal'' extinction rate that we find in the fossil record. 
Scientists estimate that approximately 10% of the world's known 
biological diversity is presently in danger of extinction, including at 
least \1/4\ of all mammals, \1/3\ of all primates, \1/3\ of all 
amphibians, and \1/8\ of all birds. Scientists believe that we are in 
the initial stages of a major worldwide extinction event that could 
result in the permanent loss of up to \2/3\ of the world's plant and 
animal species by the end of this century. Such an outcome would have 
unfathomable consequences for the future of our society, our economy 
and our planet.
    This biodiversity crisis is being felt most acutely in developing 
nations, where approximately 75% of the world's terrestrial plant and 
animal species reside, in whole or in part. In many cases, poor 
management of natural resources and lack of local capacity to promote 
conservation and sustainable development in these countries has 
exacerbated the threat of extinction to many species and directly 
harmed local communities. Conservation is often vital to alleviating 
poverty for many in the developing world who depend on these resources 
for their livelihoods, food, shelter, medicines, and other necessities. 
There are also significant risks to the global and U.S. economies from 
the loss of species and habitats around the world and the valuable 
services they provide.
    The U.S. has an opportunity to lead expanded global efforts to 
forestall the biodiversity crisis. The wildlife and natural resource 
experts at the Department of Interior (DOI) and FWS are well positioned 
as leaders of those endeavors given their long history of successfully 
collaborating in developing nations and with private partners to 
protect international wildlife, to mitigate cross-cutting global 
threats to biodiversity including trade in illegal wildlife and 
wildlife products, and to build local on-the-ground capacity for 
conservation.
    H.R. 3086 builds upon highly successful existing programs within 
FWS to create a more broad-based and comprehensive approach to 
international wildlife conservation within DOI. In this way, the bill 
attempts to address the full range of threats and pressures affecting 
global wildlife in a more concerted and coordinated fashion. The 
legislation includes programs to promote improved law enforcement, 
outreach and education, and new opportunities for public-private 
partnerships. It also codifies the existing Global, Regional and 
Species programs within FWS into a new, overarching Wildlife Without 
Borders program.
    Overall, WWF and TRAFFIC believe there are several key 
considerations that should guide this legislation to ensure it achieves 
its core purposes. It should be broad-based and flexible; focus heavily 
on international programs in developing countries; include clearly 
defined, scientifically-based systems for establishing conservation 
priorities while retaining administrative flexibility; encourage but 
not require grant recipients to obtain matching funds from public and 
private partners; require host country approval and encourage local 
support for programs and projects; provide for coordination among 
Federal agencies with overlapping jurisdictions; allow for outside 
review of program implementation; and provide adequate funding 
commensurate with conservation objectives, including sufficient fees to 
enable FWS to meet administrative costs. Priorities for such work 
should also emphasize the role of the U.S. as a consumer and agent for 
change, where the U.S. has a responsibility to mitigate the impact of 
its influence on conservation around the world, particularly in respect 
to utilization of wildlife resources.
The Institute and The Council
    WWF and TRAFFIC note the attention paid to a consolidated U.S. 
conservation strategy and a cooperative effort between all sectors of 
the U.S. government contributing to or affecting global conservation. 
This ratcheted-up effort and coordination are what is required to 
facilitate the kind of efforts required--both on the ground and at the 
highest political levels--and is what has been called for by WWF, 
TRAFFIC and many of our conservation partners. However, while we 
embrace the intent, we have some serious concerns with the execution--
for example:
    <bullet>  How will the Institute fit within the current structure 
of the FWS and its International Affairs Division?
    <bullet>  Why will international treaties fall under the purview of 
the Wildlife Without Borders program?
    <bullet>  What kind of authority, if any, will the Global Wildlife 
Coordination Council (``the Council'') have over the conservation work 
of DOI and other Departments?
    <bullet>  What is the interface between the Institute for 
International Wildlife Conservation's (``the Institute'') Action Plan 
and the Council's Action Strategy?
    These are just some of the concerns the breadth and scope of this 
bill raises. An organizational chart of what is envisioned by this 
legislation would be extremely useful in trying to put some of these 
pieces together and would help clarify what is intended in this 
legislation. It would also be useful in helping to determine if the 
scale of this bill is actually what is required to achieve the desired 
outcomes, or if a leaner approach could more efficiently accomplish the 
same.
    A coordination mechanism is certainly needed within the federal 
government on global wildlife conservation, but we have heard concerns, 
including from within government, that the creation of various new 
bodies may create unnecessary layers of bureaucracy. It is unclear, as 
currently written, what authority, if any, the Council would have over 
the actions of the Department of the Interior, as well as other 
government bodies. While we strongly agree that coordination is needed 
to ensure that federal agencies make efficient use of available 
resources and avoid duplication of effort, we are also wary of 
hindering any agency's effectiveness or flexibility in responding to 
rapidly emerging conservation issues. More clarity would be helpful 
with respect to the defined roles and responsibilities in the 
legislation to ensure that any new structure will be of true 
conservation benefit and not create new hurdles to agencies carrying 
out their missions. We appreciate that mandating cooperation while 
allowing a necessary level of autonomy is a fine line to walk, but we 
also believe that finding the proper balance will be critical to 
avoiding bureaucratic stalemate.
    The Institute would be responsible for developing an Action Plan in 
consultation with various stakeholders inside DOI and with civil 
society. However, for the International Wildlife Conservation Action 
Plan to have the necessary buy-in and coordination from other Federal 
agencies, it would seem that providing them an opportunity for 
consultation on development of the Action Plan would be required. 
Additionally, it is unclear what, if any, link is intended between the 
Action Plan and the Global Wildlife Action Strategy to be developed by 
the Council. WWF and TRAFFIC would suggest that perhaps the Action Plan 
be developed by the Secretary of the Interior in consultation with 
other relevant government agencies and NGOs, and that the Council then 
review that Plan and develop a subsequent Strategy which outlines the 
actions and resources necessary to implement the Plan, including 
domestic policies, international diplomacy, and financial and in-kind 
resources. If government agencies outside of Interior are expected to 
invest resources in any Plan or Strategy, there must be some kind of 
ownership in it to achieve success, and there must be linkages between 
these two documents; otherwise, the U.S. government is operating under 
two parallel conservation processes, which is exactly what the apparent 
intent of this bill is seeking to avoid.
    U.S. investment in the Eastern Himalayas region (India and Nepal) 
illustrates how a cooperative multi-agency conservation strategy would 
allow various government programs to support each other effectively to 
not only conserve flagship species such as the one-horned rhinoceros 
and tigers, but also encourage community based involvement and 
sustainable livelihoods. Survival of rhinos and tigers in these 
countries is critical to their ecological balance and also to the well 
being of local people. Thanks to support from various U.S. government 
agencies, important aspects of conservation in the region--ranging from 
technical support to control of illegal wildlife trade to development 
of regional strategies to meeting needs of local people--are being 
addressed. FWS is supporting the Government of Assam, India, in its 
ambitious vision of creating a population of 3,000 wild rhinos by the 
year 2020 in seven of Assam's protected areas. USAID through its Global 
Conservation Program has been supporting activities in the Terai Arc 
Landscape that are targeted towards mitigating threats to rhino and 
tiger conservation while also supporting local communities and 
sustainable livelihoods. Support from the Department of State to 
improve South Asia's wildlife enforcement capacity and cooperation has 
also recently been established to secure rhino and tiger populations 
from the devastating effects of poaching for trade. This funding to 
establish a Wildlife Enforcement Network in the region will ensure that 
the criminal networks involved are broken down or seriously disrupted. 
This tapestry of support has played a critical role in ensuring long 
term survival of South Asia's rhinos and tigers in particular and 
contributing to conservation and sustainable development throughout the 
region. These efforts have been coordinated, and thus successful, due 
in large part to WWF's comprehensive conservation strategies for the 
region and these species, which have ensured that each funding 
opportunity has complemented the other. Were the U.S. government to 
have consolidated conservation strategies, as well as a coordination 
mechanism for all agencies investing in biodiversity, much greater 
conservation results could be achieved, even with the same level of 
funding.
    To further the buy-in of government agencies in the Plan and the 
Strategy, the bill could go further in stressing the links to the 
agendas of Council members to draw their attention to the significance 
of the Council and the need for them to engage. Making references to 
the links between biodiversity conservation and risks for security, 
agriculture, human health and development goals related to community 
livelihoods and sustainability would help reinforce this. It needs to 
be clear to the Secretaries tagged in this legislation why biodiversity 
conservation is linked to their mission and why it should be included 
in their agenda.
Center for International Wildlife Recovery Partnerships
    WWF and TRAFFIC have worked over the years to build positive and 
cooperative relationships with both the U.S. government and other 
governments across the globe, and have offered our expertise to help 
further their conservation efforts. We have seen that these cooperative 
efforts can result in increased conservation benefits by compiling 
broad expertise, capacity and resources.
    Both of our organizations work to ensure that wildlife populations 
and habitats are preserved for future generations, and have prioritized 
our work to save the most critically threatened species and places 
around the globe. We also note that captive breeding for conservation 
purposes can provide a vital reservoir of genetic material to help 
repopulate, where feasible, when wild populations are depleted. 
However, it is important that this legislation ensures there is an 
adequate balance of resources within the proposed Center for 
International Wildlife Recovery Partnerships between conservation 
efforts to preserve wild species and wild places, and efforts focused 
on captive breeding and reintroduction. It is our experience that it is 
most efficient, economical and effective to conserve species in their 
natural habitats and that ex situ conservation should only be 
considered a last resort if, not when, in situ has failed.
    We strongly endorse the need for more formalized partnerships 
between civil society and the U.S. government to implement conservation 
programs, and would encourage that this legislation expand upon this 
idea. Many other governments around the world actually sign formal 
Memoranda of Understanding (MOU) with national and international 
conservation NGOs on specific subject areas, which have proven to 
successfully cement relations to produce more profound results. 
Examples of such formal agreements were the signing of an MOU between 
TRAFFIC and the Wildlife Enforcement Division of the Canadian Wildlife 
Service this year. The MOU set forth mechanisms for collaboration 
particularly in respect to capacity building, policy review and 
information sharing. Similarly in 2005, WWF Mexico and TRAFFIC signed a 
highly fruitful MOU with the Mexican government's Attorney General for 
the Protection of the Environment (PROFEPA), on collaborative efforts 
for capacity building, information sharing and public outreach. We 
therefore welcome the proposal for multiyear cooperative agreements 
between Federal agencies and other stakeholders in wildlife 
conservation based in the U.S. and internationally.
Global Wildlife Conservation Advisory Committee
    In previous testimony, WWF and TRAFFIC suggested the need to 
develop an advisory committee of experts from government, civil society 
and industry to help guide the conservation work led by the United 
States internationally. We therefore strongly endorse the development 
of the Global Wildlife Conservation Advisory Committee. While our 
organizations have developed informal, though fruitful, relationships 
over the years with FWS, a more formalized mechanism that would allow 
for more holistic input would be a useful line of communication for the 
government and NGO sectors to learn what the other is doing and how we 
can better work together. We recommend that the Advisory Committee, 
which reports to the Institute, not include Institute employees as 
members. WWF and TRAFFIC would both welcome the opportunity to 
participate in and contribute to such an Advisory Committee, should one 
be authorized. WWF and TRAFFIC have a breadth of knowledge and 
engagement on wildlife conservation issues internationally to help 
advise the Committee, including leveraging our global networks and 
programs working in 100 countries.
Outreach/Education/Awareness
    WWF and TRAFFIC welcome the focus on outreach and education in the 
bill, and the fact that the scope of the outreach aims at various 
sectors, including consumers, vendors, transporters, and other relevant 
businesses and commercial enterprises, as well as range States. We have 
highlighted the need for such an effort in the past, particularly an 
effort inclusive of industry, and are pleased to see this planned for 
so prominently in the bill. The U.S. is one of the top two consuming 
nations for wildlife globally and its buying power is having a dramatic 
impact on the wildlife and livelihoods of the most biodiverse 
countries. The role of the U.S. in supporting source countries, 
informing its own consumer market, and enforcing and regulating that 
market is a complex one that requires significant resources and 
internal and external cooperation and coordination, and we are pleased 
that this bill attempts to address it.
    We would encourage the U.S. in its efforts to first consider the 
numerous conservation outreach programs already in existence, and urge 
that this wheel not be completely reinvented; many successful campaigns 
and programs exist which the U.S. could build upon and learn from. For 
instance, TRAFFIC, which has partnered with the FWS over the years on 
the Buyer Beware campaign, is preparing new outreach materials that 
will help inform cruise ship tourists about which wildlife souvenirs to 
avoid. The goal of our Make a Good Buy campaign is to reduce the 
negative impacts of wildlife trade caused by cruise ship tourism in the 
Caribbean, Mexico, and Central America by allowing the tourist 
industry, local communities and the cruise line industry to make 
informed choices. To date, we have produced brochures, wallet cards, 
luggage tags and tote bags to carry our message of sustainable tourism, 
and welcome any interest or cooperation from the U.S. in these and 
other targeted efforts.
    Trade in wildlife invariably involves transport of wildlife 
merchandise as it moves from the supplier to the consumer, often across 
international borders. A commodity may be transported by a number of 
different means on its journey from source to consumer--in the air, on 
land, or by sea; in a crate, in luggage, or even in an express mail 
pouch. Because of this, the transport industry can play a constructive 
role in helping to counter illegal trade, and we value any efforts to 
increase awareness of the illegal wildlife trade and the importance of 
biodiversity conservation in this key sector. We also call on 
commercial airlines, shipping companies, courier services and other 
relevant industries to cooperate with the U.S. in curtailing illegal 
trade.
    Also, when dealing with awareness programs related to the 
sustainable trade and consumption of wildlife and their products, it is 
vital that the U.S. work in collaboration with retailers involved in 
the trade, as suggested in this bill. Partnerships should be encouraged 
with companies that can have the most significant influence on the 
availability of wildlife and wildlife products for sale and in 
influencing the demand of consumers by providing sustainable and legal 
wildlife products. Just one example of such conservation leadership is 
the Global Forest & Trade Network (GFTN), WWF's initiative to eliminate 
illegal and unsustainable logging and transform the marketplace into a 
force for saving the world's most valuable and threatened forests, 
while providing benefits to the businesses, communities and wildlife 
that depend on them. This is particularly important given the passage 
of the amended Lacey Act, a groundbreaking law prohibiting the import 
and sale of illegally harvested wood and plant products into the United 
States. With more than 30 regional offices worldwide, the GFTN provides 
the tools and expertise needed to assist more than 360 companies from 
across the forest industry supply chain to obtain wood and paper 
products from forests that have been responsibly managed. A key 
component of its effort to protect the world's forests is to provide 
information and education to the private sector to raise awareness of 
the negative environmental and social impacts associated with illegal 
and unsustainable logging, and the need for companies--including 
partners like Wal-Mart, Procter & Gamble, Johnson & Johnson, and 
Williams-Sonoma--to use their purchasing power to support a more 
sustainable global forest products industry. Through the GFTN, WWF is 
making a real and lasting difference protecting, managing and restoring 
one of the world's most vital natural resources essential to sustaining 
all life on Earth.
    While WWF and TRAFFIC are grateful that the issue of education and 
outreach has taken such a prominent role in this bill, we are concerned 
with the proposed approach to develop and implement a program within 
180 days after enactment of the bill. It is our experience that if an 
outreach program is not set up adequately from the start it will muddy 
the waters with consumers and partners. Incorrect or unclear messaging 
can be harmful and can result in a backlash and even legal action from 
industry. There needs to be an initial strategic review of the 
priorities to target, including which market sectors (e.g. food, 
medicine, pets, tourist souvenirs, fashion, travelers, trade and 
industry etc.) and which locales (e.g. ports, markets and places); and 
approaches need to be developed that are going to resonate with each 
target audience--one size will not fit all. These research and planning 
efforts alone will likely require more than the 180 days currently 
allowed for development and implementation in the bill; therefore, we 
would encourage allowing more time.
    Also, the list of partners for these programs needs to include 
governments in source countries; there is potential for greater impact 
if these campaigns have key government buy-in. For example, a U.S.-
China partnership on wildlife trade awareness would be a groundbreaking 
approach, particularly if it could also set up an awareness program 
between U.S. and Chinese industry on wildlife trade and fisheries and 
timber trade. Bilingual materials and showing the practical benefits of 
working together to stop illegal and unsustainable trade would be a 
powerful and innovative approach.
    WWF and TRAFFIC are keenly aware of the vast resources required to 
ensure that an outreach campaign be effective and achieve tangible 
benefits. Therefore, a sufficient funding authorization should be 
included in Sec. 122(a) and Sec. 122(b) of the bill, as it is for Sec. 
122(c).
Law Enforcement
    The U.S. has comprehensive policies and enforcement mechanisms for 
regulating wildlife trade and for prohibiting international and 
interstate trade of endangered, threatened, and protected species. 
Nonetheless, illegal wildlife trade continues to take place on a 
significant scale. Implementation of existing regulations is still 
lacking, in large part because many of the agencies responsible are 
severely under-resourced. Given the proper resources, undercover 
investigations, inspections, and other programs can be highly 
successful.
    WWF and TRAFFIC have strongly urged more focus on and resources for 
enforcement in previous testimony and in numerous of our reports. 
However, H.R. 3086 does not authorize the increased resources necessary 
to fund enhanced enforcement efforts. We are concerned with the 
specificity of the directives regarding a revision of the FWS Office of 
Law Enforcement's (OLE) Strategic Plan, particularly in light of the 
fact that these elements are not subject to the availability of 
appropriations. While we agree that some of these elements would be 
beneficial, we also believe that OLE should determine where their 
resources would be best utilized to affect positive change in the arena 
of illegal wildlife trade. We would not like to see the elements 
outlined in this bill mandated at the expense of other vital programs 
such as special investigations and inspections.
    Therefore, WWF and TRAFFIC would like to see an authorization for 
funding in Subtitle D of the bill. Additionally, the language in Sec. 
141(b) should be changed to read, ``The revised Strategic Plan shall 
consider as objectives, subject to the availability of appropriations, 
the following elements,'' to allow those with the appropriate expertise 
and experience the flexibility to assign their program priorities.
    Another area of concern for WWF and TRAFFIC is the mandate for 
development of a wildlife cybercrime unit. There is no question that 
illegal wildlife trade is facilitated through the Internet. However, 
this medium is a communication tool that is abused for illegal activity 
but that in itself does not merit a distinct unit to address it. The 
preponderance of the most serious illegal wildlife trade is not 
conducted via Internet, but by well-organized crime syndicates. WWF and 
TRAFFIC would prefer to see any additional resources allocated to the 
FWS's existing Special Intelligence Unit, which already works to 
address wildlife cybercrime, so that they can better address this mode 
of illegal trade as well as others, as demanded by current trends, 
evidence, and investigations.
    The bill's focus on U.S. efforts to build law enforcement capacity 
abroad is highly significant. Countries impacted by U.S. consumer 
demand need assistance with implementing and enforcing their own 
wildlife trade laws. To this end, the U.S., with the support of 
conservation partners including TRAFFIC, has already been engaged for 
many years in capacity-building efforts around the globe. The Central 
America-Dominican Republic (CAFTA-DR) Free Trade Agreement CITES 
Support Program is a good example of a medium-term capacity building 
program established by the U.S. to reduce illegal and unsustainable 
trade. CAFTA-DR member countries encompass a wide variety of ecosystems 
and a spectacular diversity of wildlife but face chronic threats to 
biodiversity, which often derive from unsustainable natural resource 
management practices. As demand for exotic leather, corals, parrots, 
fisheries products and an array of other wildlife products continues to 
grow, it is important for government agencies and industry to meet the 
implementation requirements of CITES and support enforcement. TRAFFIC, 
funded by the Department of State, has supported this program since 
2006, in partnership with the FWS and the DOI's International Technical 
Assistance Program. WWF and TRAFFIC have therefore seen the benefits of 
this collaborative and cooperative approach and applaud the intent to 
further U.S. investment in addressing illegal wildlife trade abroad.
    WWF and TRAFFIC would like to highlight the need to address laws 
and policy, prosecution and adequate sentencing within any U.S. 
capacity building or funding efforts. Without adequate laws in place, 
no country can begin to address illegal or unsustainable wildlife 
trade; without a knowledgeable and sufficiently resourced judiciary, no 
country can successfully prosecute wildlife crimes; and, lastly, 
without sentences adequate to deter wildlife crime, no country--
including the U.S.--can dissuade would-be poachers and wildlife 
traffickers. We have seen in Southeast Asia, for example, an increase 
in the number of seizures of illegal wildlife through successful 
training programs for enforcers; however, most of those seizures do not 
result in prosecution, as there is an apparent disconnect between law 
enforcement and the judiciary in the region. Compounding the problem 
are, again, insufficient laws, insufficient understanding of those 
laws, and insufficient sentences. The U.S. Department of Justice (DOJ) 
and USAID, through support to the Association of Southeast Asian 
Nations Wildlife Enforcement Network (ASEAN-WEN), have been working in 
cooperation with TRAFFIC and other partners to address these issues, 
and WWF would encourage further efforts by the U.S. government to 
ensure that any capacity building efforts be inclusive of these 
judicial aspects of the enforcement chain.
    Over the years, TRAFFIC has worked closely with OLE, as well as 
DOJ, in gathering and sharing information to assist in investigations 
and prosecutions combating illegal wildlife trade both in the U.S. and 
abroad. We look forward to continuing in this spirit of cooperation and 
will provide whatever assistance we can to further U.S. conservation 
efforts.
Wildlife Without Borders
    H.R. 3086 would bring three elements of FWS international programs 
together, merging the existing Species Programs, Regional Programs, and 
Global Programs into a new, three-tiered program to be known henceforth 
as the Wildlife Without Borders program. Up until now, Wildlife Without 
Borders has generally referred solely to the Regional Programs of FWS 
International Affairs. H.R. 3086 would expand the definition of 
Wildlife Without Borders to encompass all of the international programs 
of FWS--including the Multinational Species Conservation Funds (MSCF), 
the Wildlife Without Borders Regional Program, and several cross-
cutting global initiatives.
    We see the new Wildlife Without Borders Program authorized by H.R. 
3086 as an effort to bring the three functions together under a single 
title, to supplement existing sources of funding for these activities, 
to codify the Regional Programs as a grant program distinct from the 
administrative functions of the International Affairs Division, and to 
set the stage for a broader global program that would provide greater 
flexibility for FWS to respond to conservation needs that are outside 
the realm of the Species Programs or the Regional Programs.
    One concern we have with this approach is confusion with the legacy 
of the current Wildlife Without Borders and the proposed Wildlife 
Without Borders program. One simple solution to avoiding such confusion 
would be to rename the program. In addition to clarifying that this is 
a new program with a new remit, it could also clarify the intent of the 
program more globally. The current name may not translate well abroad, 
thus we would suggest a more straightforward name along the lines of 
Global Wildlife Conservation Program, which clearly speaks to the work 
and mission of the program. Additionally, it would be useful to outline 
how the current structure of Wildlife Without Borders would change, and 
what the new program would look like to accommodate these new 
responsibilities.
    We also see value in this approach as part of a more concerted 
funding effort by FWS to address the full spectrum of issues affecting 
international wildlife conservation, provided that the legislation 
retains and builds upon the already existing programs, which are often 
highly successful and have strong constituent support, and enhances 
them by providing FWS with additional flexibility and resources to fill 
existing gaps and expand the range of species and locations where it 
can carry out its vital work. It is also important as part of those 
efforts that FWS coordinate strongly with other agencies, including 
USAID, which also work on biodiversity conservation in many of the same 
places around the world and often have greater resources to bring to 
bear. The legislation provides for such coordination, which we believe 
is essential to ensuring that available resources be used as 
efficiently and effectively as possible to achieve the U.S.'s 
international conservation goals. We also recommend that the grant 
programs authorized as part of the Wildlife Without Borders program be 
implemented in partnership with nongovernmental organizations and other 
stakeholders, including a provision for consultation and cooperation 
with stakeholders on the establishment of conservation priorities 
eligible for assistance under the Program.
    The Wildlife Without Borders program is the section of the bill 
that authorizes the on-the-ground conservation work that is so crucial 
to saving our world's most threatened places and most vulnerable 
species. The success of the existing FWS international programs makes a 
good case for their expansion and codification under the proposed bill, 
and some of the successful partnerships that WWF has participated in 
with FWS, particularly through the individual Species Programs and the 
Regional Programs, are highlighted below.
    Under the new Wildlife Without Borders program, the Species Program 
would consist of the five MSCF administered by FWS, which are 
individually authorized programs providing conservation assistance to 
specific species or groups of species: African elephants, rhinoceroses 
and tigers, Asian elephants, great apes, and marine turtles. The 
Species Program would also incorporate any future species funds 
approved by Congress, including two that are currently awaiting 
passage: one to help conserve great cats and rare canids, and another 
to help conserve several crane species. The MSCF provide funding for 
grants to support law enforcement, mitigate human-animal conflicts, 
conserve habitat, prevent poaching, conduct population surveys, and 
support public education programs.
    Ever since the first of these species programs was authorized in 
1989 when Congress passed the African Elephant Conservation Act, they 
have had an incredibly strong track record of using modest resources to 
achieve real on-the-ground conservation successes. They also have an 
excellent record of leveraging additional funds from public and private 
partners: total funding for the MSCF from FY1990 to FY 2008 totaled $60 
million, and was supplemented by $141 million in matching 
contributions, a ratio of 2.5 to1. Partners have included other 
developed countries, private corporations, host country agencies, and 
non-government organizations like WWF.
    Though the Species Program grants can be modest in size, their 
focused nature and their proven ability to leverage private funding has 
made them highly effective programs in priority areas. Through the 
Rhinoceros and Tiger Conservation Fund, WWF has partnered with FWS on a 
number of projects to protect tiger populations in Asia, including work 
to update information on populations and habitat in order to determine 
what areas will be able to support viable tiger populations in the 
future. Particular effort has been focused on the Indonesian province 
of Riau on the island of Sumatra, which supports one of the last 
remaining habitats for the critically endangered Sumatran tiger.
    WWF has also partnered with FWS to protect populations of Asian 
elephants in a number of priority regions through the Asian Elephant 
Conservation Fund. In Cambodia, WWF has engaged in protected area 
management and law enforcement patrols, as well as monitoring and 
research in areas containing important elephant populations. At the 
same time, WWF has worked to build local capacity for these elephant 
conservation efforts. In Nepal's Terai Arc region, WWF has used money 
provided by FWS to restore transboundary biological corridors between 
Nepal and India, helping to improve elephant habitats, address human 
and elephant conflicts in the corridor areas, and increase awareness in 
local communities. Also in Nepal, WWF has used funding from FWS to 
treat park patrol elephants for tuberculosis, which can appear in 
domesticated elephants and subsequently put wild populations at risk of 
transmission.
    Given the proven success of MSCF programs in funding the 
conservation of these and other threatened species in the wild and the 
significant constituent interest they have generated in Congress and 
among the general public, we would hope that these independently 
authorized and funded programs would be clearly grandfathered into the 
bill as separate programs within the Wildlife Without Borders Species 
Program.
    The existing Regional Programs (the current Wildlife Without 
Borders programs) augment the individual Species Programs by 
strengthening local wildlife management capabilities in developing 
countries and providing flexibility to FWS in regions and habitats not 
covered under the MSCF. The Regional Programs were initiated in 1995 
and have focused on capacity-building and training of wildlife 
professionals in developing countries. These regional efforts have 
largely benefited Mexico, Latin America and the Caribbean, with smaller 
programs in Russia, China and India and a relatively new program for 
Africa. The Regional Programs have a successful record of leveraging 
additional funds from external partners, having awarded a total of $20 
million with more than $58 million leveraged in partner contributions.
    WWF has partnered with FWS through their Regional Programs on a 
number of initiatives, including a regional Train-the-Trainer workshop 
on protected area management in the tropical Andes and Amazon region, 
and the MENTOR Program, which supports capacity building, training and 
career development of emerging African conservation leaders in order to 
build a network of leading wildlife professionals in East Africa.
    The Regional Program has built on the Species Program's decades of 
proven success and filled a crucial gap by providing flexible 
international conservation funding not targeted at any one species or 
habitat. Its focus on local capacity building and education provides a 
critical component for bringing about a culture of conservation in 
those developing countries where FWS-funded projects are underway. It 
is only by creating homegrown capacity and instilling an appreciation 
of biodiversity and its value to local communities, that any local 
conservation efforts can be successful over the long-term. WWF strongly 
supports the intention of H.R. 3086 to codify these FWS Regional 
Programs into law and ensure dedicated resources to achieve these 
purposes.
    However, we are concerned with the third component included in the 
new Wildlife Without Borders program--the Global Program--which would 
incorporate FWS activities that currently include support for U.S. 
involvement in CITES, the RAMSAR Convention on Wetlands of 
International Importance, the Western Hemisphere Migratory Species 
Initiative, and other international treaties and conventions. 
Participation in these accords provides important opportunities for the 
U.S. to lead in shaping international conservation policy. The Global 
Program would also provide a vehicle for addressing cross-cutting 
issues not covered by the Species and Regional programs. Given the 
potentially broad scope of this last authority, including the 
implementation of global habitat and conservation initiatives, we 
stress the need for coordination with other federal agencies and 
existing programs that are working on similar cross-cutting issues on a 
global scale. Additionally, we express deep concern with rolling 
implementation of international treaties under this Program, as these 
involve high level international policy issues with an often separate 
set of players. There are important diplomatic issues involved in 
participation in and strategy for U.S. engagement with international 
treaties, which require close coordination with the Department of 
State. This policy work merits a distinct body in FWS to oversee it, 
which should not be buried under another layer of bureaucracy
International Wildlife Conservation Fund
    H.R. 3086 would create a new International Wildlife Conservation 
Fund to be administered by the National Fish and Wildlife Foundation. 
We support the non-Federal match requirements for the Fund and the 
provision for waivers. However, we have concerns that a nonprofit 
organization is authorized to administer the Fund and believe this 
function would be more appropriately conducted by FWS through the 
Institute for International Wildlife Conservation, in line with the 
funds currently authorized under the Wildlife Without Borders program. 
WWF and TRAFFIC would suggest that following this established model 
would more readily allow for a coordinated funding approach between all 
of these funds. Parallel management of the various funds by two 
different organizations would do nothing to facilitate the 
communication needed to avoid duplication of effort and ensure 
complimentary funding approaches. We also believe this provision would 
be strengthened by inclusion of a specific funding authorization for 
carrying out the purposes of the Act, of which penalties and fines 
would be one component, donations another, and appropriations a third. 
Given the incredible and laudable breadth of the conservation 
activities the Fund would cover, we would recommend it be authorized at 
a minimum of $20 million.
Political Will
    While H.R. 3086 would do much to further U.S. government efforts to 
conserve international wildlife, it has become clear to WWF and TRAFFIC 
over the years that much more is necessary than having adequate laws on 
the books and having systems in place to implement them. Garnering 
political will and elevating the issue of biodiversity conservation and 
illegal wildlife trade as priorities at multilateral meetings and in 
diplomatic exchanges is also essential to bring about significant 
change globally. Up to this point, these issues have tended only to 
capture the attention of those in government tasked with addressing 
them, whereas to be addressed at the scale needed to be successful, 
conservation has to be a priority at the highest political levels. The 
conservation efforts of governments and NGOs around the globe need the 
backing of legislative bodies and Presidents and Prime Ministers, and 
the resources and opportunities they can provide, in order to be truly 
meaningful. Global biodiversity and threats it faces must be raised to 
a higher level of awareness and prioritization. WWF and TRAFFIC would 
like express our sincere appreciation to the Subcommittee for the 
attention it has given to these issues in the 110th and 111th 
Congresses. We also urge Congress and the administration to utilize 
every available opportunity to address conservation challenges on the 
global stage.
    With this is mind, we would like to draw your attention to one 
upcoming opportunity for the U.S. to assert such high level leadership: 
the Global Tiger Summit that is being planned for the next Year of the 
Tiger, in 2010. Despite years of conservation efforts on behalf of 
governments and NGOs, the number of wild tigers continues to decline. 
Successful conservation of wild tigers requires not only keeping these 
revered animals safe from threats such as poaching, but also protecting 
the habitats on which they depend, including critical watersheds and 
forests. Efforts to insure the health and integrity of these essential 
tiger habitats also help to protect the multitude of species and the 
local communities that are equally dependent upon them. Wild tigers are 
in dire straits, and it will take a truly global effort to save this 
iconic species for future generations. WWF and TRAFFIC call on the U.S. 
to be at the forefront of this effort and to make meaningful 
commitments to ensuring its success.
Conclusion
    Finally, TRAFFIC and WWF offer their support and assistance to the 
U.S. in its efforts to combat illegal trade and conserve biodiversity. 
WWF has worked with local communities, industry and governments since 
1961 and has pioneered education and awareness raising work throughout 
these sectors. WWF has also built significant partnerships with 
business and industry in the U.S., and these relationships can provide 
model approaches for future engagements with businesses engaged in the 
legal sale of wildlife and wildlife products. TRAFFIC has over 30 years 
of in-depth insight into wildlife trade, as well as experience in 
monitoring emerging trends, conducting investigations and trainings, 
facilitating multiregional enforcement networks, and analyzing data and 
legislation in every region around the world. Specifically, TRAFFIC 
holds a wealth of information on illegal and unsustainable wildlife 
trade and criminal networks in many regions, which we are happy to 
share with Congress and relevant agencies in order to highlight the 
problems on the ground and to begin to develop effective and 
collaborative solutions.
                                 ______
                                 

 Response to questions submitted for the record by Carter S. Roberts, 
               President & CEO, World Wildlife Fund (WWF)

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  You and other witnesses expressed concerns with the new 
        organizational structures authorized in H.R. 3086. However, 
        there appeared to be little disagreement among the witnesses 
        regarding the principal objectives of the bill (i.e., greater 
        coordination within the Department of the Interior and with 
        other relevant Federal agencies; expanded public outreach and 
        education regarding the illegal trade in wildlife and wildlife 
        products; authorization of the Wildlife Without Borders 
        Program; expansion of training opportunities, especially for 
        law enforcement capabilities in range states; greater 
        collaboration with non-Federal NGO stakeholders, especially 
        utilization of technical and educational assets within the zoo 
        and aquarium community, etc.). How might you suggest the bill 
        be amended to clean up the purported organizational clutter 
        while maintaining the principal objectives and the simplicity 
        you desire? Should greater coordination simply be directed 
        through the existing office of the Assistant Secretary for 
        International Affairs within the Department of the Interior?
    WWF and TRAFFIC support the principal objectives of the bill, 
particularly those that are clearly focused on in situ conservation to 
assist species of concern and the habitats that support them. We also 
strongly support greater coordination of international wildlife 
conservation activities at the interagency level. Activities related to 
wildlife and biodiversity conservation need to be coordinated across 
the federal government to make them as efficient and complimentary as 
possible. For example, USFWS and USAID work in many of the same areas 
and may have overlapping programs in those areas, but it is our 
understanding that, at present, meaningful collaboration between the 
two agencies is limited. We support the need for a formal structure to 
bring interested agencies together to discuss their respective 
approaches to international conservation programs and find ways to 
complement and collaborate with one another. However, we have concerns 
about the bill's attempt to create a new structure (the Council) within 
the Department of Interior to carry out this interagency function, 
given the lack of clarity regarding its authority and practical ability 
to coordinate the activities of other agencies. A structure above the 
level of the individual agencies--perhaps chaired by the White House 
Council on Environmental Quality--may be one possibility.
    As we stressed in our written testimony, we support an approach 
that will bolster existing international conservation programs while at 
the same time enhancing their ability to continue to achieve 
conservation results, filling the gaps between them and helping to 
coordinate conservation work across the federal government in a way 
that is both simple and effective.
2.  Recognizing that there will likely never be sufficient Federal 
        appropriations to address all identified needs it is important 
        that we utilize the contributions of non-Federal stakeholders. 
        Do you agree? Are there additional ways to formally incorporate 
        these capabilities beyond the grant programs authorized under 
        the Multinational Species Conservation Fund? Do you support the 
        creation of the Global Wildlife Conservation Advisory Committee 
        in H.R. 3086?
    We strongly agree that utilizing the expertise of individuals and 
organizations outside of the U.S. government is an efficient and 
effective way to complement U.S. government, as well as NGO, 
conservation activities. WWF and TRAFFIC have endorsed, in previous 
testimony before the Subcommittee, the need to develop an advisory 
committee of experts from government, civil society and industry to 
help guide the conservation work led by the United States 
internationally. We therefore strongly support the development of the 
Global Wildlife Conservation Advisory Committee. While our 
organizations have developed informal, though fruitful, relationships 
over the years with relevant government agencies and departments, a 
formalized mechanism that would allow for more holistic input would be 
a useful line of communication for the government and NGO sectors to 
learn what the other is doing and how we can better work together. WWF 
and TRAFFIC would both welcome the opportunity to participate in and 
contribute to such an Advisory Committee, should one be authorized. WWF 
and TRAFFIC have a breadth of knowledge and engagement on wildlife 
conservation issues internationally, including leveraging our global 
networks and programs working in 100 countries, to help advise such a 
Committee.
3.  Do you support the establishment of an International Wildlife 
        Conservation Fund in the Treasury to provide a means for the 
        Secretary of the Interior to accept and utilize gifts and 
        donations? In order to ensure that there is no potential for 
        conflict of interest, should such a fund be managed by 
        agreement through a non-Federal entity such as the National 
        Fish and Wildlife Foundation?
    Yes, we do support the establishment of an International Wildlife 
Conservation Fund (IWCF), but do not see the need for it to be 
administered by a third party like the National Fish and Wildlife 
Foundation (NFWF). WWF would prefer to see a consistent and unitary 
approach to managing and distributing the funds received from 
appropriations and from gifts and donations. We do not feel it is 
appropriate for the NFWF or any other non-profit organization to hold, 
invest or administer funds paid into an account in the U.S. Treasury. 
Funds paid into the IWCF, from whatever source, should be treated in 
the same manner as currently applies to the Multinational Species 
Conservation Fund (MSCF). This Fund has Treasury accounts for each of 
the species funds and is authorized to accept gifts and donations from 
the public. We do not consider the potential for conflict of interest 
from public donors to be any greater for the IWCF than for the MSCF.
    WWF acknowledges a possible advantage in having NFWF, whose mandate 
is to solicit contributions from private parties in support of 
conservation programs, in a position to proactively solicit private 
contributions to the IWCF. However, we do not believe that it would 
contribute to efficiency to have the Institute's Assistant Director be 
responsible for the Wildlife Without Borders (WWB) program and NFWF be 
responsible for funding all other programs within the Global Wildlife 
Conservation Act. We also do not support a non-profit organization 
having control over appropriated funds, and for this reason, too, there 
should not be a division of responsibility between the Institute and 
the NFWF. We do, however, support the creation of two funds in the 
Treasury, one for the largely international grant programs of the WWB 
program and one for all other programs to be funded by the IWCF. We 
recommend that Section 132(a)(4) be edited to remove overlapping 
authorizations that apply to WWB programs, such as ``to provide 
financial, technical, and other assistance to conserve fish and 
wildlife in their range states''. Finally, we consider the 
administrative fees for the IWCF to be very modest for a program of 
this diversity and size, and recommend that it follow the fee structure 
of the MSCF in which EACH of the species programs is authorized at 
$100,000 or 4-5 percent of appropriations.
4.  Why is it important to educate the U.S. consumer about their role 
        in illegal wildlife trade? Should campaigns, such as the 
        ``Buyer Beware'' campaign, be expanded and improved? What would 
        be an appropriate level of funding for such an endeavor?
    We have highlighted the need for such an effort in the past, 
particularly an effort inclusive of industry, and are pleased to see 
the Subcommittee giving this issue the attention it deserves. It is 
important that the U.S. engage in education efforts, as the U.S. is one 
of the top two consuming nations for wildlife globally and its buying 
power is having a dramatic impact on the wildlife and livelihoods of 
those countries housing the greatest biodiversity. The role of the U.S. 
in supporting source countries, informing its own consumer market, and 
enforcing and regulating that market is a complex one that requires 
significant resources and internal and external cooperation and 
coordination. We would encourage the U.S. to first consider the 
numerous conservation outreach programs already in existence, and urge 
that these programs not be completely reinvented; many successful 
campaigns and programs exist which the U.S. could build upon. For 
instance, TRAFFIC, which has partnered with the FWS over the years on 
the Buyer Beware campaign, is preparing new outreach materials that 
will help inform cruise ship tourists about which wildlife souvenirs to 
avoid. The goal of our Make a Good Buy campaign is to reduce the 
negative impacts of wildlife trade caused by cruise ship tourism in the 
Caribbean, Mexico and Central America by allowing the tourist industry, 
local communities and the cruise line industry to make informed 
choices. To date, we have produced brochures, wallet cards, luggage 
tags and tote bags to carry our message of sustainable tourism, and 
welcome any interest or cooperation from the U.S. in these and other 
targeted efforts.
    WWF and TRAFFIC are keenly aware of the vast resources required to 
ensure that an outreach campaign is effective and achieves tangible 
benefits. Therefore, a sufficient funding authorization should be 
included to support adequate planning and market research, to 
underwrite the campaign itself and to monitor and evaluate the 
effectiveness of the campaign. We would encourage consultation with 
other government agencies that have run successful campaigns to gather 
advice on execution as well as cost. The U.S. Forest Service's long-
running wildfire prevention campaign featuring Smokey Bear may provide 
a good model.
5.  What other elements would you add, subtract or revise in the Office 
        of Law Enforcement Strategic Plan? What kinds of information 
        would best support TRAFFIC in its efforts to monitor the legal 
        and illegal trade in wildlife and wildlife products?
    To clarify this question, we believe the current Strategic Plan in 
place until 2010 should be concluded first and the evaluation of its 
success and results reviewed and reported before the next five-year 
Strategic Plan is established. We will not suggest changes to the 
current plan. The USFWS is doing an excellent job considering the 
resources it has to maintain its operations. We recognize that the 
Office of Law Enforcement is in the best place to determine the 
detailed content of the Plan and its operations. However, in the next 
Plan, we believe that the USFWS could take a more proactive and leading 
role to support less-developed countries in combating wildlife crime 
and regulating trade in wildlife. Building better governance, capacity 
and political will in countries that are key hotspots for illegal and 
unsustainable trade will not only help conserve biodiversity and 
habitats, but will also support livelihoods and development agendas. 
For example, the Plan could set in place targets for establishment of 
new enforcement networks in regions like Central America and South Asia 
through providing expertise, training, tools and personnel exchanges. 
Law enforcement agencies could provide information to help support 
TRAFFIC's wildlife trade monitoring mission by flagging concerns about 
large-scale trade or trade in vulnerable species (particularly those 
species that may not yet be regulated under CITES). TRAFFIC could then 
undertake research to determine if better trade regulation or 
protection is needed for the species, or if new wildlife management 
approaches are needed in the countries of origin. We would not expect 
the USFWS to share sensitive information with an NGO concerning illegal 
trade cases that have yet to be prosecuted.
6.  Dr. Monfort testified that the Smithsonian Institution has recently 
        created a Conservation Biology Institute whose program 
        activities are quite similar to the activities proposed for the 
        Center for International Wildlife Recovery Partnerships in H.R. 
        3086. Would it make sense to amend the bill to direct the 
        Secretary of the Interior and the Smithsonian, through a 
        cooperative agreement, to develop a partnership to incorporate 
        these capabilities and the capabilities of the zoo and aquarium 
        community at large, to enhance U.S. international wildlife 
        conservation capabilities? How might such a partnership benefit 
        or support the on-the-ground conservation activities of WWF? 
        Would there be any risks to existing programs?
    WWF and TRAFFIC would not be opposed to a cooperative agreement 
along the lines described above, but we believe that, under such an 
agreement, it would be important for the Secretary to bring in the 
broader zoo and aquarium community, beyond just the Smithsonian. It is 
not clear how such programs might benefit WWF's on-the-ground 
conservation activities. Our work is focused on protecting wild places 
and the wildlife found in them, and the sorts of activities proposed 
under the Center for International Wildlife Recovery Partnerships are 
not typically ones that we participate in. We acknowledge the critical 
role of zoos and aquariums in undertaking captive breeding programs 
when on-the-ground conservation efforts have failed to restore 
threatened populations, but believe that the most urgent priorities of 
the bill should be to support in situ conservation programs to protect 
the world's most threatened species and habitat.
7.  In general, does WWF support the establishment of the Global 
        Wildlife Coordination Council in Title II of the H.R. 3086? If 
        not, can WWF propose a mechanism to facilitate better 
        cooperation and information sharing among Federal agencies 
        involved with some aspect of international wildlife 
        conservation and law enforcement?
    While WWF supports the effort to establish a coordinating body for 
Federal agencies involved in international wildlife conservation and 
law enforcement, we have concerns about creating a new structure 
chaired from within the Department of Interior to carry out this 
function. It is questionable whether such a structure is the best way 
to coordinate the activities of USAID, NOAA and other agencies that 
fund projects to protect wildlife, habitat and biodiversity. Instead, 
we would suggest that this interagency coordinating function might be 
elevated above the agency level to the White House, perhaps giving the 
chairman's role to the Council on Environmental Quality. Similar 
approaches are being implemented for interagency strategy and policy 
regarding the Arctic and have been included in House-passed legislation 
dealing with climate change science and natural resource adaptation.
8.  Does WWF support authorization of the Wildlife Without Borders 
        Program as specified in H.R. 3086? Would authorizations for 
        species-specific, regional and global programs in the bill be 
        sufficient to motivate the Federal government to address 
        declines in families of wildlife that often go unmentioned or 
        unrecognized under the Multinational Species Conservation Fund, 
        such as amphibians and reptiles?
    WWF has testified on two occasions in support of the Wildlife 
Without Borders program and has generally endorsed the program 
described in the Act as a means to expand the imperfect coverage of 
current international grant programs. We have long supported a more 
broad-based and comprehensive approach to international wildlife 
conservation within the U.S. Department of Interior, and have suggested 
some key considerations in our testimony of July 28 to ensure that 
legislation achieves its core purposes (page 2, ``Overall...''). As 
noted in our testimony, we would recommend that the new program 
described in H.R. 3086 be renamed the ``Global Wildlife Conservation 
Program'', in order to avoid confusion with the current Wildlife 
Without Borders Regional Program. We strongly support the codification 
of the WWB Regional and Global Programs into law and believe it would 
be desirable to combine them with the Species Programs under a common 
moniker. We also see value in separating these international programs 
from the International Wildlife Conservation Fund, which covers all 
other programs authorized in the Act. We see the Wildlife Without 
Borders section as the core of the Act, and believe resources should be 
focused on saving wild species in wild places.
    The provisions of Section 121 will not, however, be sufficient to 
``motivate the Federal Government to address declines in families of 
wildlife that often go unrecognized under the MSCF'' unless (1) 
sufficient funds are authorized and appropriated and (2) an Advisory 
Committee is authorized to assist in establishing conservation 
priorities through regular interactions with Institute staff. With 
regard to the sufficiency of funds, it should be noted that the MSCF 
programs (including Neotropical Migratory Bird Conservation Act) are 
currently authorized at $36.5 million and appropriated at $14.5 
million. WWB Regional Programs and WWB Global Programs are not 
independently authorized, but are currently funded at $6.5 million. 
Under the generous assumption that WWB programs would be appropriated 
at 50 percent of authorized levels, we would have to assume that 
authorizations for the existing species and WWB programs are already at 
$43 million to generate $21 million in appropriations to support 
current programs. If the legislation is to make even a small impact on 
``families of wildlife that go unrecognized'', the authorization level 
for the Wildlife Without Borders program described in this Act would 
have to be increased to close to $85 million to generate an additional 
$20 million in appropriations for these programs.
Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
1.  H.R. 3086 requires the Center for International Wildlife Recovery 
        Partnerships to provide biennial assessments of the role of the 
        U.S. in international wildlife conservation in consultation 
        with partner institutions and other stakeholders. Does WWF view 
        the stakeholder role as one it will take on if H.R. 3086 is 
        enacted? Would this role be similar to how you work with the 
        agency today?
    WWF and TRAFFIC are concerned that the bill would give the Center 
for International Wildlife Recovery Partnerships such broad 
responsibility to provide assessments of the ``implementation of 
strategies to promote conservation of species...'' We believe that such 
an assessment would more appropriately be the responsibility of the 
coordinating entity for international conservation work within USFWS, 
whether that be the Institute or an existing entity. Stakeholders would 
then make input through the Advisory Committee to the Institute. The 
biennial assessments by the Center would be limited to captive breeding 
and reintroduction issues, which is the primary focus of the Center. 
Given that captive breeding and reintroduction issues are not ones on 
which WWF or TRAFFIC generally work, we would not anticipate a 
consultation role on these more limited assessments.
    WWF and TRAFFIC are ready, within existing resource constraints, to 
support appropriate initiatives and needs of the U.S. government in 
helping further conservation goals internationally. We therefore would 
be able to provide information for the purposes outlined here, as key 
stakeholders working in partnership with the U.S. government in many 
places internationally. We would expect to provide the Department of 
Interior with indicators of success and evaluations of progress based 
upon levels of resources allocated.
2.  You mention in your testimony that existing education efforts 
        should not be duplicated. Can you elaborate on how the bill 
        could expand the existing efforts instead of recreating them?
    The bill proposes a national-level advisory committee and this body 
could take on the task of reviewing current education efforts and the 
efficacy of those efforts nationally and internationally. If the 
advisory committee comprised a range of stakeholders as advisors 
(including government, NGOs, industry, business, etc.), the committee 
could use its networks to highlight effective campaigns or programs 
that could benefit from additional resources, inputs or partnership 
with the U.S. government, to reinforce the program's impacts. There are 
numerous existing programs that simply do not have enough outreach in 
terms of quantities of materials and sites where they are promoted. For 
example, the U.S. Fish and Wildlife's ``Buyer Beware'' campaign is an 
excellent tool that WWF and TRAFFIC have assisted with, but the amount 
of materials produced could be drastically increased. More innovative 
ways of reaching the audience could also be used--for example, on the 
screens above check-in counters at airports. Several countries already 
do this at their airports to dissuade travelers from carrying wildlife 
products that could be illegal. The advisory committee could have an 
education working group that monitors campaigns and provides feedback 
to the Department of Interior on where to partner, fund, expand or 
learn from the current education campaigns. The Department would have 
to review the potential campaign partnership for consistency with 
Department policy.
3.  Does WWF work with any zoos or aquariums to assist them in their 
        wildlife conservation education efforts? Would you say funding 
        is the biggest limiting factor to these efforts?
    The Suitcase for Survival program is a partnership of the U.S. Fish 
and Wildlife Service (FWS), American Zoo and Aquarium Association 
(AZA), World Wildlife Fund (WWF) and the National Oceanic and 
Atmospheric Administration (NOAA) Fisheries Services' Office for Law 
Enforcement, with additional assistance from TRAFFIC North America. It 
is designed to address the need for a national education program 
focused on wildlife trade and biodiversity. Since 1991, the program has 
raised awareness about the devastation caused by illegal wildlife trade 
worldwide. It has also helped consumers understand the importance of 
biodiversity and how their buying habits can contribute to biodiversity 
conservation.
    The program includes several components that build on the strengths 
of the partners. The FWS and NOAA provide wildlife trade artifacts that 
have been confiscated at ports of entry. These artifacts are 
disseminated to a wide array of environmental educators and their 
respective institutions throughout the nation, and host institutions 
can assemble the artifacts into used suitcases. These suitcases can 
then be used to conduct wildlife trade educational programs with 
educators and students as well as the general public. In addition to 
artifacts, the institutions can also use WWF's wildlife trade education 
module, Wildlife for Sale: An Educator's Guide to Exploring Wildlife 
Trade. More funding to expand the reach of existing programs like 
Suitcase for Survival and Buyer Beware (developed with TRAFFIC and FWS 
and referenced in our answer to Question 4 from Chairwoman Bordallo), 
as well as to develop new programs, would go a long way in highlighting 
the conservation issues of wildlife trade and help to alleviate U.S. 
consumer impact.
4.  H.R. 3086 creates a number of new levels of bureaucracy, but what 
        does it do and what funding does it provide specifically for 
        species conservation or on-the-ground activities?
    We believe that the bill provides, within the new, overarching 
Wildlife Without Borders Program, an opportunity to codify existing 
programs that support regional and global wildlife conservation 
efforts, while at the same time expanding the opportunities to focus 
attention on species and groups of species of concern that are not 
targeted by the Multinational Species Conservation Funds. As written, 
the bill does not specify authorized levels of funding for the on-the-
ground activities provided for in the bill, with the exception of the 
funding authorized under the five existing Multinational Species 
Conservation Funds. These five Funds are incorporated into the bill at 
their existing individual authorization levels. WWF recommends that 
funds need to be authorized to carry out all programs contained in the 
Wildlife Without Borders title of the bill. And given our desire to see 
this bill expand the scope and ambition of FWS international programs 
by helping to conserve more priority species and give attention to 
habitats in currently neglected regions of the globe, we believe that 
the authorized funding required to fulfill the bill's stated goals for 
the Wildlife Without Borders title should be substantial, on the order 
of $85 million. This number includes already-existing authorizations 
for each of the Multinational Species Conservation Funds.
5.  You mention in your testimony that ``added layers of bureaucracy 
        will not alone resolve this issue''. You stated at the hearing 
        the need to simplify and strengthen existing programs. Can you 
        elaborate on how the existing programs could be strengthened to 
        allow for stronger wildlife conservation efforts?
    As noted above under Majority question #8, WWF considers the core 
purpose of this Act to be the conservation of species in the wild. The 
existing Species Program could be strengthened by expanding the scope 
of the proposed WWB program to cover a broader range of threatened 
species, such as amphibians and reptiles. The WWB Regional Program 
could be strengthened by expanding its scope to more regions of the 
world, notably the Middle East and South and East Asia. The WWB Global 
Program could be expanded to cover cross-cutting issues like climate 
change, disease control and invasive species. Funding for current 
programs is spread very thin, however, and does not meet the needs of 
international conservation. Strengthening these programs is not just a 
matter of reorganization; it is a matter of providing sufficient 
funding.
6.  What aspects of the bill do you view as necessary: the Fund, the 
        Advisory Committee, the Council or something else?
    International Wildlife Conservation Fund--We strongly agree that 
further conservation funding, to support efforts not covered by 
existing authorities, is required to ensure that conservation 
activities are scaled up to the level necessary to ensure the continued 
survival of the Earth's biodiversity. We support the non-federal match 
requirements for the International Wildlife Conservation Fund and the 
provision for waivers. However, we have concerns that a nonprofit 
organization is authorized to administer the Fund and believe this 
function would be more appropriately conducted by FWS through the 
Institute for International Wildlife Conservation, in line with the 
funds currently authorized under the Wildlife Without Borders program. 
WWF and TRAFFIC would suggest that following this established model 
would more readily allow for a coordinated funding approach between all 
of these funds. Parallel management of the various funds by two 
different organizations would do nothing to facilitate the 
communication needed to avoid duplication of effort and ensure 
complimentary funding approaches. We also believe this provision would 
be strengthened by inclusion of a specific funding authorization for 
carrying out the purposes of the Act, of which penalties and fines 
would be one component, donations another and appropriations a third. 
Given the incredible and laudable breadth of the conservation 
activities the Fund would cover, we would recommend it be authorized at 
$50 million.
    Global Wildlife Conservation Advisory Committee ``We strongly agree 
that utilizing the expertise of individuals and organizations outside 
of the U.S. government is an efficient and effective way to complement 
U.S. government, as well as NGO, conservation activities. WWF and 
TRAFFIC have suggested in previous testimony before the Subcommittee 
that an advisory committee of experts from government, civil society 
and industry should be created to help guide the conservation work led 
by the United States internationally. We therefore strongly endorse the 
development of the Global Wildlife Conservation Advisory Committee. 
While our organizations have developed informal, though fruitful, 
relationships over the years with a number of government agencies and 
departments, a more formalized mechanism that would allow for more 
holistic input would be a useful line of communication for the 
government and NGO sectors to learn what the other is doing and how we 
can better work together. WWF and TRAFFIC would welcome the opportunity 
to participate in and contribute to such an Advisory Committee should 
one be authorized. WWF and TRAFFIC have a breadth of knowledge and 
engagement on wildlife conservation issues internationally that could 
help advise the Committee, including input from our global networks and 
programs in 100 countries.
    Global Wildlife Coordination Council ``WWF and TRAFFIC support a 
consolidated U.S. conservation strategy and a cooperative effort 
between all sectors of the U.S. government contributing to or affecting 
global conservation. This ratcheted-up effort and coordination are 
necessary to facilitate the kind of efforts required--both on the 
ground and at the highest political levels--and is what has been called 
for by WWF, TRAFFIC and many of our conservation partners. However, 
while we embrace the intent behind the Council, we have some serious 
concerns with the execution. A coordination mechanism is certainly 
needed within the federal government on global wildlife conservation, 
but we have heard concerns, including from within government, that the 
creation of various new bodies may result in unnecessary layers of 
bureaucracy. It is unclear, as currently written, what authority, if 
any, the Council would have over the actions of the Department of the 
Interior, as well as other government bodies. While we strongly agree 
that coordination is needed to ensure that federal agencies make 
efficient use of available resources and avoid duplication of effort, 
we are also wary of hindering any agency's effectiveness or flexibility 
in responding to rapidly emerging conservation issues. More clarity 
would be helpful with respect to the defined roles and responsibilities 
in the legislation to ensure that any new structure will be of true 
conservation benefit and not create new hurdles to agencies carrying 
out their missions. We appreciate that mandating cooperation while 
allowing a necessary level of autonomy is a fine line to walk, but we 
also believe that finding the proper balance will be critical to 
avoiding bureaucratic stalemate.
7.  In your testimony you state that ``adequate authorization levels'' 
        must be included. What amount of funds are you suggesting would 
        be needed? Would it be more appropriate to authorize and 
        appropriate additional funds for the existing Global, Species 
        and Regional Programs?
    The one ingredient that is lacking from the Act is a reasonable 
estimate of authorization levels. There are two primary foci of this 
legislation: (1) grants for on-the-ground conservation activities in 
foreign countries; and (2) funding for related activities, largely in 
the United States, to educate consumers of wildlife products, ensure 
effective law enforcement, support captive breeding and reintroduction, 
create an Advisory Committee and encourage improved agency 
coordination. In response to Majority question #8, an estimate of $100 
million is considered necessary for the WWB Program to achieve the on-
the-ground goals of the Act. In addition, the International Wildlife 
Conservation Fund will require substantial funding authorization to 
accomplish the many additional mandates of the Act. We would defer to 
the Congressional Budget Office for a detailed analysis of the fiscal 
impacts of the bill, but would be surprised if the broad range of 
programs and institutions in the Act could be implemented for less than 
$50 million. As noted above, we recommend that the WWB Program be 
funded through a separate account in the Treasury that keeps the focus 
on in situ conservation activities. All other programs and activities 
should be funded through the IWCF in its own Treasury account.
8.  In your testimony you state that ``given proper resources, 
        undercover investigations, inspections and other programs can 
        be highly successful.'' You go on to say that H.R. 3086 ``does 
        not authorize the increased resources necessary to fund 
        enhanced enforcement efforts''. What amount of funds is needed 
        to allow for better enforcement? Are there specific enforcement 
        actions that need additional funds?
    The U.S. Fish and Wildlife Service and APHIS are best placed to 
answer questions on specific details of where resources need to be 
applied to enhance enforcement efforts related to animal and plant 
crimes and trafficking. It would not be prudent for WWF and TRAFFIC to 
publicly suggest where there could be gaps, as this may give wildlife 
criminals an advantage to exploit those gaps. It is our belief that for 
the next appropriations USFWS/OLE would require additional resources to 
more adequately address some of the requirements outlined in the 
comments here:
    a.  Covert investigations by law enforcement, to infiltrate the 
organized crime gangs responsible for the illegal trade, has reaped 
significant benefits in disrupting and dismantling these crime 
networks. The costs are high for such operations and require a long-
term investment of resources and committed staff with particular 
specialist expertise. Allowing for such covert investigations and sting 
operations to operate more frequently and widely would yield 
significant results quickly.
    b.  Additionally, it is clear to us that the use of intelligence 
information is critical, and support for the intelligence unit to both 
work in the U.S. and collaborate with foreign intelligence teams in 
source countries of wildlife should be enhanced. This also would 
support investigations overseas by foreign governments. Additional 
funds are also needed to support capacity-building efforts to prevent 
poaching and illegal trade in the countries of origin, before wildlife 
is smuggled into the United States. The U.S. has shown significant 
leadership in this regard in some regions internationally, but the 
resources are not enough to allow USFWS specialists to support other 
nations in a consistent, longer-term manner.
    c.  One area of focus that requires urgent attention is the plight 
of the tiger, which is rapidly being wiped out in its range in Asia to 
feed the demand for bones for health tonics and skins for fashion. The 
U.S. could support range countries in developing an international tiger 
poaching and trade information system to gather and analyze 
intelligence information to help target criminal gangs, trade routes, 
smuggling methods and consumer markets internationally. A mapping 
function that can show illicit trade flows would also help direct 
enforcement efforts.
 9.  Is a new law needed to authorize these enforcement efforts or can 
        the agency request these funds under existing authorities?
    Most enforcement efforts could be funded under existing authorities 
with the correct appropriations. However it is our opinion that the 
current draft bill H.R. 3086 combines too many facets into one piece of 
legislation. There remains the need to urgently address wildlife 
trafficking internationally and empower law enforcement to combat 
organized crime networks in a sustained way. A new law that directs 
efforts and resources in this regard would add attention and emphasis, 
and allow for the wider work suggested in our written testimony and our 
comments here to be more adequately realized.
10.  You mention in your testimony that ``There are also significant 
        risks to the global and U.S. economies from the loss of species 
        and habitats around the world and the valuable services they 
        provide.'' Can you expand on this statement and give examples 
        of how the U.S. economy may be impacted by the loss of species 
        somewhere else in the world?
    In many developing parts of the world, natural resources--including 
fish and wildlife--form the backbone of local and regional economies. 
In globally important ecosystems, local and regional management 
practices can have a global effect. One of the best examples is the 
Coral Triangle marine region of Southeast Asia--called ``the rainforest 
of the sea''--which borders several countries and supports over half of 
the world's coral reefs and one of the highest human population 
densities on the planet. Not only do these living reefs provide the 
economic basis for the livelihoods of tens of millions of people in six 
developing nations, they also act as the spawning ground for tuna 
populations that supply 50 percent of the global tuna market (which 
generates billions of dollars annually). The collapse of the marine 
ecosystems that make up the Coral Triangle would not only have a 
devastating effect on local communities but could undermine globally 
important fisheries and the economies on which they depend. Given the 
devastating impacts that warming and acidifying oceans are expected to 
have on the world's coral reefs, this scenario could become a present 
reality in the coming decades. This example demonstrates how the 
success or failure to protect species, habitats and ecosystems in 
developing countries may create significant costs or produce 
significant benefits for faraway economies, like our own.
    The costs of failing to promote conservation in the developing 
world can bring other costs as well, outside of the purely economic. 
The loss of species and habitat can undermine entire ecosystems and 
impoverish the communities that depend on them, and resource scarcity 
and the loss of local livelihoods often breed conflict and instability. 
Competition over resources may well define the security challenges of 
the coming century. The U.S. can help minimize these risks by promoting 
development that takes conservation into account. Namibia offers an 
example of how a moderate U.S. investment in conservation can help 
stabilize and enrich local populations while protecting species and 
habitat. Community-based conservancies in that country, with the help 
of U.S. support, have fostered rebounding wildlife populations, nascent 
local democracies and improved economic growth in a country that 
experienced decades of occupation and war. From 1998 to 2003, the 
benefits of conservancies to local communities grew from $1 million to 
$14.5 million--an average increase of 70 percent a year. In contrast, 
failure to take conservation into account in the central African nation 
of Niger contributed to famine in that country, which led to chronic 
malnutrition, deepening impoverishment and increasing instability. In 
2005 alone, 3.6 million Nigeriens went hungry, requiring $19 million in 
U.S. emergency assistance. As these contrasting examples suggest, 
investing a modest amount in conservation now can prevent the need to 
spend a great deal more later on.
11.  You state in your testimony that wildlife trade involves transport 
        of wildlife merchandise. How can the transport industry assist 
        in countering illegal trade? Are there any confidentiality 
        issues that would need to be addressed?
    For many years, WWF and TRAFFIC have been advocating greater 
involvement and responsibility of the transport industry in reducing 
the risk of illegal transport of wildlife and products. Wildlife trade 
is big business and large volumes and frequent shipments of wildlife 
crisscross the planet every day via air, ship, rail, truck, express 
mail and courier. The companies that are transporting wildlife often 
have the closest contact with parcels, luggage, shipments and carriage 
of live wildlife and have an opportunity to both look out for any 
suspicious shipments and inform their extensive client base of the laws 
and regulations governing trade and transport of wildlife. Transport 
companies need to educate the staff responsible for the booking and 
movement of goods about the laws that apply to wildlife trade and what 
to look for in terms of illicit wildlife shipments. They need to know 
who to contact in each country if they do have concerns of potential 
illicit activity. This can also stretch to include cabin crew on 
airlines who from time to time have detected live wildlife being 
smuggled by air passengers, both in the baggage and on the person. In 
terms of confidentiality it is important that any suspicions are kept 
confidential and only shared with the relevant enforcement agency in 
the country or countries where there may be suspected wildlife 
trafficking. The U.S. Fish and Wildlife Service Office of Law 
Enforcement is the responsible agency with whom U.S.-based transport 
companies can discuss issues of confidentiality. WWF and TRAFFIC also 
have information that can be shared with the transport industry that 
identifies the types of wildlife that are smuggled and from which 
countries. We would be happy to support any transport company that 
wishes to educate its staff and develop internal checks to make sure 
they do not transport illicit wildlife.
12.  You mention that H.R. 3086 does not allow adequate time to develop 
        and implement an outreach program and that outreach does not 
        fall under a one-size-fits-all approach. In your experience how 
        long has the development of outreach actions taken? Does the 
        Service have adequate existing authorities to conduct these 
        activities?
    Adequate planning and market research are essential to inform an 
effective campaign, and monitoring and evaluation are excellent tools 
to assess the effectiveness of the campaign and to inform any future 
efforts. We would encourage consultation with other government agencies 
that have run successful campaigns to gather advice on execution, such 
as the U.S. Forest Service's long-running wildfire prevention campaign 
featuring Smokey Bear. A rough estimate for adequate research, planning 
and design would likely be a full year. Lastly, while FWS is better 
equipped to answer the second part of this question, it is assumed that 
the Service has adequate authority to conduct an outreach campaign, as 
it has already done for the Buyer Beware campaign.
13.  Have WWF and TRAFFIC found that education campaigns have been 
        successful in reducing the consumption of wildlife? What have 
        you seen as the major hurdles in effecting change in the 
        cultural use of wildlife in countries around the world?
    Education campaigns are highly successful in reducing the 
consumption of wildlife. For example, WWF worked with the American 
College of Traditional Chinese Medicine (ACTCM) in San Francisco in 
late 1990 and early 2000 on an outreach campaign with the Chinese-
American community to discourage use of tiger and rhino products in 
traditional Chinese medicine (TCM). The campaign focused not only on 
the illegality, but also on the conservation impacts. During that time, 
we saw significant decreases in the availability of these products in 
Chinatown TCM stores. We conducted a market survey in 1996-1997, which 
indicated that 42 percent of the shops visited were selling products 
labeled as containing tiger bone and five percent were selling products 
labeled as containing rhino horn. When we revisited that market survey 
in 2003, only three percent of the shops were selling tiger products 
and none were found to be selling rhino products. Additionally, when 
our market researchers queried shop owners regarding these products, 
often times we were told they were illegal, but even more 
significantly, many went on to elaborate the negative conservation 
impacts of using tiger and rhino products. It was clear that the 
outreach campaign had achieved success. This was due, in no small part, 
to the fact that WWF partnered with ACTCM on the campaign and worked 
from within the Chinese-American community to influence behavior.
    The hurdles in effecting change are manifold. Many of the behaviors 
we try to change are deep-rooted and can go back centuries; therefore, 
they cannot be eliminated overnight. This means that not only does one 
need to take the time to determine the most effective way to influence 
positive change (appropriate audience, appropriate messaging, 
appropriate media, etc.), but one also must have the resources to 
support a broad campaign over a sufficient period of time.
                                 ______
                                 
    Ms. Bordallo. Thank you. Thank you very much, Dr. Roberts, 
for the tireless work that your organization conducts to 
protect global biodiversity.
    Dr. Monfort, thank you for being here with us today, and 
you are now recognized to testify.

     STATEMENT OF STEVEN MONFORT, PH.D., ACTING DIRECTOR, 
                  SMITHSONIAN ZOOLOGICAL PARK

    Dr. Monfort. Thank you, Chairwoman Bordallo and 
distinguished Members of the Subcommittee, for the opportunity 
to provide testimony today.
    The Smithsonian's National Zoo scientists were among the 
founders of the field of conservation biology, and today our 
scientists conduct research that aids in the survival or 
recovery of species and their habitats, and we work to ensure 
the health and well-being of animals, both in zoos and in the 
wild.
    The Smithsonian's National Zoo is actually part of the 
Association of Zoos and Aquariums, whose 218 member 
organizations collectively reach more than 175 million visitors 
annually and reach out to them about the importance of animals 
and wild places and also about the roles that they can play in 
helping to preserve and conserve these places.
    The Smithsonian feels it has a responsibility to preserve 
biodiversity, in part, because of our ethical and moral 
commitment that relates to our own living collection of 
animals, but also because we believe that the public 
increasingly expects zoos and natural history museums to be the 
champions for conservation of animals in nature, and zoos are 
rising to the challenge and, in AZA, there are more than 3,700 
field conservation and research programs that have been 
supported in more than 100 countries, and there are now 100 
species survival plans that reach 160 separate species in need 
of conservation. These programs focus on genetic diversity and 
habitat preservation, public education, also field conservation 
and, maybe most importantly, research and science that is aimed 
at assisting the species recovery efforts.
    No conservation program is effective without effective 
partnerships, so, at the National Zoo, we reach out and partner 
with a diversity of partners across the USA and 
internationally. This is a broad spectrum of people, ranging 
from conservation scientists and public policy experts, to 
educators, nongovernmental organizations, and so on.
    One particularly relevant partnership for this Act is our 
consortium, which is the Conservation Centers for Species 
Survival, or C2S2, and this is a recently formed consortium of 
five zoological organizations in the United States that control 
more than 25,000 acres of land that is available for species 
research and recovery, and our partners include prestigious 
organizations like the Fossil Rim Wildlife Center in Texas, the 
San Diego Zoo's Wild Animal Park in California, White Oak 
Conservation Center in Florida, and The Wilds in Cumberland, 
Ohio.
    These facilities have large amounts of space, specialized 
facilities and staff with the expertise needed to work on 
helping to conserve globally threatened species and especially 
those that have been determined to be a priority by the U.S. 
Fish and Wildlife Service and also state wildlife agencies.
    We also believe that, given the environmental challenges 
that are currently facing the planet, that there is no greater 
need than to train the current and next generation of 
conservation professionals. At AZA institutions, they reach 
over 12 million people each year who are educated in some way 
through their visit to zoos, and more than 400,000 teachers 
have been reached over the past decades.
    At the National Zoo, we invest heavily in K-through-12 
education programs, also teacher training programs, and we 
emphasize the importance of understanding biodiversity and 
especially the role that humans play in shaping its future. We 
seek to actually explain why conservation matters, why it 
should matter, including how it impacts things like human 
health and economic security, and we want to help people 
determine how they can understand how they can make a 
difference.
    We have a major commitment to educating conservation 
professionals around the world to help study, recover, and 
protect species and their habitats, and we have programs for 
undergraduate students, graduate professional audiences, all 
based on scientific approaches to conservation and decision-
making. Over the past three decades, we have trained over 5,000 
conservation professionals in more than 85 countries, and many 
of our graduates hold leadership positions around the world.
    Finally, we feel that science is the fundamental aspect of 
solving any conservation program. The Smithsonian National Zoo 
scientists are uniquely positioned to understand why there are 
some species that are going to survive and adapt while others 
will go extinct in the face of environmental change, and we 
feel that scientific knowledge is what is going to help us to 
forecast the changes that will contribute to population 
declines and extinctions, but also how to develop mitigation 
strategies that will help to keep these from becoming 
irreversible changes.
    We have particular expertise in understanding the 
fundamental biology of species, something that people assume we 
know more than we actually do, discovering and understanding 
the evolutionary and ecological factors that impact 
biodiversity, including human impacts, and also things like 
prioritizing species and landscapes that are in need of 
conservation, and then developing tools and concepts that can 
help us to mitigate the impact.
    At the National Zoo and at the Smithsonian, as a whole, we 
have one of the largest faculties of conservation and 
biodiversity scientists anywhere in the world that are 
dedicated to understanding the fundamental biology of species, 
the complexity of natural ecosystems, and human impacts on 
ecological structure and processes.
    In summary, the Smithsonian Institution and the National 
Zoo support the overall conservation goals of H.R. 3086, and we 
are prepared to work cooperatively with the Subcommittee in any 
way we can to be helpful in advancing these common objectives. 
Thank you for the opportunity to testify today on these 
critical conservation issues, and I look forward to answering 
your questions.
    [The prepared statement of Dr. Monfort follows:]

         Statement of Dr. Steven L. Monfort, Acting Director, 
            Smithsonian Institution National Zoological Park

Introduction and Overview of the National Zoo's Conservation Programs
    Thank you Chairwoman Bordallo and distinguished members of the 
Subcommittee for the opportunity to provide testimony to you today. My 
name is Steven L. Monfort and I am the Acting Director of the 
Smithsonian Institution's National Zoological Park. The National Zoo, 
in Washington, D.C., draws nearly 3 million visitors per year, and has 
over 40,000 member families of Friends of the National Zoo (FONZ). The 
zoo's website, supported by FONZ, receives more than 20 million visits 
annually from around the world. The Smithsonian Institution's museums 
and zoo teach millions of people each year in living classrooms, 
dedicate millions of dollars annually to education, conservation and 
scientific research programs and support over 130 conservation and 
research projects in more than 35 countries.
    The Smithsonian Institution's professionals work collaboratively 
with other Federal and state agencies to help shape national and 
international wildlife conservation policy. They provide expert comment 
and input on such issues as migratory species, biological diversity, 
wildlife trade, endangered species, and species conservation. National 
Zoo staff also contribute their expertise to programs which advance 
animal care and welfare, identify emerging diseases, and educate 
students and the general public. In addition, the National Zoo is a 
member of the Association of Zoos and Aquariums (AZA) and actively 
supports their conservation initiatives, including the AZA Species 
Survival Plan (SSP) program.
    All of these activities contribute to the same wildlife 
conservation goals which underlie H.R. 3086, the Global Wildlife 
Conservation, Coordination, and Enhancement Act of 2009. In my 
testimony today, I will summarize the National Zoo's programs, working 
closely with many partner agencies, non-governmental organizations, 
academic institutions, and other countries to conserve global wildlife 
resources. Specifically, I will relate these programs to the efforts 
underway to enhance the United States' ability to conserve global 
wildlife and biological diversity.
Overview of the National Zoo's Conservation and Science Programs
    In its 2008 report to the U.S. Fish and Wildlife Service (USFWS) on 
expenditures for Fiscal Year 2008 for species listed as endangered or 
threatened under the Endangered Species Act, the National Zoo 
documented more than $1.1 million expended for 19 native species and 17 
foreign species. These species included, among others, mammals like the 
Asian Elephant, Scimitar-horned Oryx, and Black-footed Ferret; birds 
like the California Condor, Micronesian Kingfisher, and Guam Rail; 
reptiles and amphibians like the Desert Tortoise and Panamanian Golden 
Frog; and marine Elkhorn Corals.
    As an example of one of the stories behind these statistics for one 
of North America's most critically endangered species, from 1985 to 
1987 the last remaining Black-footed Ferrets were removed from the wild 
in Wyoming for their protection. In 1988, the National Zoo's 
Conservation and Research Center (CRC), a 3,200-acre facility in Front 
Royal, Virginia, became the first zoo to receive ferrets, with seven 
individuals transferred from Wyoming's propagation facility. In the 
mid-1980s, the Zoo's reproduction team developed artificial 
insemination and semen cryopreservation techniques to sustain genetic 
diversity in the population. By 2008, the CRC had 33 ferrets in the SSP 
breeding program and had produced 533 young, 398 by natural breeding 
and 135 additional animals by artificial insemination. Two hundred of 
these CRC-produced animals have been released into the wild, part of 
the total wild population now estimated at approximately 1,000 
individuals. In 2009, another 41 young were born, with 39 surviving. 
Two females became pregnant and produced young through artificial 
insemination, including the first successful use of cryopreserved 
semen, which came from one of the original 1988 founder males.
    The programs to conserve these species are undertaken by National 
Zoo's staff based at the Zoo's 163-acre campus adjacent to Rock Creek 
Park, at the Zoo's Conservation and Research Center, and at field sites 
around the globe. Our effectiveness is greatly enhanced through 
partnerships with biodiversity and conservation scientists, social 
scientists, and educators across the Smithsonian. This work is guided 
by the Zoo's ten-year Science Plan, designed to achieve excellence in 
conservation biology. Conservation biology is a relatively young 
science that uses an interdisciplinary approach to address the 
challenges to sustaining biological diversity. By definition, 
conservation biology is value-driven, based on the premise that the 
conservation of species diversity, ecological systems, and evolutionary 
processes are important and benefit both current and future human 
societies. In recognition of the underlying importance of conservation 
biology to everything we do, the National Zoo will soon be combining 
its existing Conservation and Science and Animal Program Directorates 
as the Smithsonian Conservation Biology Institute. We will keep the 
Subcommittee informed about the progress of this change as it proceeds 
over the next few months.
    Under the new Smithsonian Conservation Biology Institute, our 
conservation, science, and animal management programs will be organized 
into six centers:
    <bullet>  the Center for Conservation Education and Sustainability, 
which helps protect global biodiversity by teaching conservation 
principles and practices;
    <bullet>  the Center for Conservation and Evolutionary Genetics, 
which specializes in genetic management of wild and captive 
populations, non-invasive DNA, ancient DNA, systematics, disease 
diagnosis, genetic services to the zoo community, and application of 
genetics to animal behavior and ecology;
    <bullet>  the Center for Species Survival, which conducts research 
in reproductive physiology, endocrinology, cryobiology, embryo biology, 
animal behavior, wildlife toxicology, and assisted reproduction;
    <bullet>  the Conservation Ecology Center, which focuses on 
recovering and sustaining at-risk wildlife species and their supporting 
ecosystems in key terrestrial and marine regions throughout the globe;
    <bullet>  the Smithsonian Migratory Bird Center, which studies 
Neotropical migratory songbirds and wetland birds, the role of disease 
in bird population declines, and the environmental challenges facing 
urban and suburban birds;
    <bullet>  and the Center for Wildlife Health and Wellbeing, which 
studies the environmental, medical, nutritional, and behavioral 
requirements of wild and captive animals.
    In this testimony I will give examples of some of the programs 
undertaken by these centers and summarize how they relate to the 
specific areas outlined by the Subcommittee.
1)  The importance of providing technical assistance, building 
        capacity, and coordinating with range states as part of 
        strategic global wildlife conservation.
    The National Zoo is dedicated to furthering the education of 
current and future conservation professionals, including undergraduate 
and graduate students, scientists, resource managers, educators, 
industry representatives and staff of government and non-government 
organizations. For more than three decades, Smithsonian staff and 
research associates have offered specialized training courses, in the 
United States and at over 20 international locations, on global 
conservation topics. More than 5,000 professional conservationists from 
over 85 countries have taken part in these courses. These training 
courses are principally organized and conducted by the Zoo's Center for 
Conservation Education and Sustainability, although Zoo staff from 
other centers also provide assistance in their particular areas of 
expertise.
    Many of the participants from the Zoo's training programs now hold 
influential positions at government agencies, universities, and non-
governmental organizations in their home countries. These conservation 
leaders have credited the Zoo's capacity building efforts with 
contributing to many conservation accomplishments. These include, among 
others, the establishment of protected areas, development of public 
awareness and education campaigns, creation of organizational strategic 
plans, implementation of biodiversity monitoring plans, establishment 
of partnerships between the public and private sectors, acquisition of 
new technology, and completion of conservation research projects.
    The need for training and capacity building continues to increase, 
as the world faces an unprecedented loss of biodiversity and multiple 
conservation challenges. Expanding human populations have led to 
fragmentation of habitats and greater levels of human-wildlife 
conflicts. The demand for any source of income in poorer communities, 
and for luxury goods in wealthier ones, has led to increased poaching 
of live animals, skins, feathers, teeth, claws, and bones. Subsistence 
hunting and growing networks of commercial poaching for meat have swept 
through Africa and now threaten both predator and prey species in Asia. 
The spread of invasive species has resulted in widespread habitat 
deterioration, and climate change poses an ever-growing threat to 
entire landscapes and ecosystems.
Global Tiger Initiative and the Tiger Conservation and Development 
        Network
    No species has been more affected by these trends than the Tiger, 
which has plummeted in the past century in its 13 Asian range countries 
from over 100,000 animals in the wild to less than 3,500 today, with 
the number still declining precipitously. The National Zoo has been 
involved with tiger conservation since the start of the Smithsonian-
Nepal Tiger Ecology Project in 1973, and has chaired the Save the Tiger 
Fund Council since its inception in 1995, led by its Conservation 
Ecology Center. The Save the Tiger Fund is a partnership between the 
National Fish and Wildlife Foundation and the ExxonMobil Corporation 
which has guided the investment of about $1 million a year in 
conservation projects across Asia. In so doing, it has helped to create 
synergistic efforts among a variety of conservation organizations 
working to save Tigers in Asia. These projects have been undertaken in 
close coordination with the USFWS Rhinoceros and Tiger Conservation 
Fund, the World Bank, and a number of non-governmental organizations 
and academic institutions involved with Tiger conservation in range 
countries.
    Building on this long history of Tiger conservation, in order to 
address the new crisis, in June, 2008, the Smithsonian joined with the 
World Bank Group, the Global Environmental Facility, the International 
Tiger Coalition, and a number of other partner organizations to launch 
the Global Tiger Initiative (GTI). The GTI has initiated a series of 
Tiger conservation actions designed to culminate in a ``Year of the 
Tiger Summit'' in Asia in 2010.
    Furthermore, emphasizing the key role of capacity building as part 
of the GTI, in June, 2009, the Smithsonian and the World Bank announced 
the formation of a Tiger Conservation and Development Network. The 
Network will train senior conservation leaders and policy-makers as 
well as field rangers, foresters, and other habitat managers in the 
latest cutting-edge practices in biodiversity management, with a 
specific focus on preserving and increasing wild Tiger populations. The 
National Zoo's Conservation and Research Center will serve as one of 
the initial launch-pads for the development of the Network. Over the 
next year, the World Bank will dedicate more than $1 million toward 
these training efforts, and the Smithsonian and World Bank will work to 
expand the alliance to include other members and raise additional 
financing.
Smithsonian-Mason Partnership
    In addition, the National Zoo and George Mason University have also 
recognized the need for new partnerships to invest in the next 
generation of conservationists, wildlife practitioners, decision 
makers, and educators. The Zoo and George Mason have joined forces to 
develop a comprehensive academic program for undergraduates, graduates, 
and conservationists, also based at the Zoo's Conservation and Research 
Center. Multidisciplinary faculty from the Zoo and George Mason have 
launched the Smithsonian-Mason Conservation Education Program that will 
provide academic opportunities for up to 50 undergraduate and 10 
graduate students per semester, and accommodate an additional 60 
participants in the professional training and certificate programs. By 
leveraging the Smithsonian's internationally recognized researchers and 
collections with George Mason's ability to produce entrepreneurial 
education programs, we will together be able to produce conservation 
practitioners who can effectively address the very serious questions of 
the loss of global biodiversity facing our nation and our world.
    Until the new facility is constructed, the Zoo and George Mason 
will continue with pilot Smithsonian-Mason Semesters for 15 
undergraduates at a time, using the existing CRC Training Center. These 
students pursue an innovative conservation studies curriculum that 
emphasizes experiential learning and combines biology, environmental 
monitoring, public policy, human-wildlife conflict resolution, and 
environmental economics. The most recent pilot program was completed 
successfully in May of this year, with students now going on to 
conservation internships, preparations for graduate school, or 
permanent positions in the conservation field.
2)  The feasibility and implications of increased coordination between 
        Federal, State, and non-governmental organizations and entities 
        involved in wildlife conservation.
    It is clear to us in the National Zoo that we will never have 
enough resources to accomplish all of our global biodiversity 
conservation objectives alone, and we believe this applies equally to 
other conservation organizations and agencies. Partnerships, 
cooperation, and coordination of conservation efforts are essential to 
achieving these goals. I would like to highlight two of these 
partnerships--the Conservation Centers for Species Survival and our new 
Amphibian Conservation Project, each of which is led by scientists from 
the Zoo's Center for Species Survival.
Conservation Centers for Species Survival
    The Conservation Centers for Species Survival (C2S2) is a 
consortium formed in 2005 of five conservation organizations which 
together control more than 25,000 acres, which is more than 70% of all 
of the land area managed by U.S. zoological institutions for endangered 
species research and recovery. C2S2 includes the National Zoo's 
Conservation and Research Center in Front Royal, Virginia; Fossil Rim 
Wildlife Center in Glen Rose, Texas; San Diego Zoo's Wild Animal Park 
in Escondido, California; White Oak Conservation Center in Yulee, 
Florida; and The Wilds in Cumberland, Ohio. Over the past four years, 
C2S2 institutions have leveraged their unique resources, including vast 
space for large-scale conservation programs; flexible, innovative, and 
scientifically-focused approaches to conservation; and a well-
established history of working together on a variety of conservation 
projects for globally threatened species. Special emphasis has been 
given to species which have been determined to be a priority for 
cooperative efforts by the USFWS and State wildlife agencies.
    In May of 2009, the National Zoo's CRC hosted the annual meeting of 
the C2S2 group. Attending this meeting were not only representatives of 
the five member institutions, but senior leadership from the 
Association of Zoos and Aquariums; the USFWS Endangered Species, 
International Affairs, and External Affairs programs; the U.S. 
Geological Survey's Patuxent Wildlife Research Center; the National 
Fish and Wildlife Foundation's Bird Conservation Program; and the World 
Wildlife Fund's Asia Program.
    Presentations and discussions during the meeting emphasized 
development of cooperative efforts for a wide variety of endangered 
mammals, birds, and reptiles. Fossil Rim Wildlife Center presented a 
report on its participation, with other C2S2 members, the USFWS and the 
Arizona Game and Fish Department in a meeting earlier this year at the 
Buenos Aries National Wildlife Refuge regarding international efforts 
to save the Masked Bobwhite Quail, a unique desert subspecies shared 
with Mexico. The San Diego Zoo, with active support from other C2S2 
institutions, reported on its progress in taking over management of the 
USFWS Desert Tortoise Conservation Center in Nevada, at the request of 
the USFWS and the Bureau of Land Management. The CRC and the USGS 
Patuxent Wildlife Research Center reported on cooperative efforts, in 
conjunction with other C2S2 institutions, to enhance the scientific 
knowledge base for captive breeding and reintroduction into the wild of 
Whooping Cranes, as part of the International Whooping Crane Recovery 
Program and Whooping Crane Eastern Partnership. Other endangered 
species highlighted during the meeting included, among others, the C2S2 
Cheetah Cooperative Management Program; Saiga and newly discovered 
Saola antelopes from Asia; Sahelo-Saharan antelopes and red-necked 
ostrich from North Africa; rhinos and other hoofed mammals from Africa 
and Asia; North American bats; and Attwater's Prairie Chickens in 
Texas.
Smithsonian's Amphibian Conservation Program
    The world's amphibians are vanishing at an alarming rate. The 
International Union for the Conservation of Nature (IUCN) has judged 
that 42 percent of the world's 6,000 frog species are declining rapidly 
and at least 2,000 species are in danger of extinction. Since 1980, 122 
amphibian species are thought to have gone extinct, compared to just 
five bird species and no mammals over the same period. This is an 
unprecedented rate of species loss and deserves an unprecedented 
conservation response. However, only a few years ago the amphibian 
research community collectively included just a handful of full-time 
conservationists in the world working to mitigate threats. This is 
clearly a dearth of capacity when compared to the thousands of full-
time conservation workers focused on fish, reptiles, birds, and 
mammals.
    The Smithsonian decided that it had a responsibility to help deal 
with this emerging problem, and it now employs two full-time amphibian 
conservationists, working at the National Zoo and the Smithsonian 
Tropical Research Institute in Panama, respectively. However, these two 
fulltime amphibian conservationists could not be expected to succeed 
without partnerships with other institutions. Thus the Zoo and Tropical 
Research Institute developed the Panama Amphibian Rescue and 
Conservation Project, a partnership with Africam Safari Park in Mexico, 
Cheyenne Mountain Zoo in Colorado, the Defenders of Wildlife, Zoo New 
England, and the Houston Zoo, with the goal of building capacity in 
Panama to respond to the global amphibian crisis.
    The project will construct a facility to house captive populations 
of amphibians that are facing extinction due to a devastating, invasive 
amphibian pathogen, the Chytrid fungus (Batrachochytrium 
dendrobatidis), which was first demonstrated to be an agent of frog 
death by scientists from the Zoo in 1999. This fungus has now spread 
through all the mountainous regions of Central America except eastern 
Panama. In addition, we are collaborating with other scientists to 
develop a novel method to control the disease. We hope that this 
research may eventually allow us to reintroduce species which are 
extinct in the wild, such as Panamanian Golden Frogs or Wyoming Toads 
here in the United States, back into native habitats currently affected 
by the disease.
    In addition to this project, Smithsonian scientists are making 
important contributions to amphibian conservation through their work on 
Appalachian salamanders, amphibian conservation breeding programs, 
taxonomy, monitoring, ecotoxicology, disease monitoring and public 
education. The Zoo has recently developed a new amphibian exhibit that 
is focused on educating visitors about declining amphibians and our 
work to mitigate amphibian extinctions.
3)  The ways in which the United States may improve the effectiveness 
        and efficiency of global wildlife conservation.
    There are a host of activities which U.S. institutions can 
undertake to improve the effectiveness and efficiency of global 
wildlife conservation. Two areas which I would like to discuss today 
include the role of U.S. consumers in encouraging bird-friendly, shade-
grown coffee, and the use of new scientific techniques for genetic 
analysis to support wildlife conservation decisions.
Effect of Consumers on the Market for Bird Friendly Coffee
    American consumers and the choices they make can have a profoundly 
positive impact on wildlife habitat throughout the world. One of the 
premier examples of this is the marketing of third-party certified 
shade-grown coffee, which has been pioneered and championed by the 
Smithsonian Institution's Bird Friendly Coffee program. Tropical 
deforestation loss has been one of the leading causes of the global 
loss of biodiversity and the decline in migratory birds. Countries in 
Latin America and the Caribbean, where over 150 species of North 
American birds spend the winter, count on exporting agricultural 
products for foreign exchange, and millions of families depend on this 
income. There are clear limits to the amount of tropical lands that can 
be set aside in parks, so the conservation of biodiversity must also 
take place on privately owned and managed lands.
    Coffee, one of the most important tropical crops, has been 
traditionally grown under a diverse shade canopy, providing many of the 
same ecological services as native forest. However, recent decades have 
brought a push towards modernizing coffee production by removing the 
shade canopy and adding many chemical inputs. These ``sun'' coffee 
farms are an ecological desert, whereas shade coffee farms are a refuge 
for biological diversity and our migratory songbirds.
    Consumer demand for shade-grown coffee can help protect migratory 
birds and tropical biodiversity if coffee is clearly labeled and 
promoted in the marketplace. Since 1998, the Smithsonian Migratory Bird 
Center at the National Zoo has promoted ``Bird Friendly'' coffee, an 
independently (third-party) certified shade grown coffee that is based 
on ecological criteria generated from peer-reviewed scientific research 
in coffee growing regions. All Bird Friendly coffee is certified 
organic and is additionally inspected for a number of ecological 
variables related to the quality of the shade canopy. The coffee is 
certified Bird Friendly by any of 14 USDA-approved organic inspection 
agencies at a marginal cost to coffee producers. Since 2001, our 
Migratory Bird Center has trained dozens of organic inspectors in the 
technical aspects of assessing shade coffee criteria.
    The Smithsonian Bird Friendly Coffee seal is the most rigorous 
scientifically-based environmental certification of a tropical 
agricultural product, with many specialty coffee sector leaders calling 
it the ``gold standard'' in shade certification. The verifying 
paperwork can be traced from coffee plant to cup. Presently, 35 farms 
produce Bird Friendly coffee in 11 countries, which is then channeled 
through 15 importers that supply about 45 to 50 retailers throughout 
the United States, Canada, Japan, and parts of Europe. While the total 
amount of Bird Friendly coffee sold is still a relatively small 
portion of the coffee market, the underlying concept of promoting shade 
grown coffee has had enormous impact on the coffee industry, coffee 
growing countries, and the multi-lateral and bilateral agencies that 
work with farm families throughout the tropics. The ``Coffee'' link at 
the following website provides up-to-date information on the progress 
of the Bird Friendly coffee movement: www.si.edu/smbc.
Role of Conservation Genetics in Species Conservation
    The National Zoo's Center for Conservation and Evolutionary 
Genetics has been at the forefront of research in the rapidly expanding 
field of conservation genetics. Our scientists were the first to 
analyze and document the loss of fitness caused by inbreeding in 
captive zoo animals, and took the lead in developing solutions such as 
software for genetic management. This involved developing methods of 
non-invasive genotyping (from scat, hair or other shed items) to 
identify species and individuals, and to estimate kinship and 
population sizes of animals in natural populations. We pioneered the 
application of ancient DNA protocols to issues of conservation 
importance, as well as to unraveling the evolutionary histories of 
extinct and endangered species. Application of these molecular genetics 
methods has helped us diagnose and study the dynamics of emerging 
pathogens responsible for devastating wildlife diseases.
    Use of these techniques can have profound effects on the 
conservation of many endangered species. For example, analyses of DNA 
from non-invasive samples (that is, dung) from African and Asian 
Elephants can identify individuals and document population sizes, 
movements, relatedness, and sex. In Gabon, we measured movements of 
elephants in response to human activities and stress, and showed that 
males somehow avoided mating with related females in Kenya's Amboseli 
National Park. Similarly, we have used DNA from scat to monitor 
survival, recruitment and inbreeding in African Wild Dogs reintroduced 
to their former range in South Africa. These highly endangered canids 
number fewer than 5,000, living in fragmented remains of their 
originally vast sub-Saharan range, and it is critical to monitor the 
success of reintroduction programs.
    In Hawaii, we have been involved in a long-term study of Hawaiian 
birds threatened by introduced avian malaria. Use of DNA methods has 
identified the origins of the malaria parasite and its invasive 
mosquito vector and ancient DNA has determined when they likely arrived 
in Hawaii. Study of the genetics of the host has helped us learn how 
and why some native bird species have become more tolerant of the 
malaria than others. In the endangered Hawaiian Petrel, the amount of 
genetic variation that has been lost has been determined by comparing 
current levels of variation to variation in ancient DNA sequences 
obtained from subfossil bones. We are estimating the prehistoric 
(before human impacts) Petrel population size for use in models that 
predict changes in marine nutrients deposited by the Petrels in the 
nutrient poor ecosystems of Hawaii.
    DNA fingerprinting methods have enabled us to assess the efficacy 
of translocation procedures for threatened Desert Tortoises in the 
Mojave Desert, enabling us to assess the recruitment of both male and 
female translocated tortoises into their new population. DNA analysis 
of blood parasites found in Pandas and related carnivores in North 
American zoos has allowed us to determine their taxonomy and origins, 
and to develop methods to accurately quantify the level of parasitism. 
Obtaining DNA sequences (barcodes) from museum specimens of Ivory-
billed Woodpeckers from North America and Cuba has shown that the Cuban 
birds are very distinct from the North American birds. They may be a 
distinct species, and also provided sequences useful for comparison to 
items found by field biologists that may provide evidence of the 
existence of this ``ghost bird''.
4)  Conclusion--The Global Wildlife Conservation, Coordination, and 
        Enhancement Act of 2009.
    In summary, the Smithsonian Institution and the National Zoo 
support the overall conservation goals of the Global Wildlife 
Conservation, Coordination, and Enhancement Act of 2009. We believe 
that the kinds of activities being undertaken by the Smithsonian's 
National Zoo and its many partners that I have documented in this 
testimony are fully compatible with these goals. In addition, we are 
prepared to work cooperatively with the Subcommittee in any way that 
would be helpful to advancing these common objectives. The National Zoo 
will continue to enhance our ongoing partnerships with the USFWS, other 
Federal and State agencies, the Association of Zoos and Aquariums, our 
partners in the Conservation Centers for Species Survival as well as 
many other AZA member institutions, non-governmental organizations, and 
range countries in support of the conservation of global biodiversity.
    Thank you for the opportunity to testify today on these critical 
conservation issues. I look forward to answering any questions you may 
have.
                                 ______
                                 

    Response to questions submitted for the record by Dr. Steven L. 
     Monfort, Acting Director, Smithsonian National Zoological Park

Questions from Chairwoman Madeleine Z. Bordallo (D-GU)
1.  You mention in your written testimony that the need for increased 
        conservation capacity building is growing globally. How do you 
        recommend that the United States respond to this growing need? 
        What consequences might occur as a result of inaction? Would 
        United States capacity building efforts abroad be self-limited 
        in scope and success if we were only to utilize the programs 
        and people inside Federal agencies and not incorporate the 
        expertise and capabilities of non-Federal partners?
    Answer: Today the world is facing an unprecedented loss of 
biological diversity and multiple conservation challenges, from human 
population growth to climate change. Inaction will almost assuredly 
result in a great wave of extinctions of species. We could lose not 
only our wild populations of charismatic species like the tiger and the 
Asian elephant, but also a wide range of other mammals, birds, 
reptiles, amphibians, fishes, invertebrates, and plants. The loss of 
these species would deprive us and our descendents of their ecological, 
scientific, and esthetic values. Entire ecosystems would be 
destabilized and would change drastically in ways that we cannot 
predict, let alone mitigate or adapt to, with severe consequences to 
our own wellbeing.
    To address the growing need for conservation capacity building 
contributions from non-Federal partners and international partners is 
necessary. For many years, the Smithsonian's National Zoo has played an 
active role in the advancement of scientific solutions to conservation 
capacity building problems, working closely with the U.S. Fish and 
Wildlife Service and also bringing a number of partners into the 
effort. For example, for the past decade the Zoo has chaired the Save 
the Tiger Fund Council, leading a group of experts from zoos, 
nongovernmental organizations, universities, and tiger range countries 
to make decisions about a fund of approximately $1 million per year 
provided by the Exxon Mobil Corporation and administered by the 
National Fish and Wildlife Foundation. Capacity-building in tiger range 
countries is one of the goals of the Council and of the USFWS Rhino and 
Tiger Conservation Fund (one of the Multi-National Species Funds 
described above). In order to ensure that funding decisions were 
closely coordinated between these two funds, the Zoo invited the USFWS 
to participate in the Council from its inception. This partnership 
between the two tiger programs is still alive and well today.
    The Zoo's July 28 testimony provides a number of other examples of 
capacity-building efforts by the Zoo and its conservation partners, 
which now include George Mason University, the World Bank, a number of 
zoos which are members of the Association of Zoos and Aquariums, and 
many other organizations. All of these efforts are designed to 
compliment existing work of the USFWS and other government agencies, or 
to fill in gaps where government agencies are unable to work at all. 
These examples still represent only a small portion of the Zoo's 
overall programs and partnerships, and the Zoo's efforts in turn are 
only a small fraction of the total effort contributed by a host of 
other organizations to building capacity for the conservation of 
biological diversity.
2.  What is the significance of conservation biology to your work?
    Answer: The key role of conservation biology to the National Zoo's 
work is reflected throughout the Zoo's science plan, ``Conservation 
Biology at the National Zoo--A Science Plan for 2006--2016''. This plan 
is built on the importance of research and discovery, development of 
science-based solutions, creation of zoo linkages, training the current 
and the next generation, and educating and inspiring the public. The 
Zoo believes that these goals provide a sound framework for a 
comprehensive program to address the survival and recovery of species 
and their habitats, and to ensure the health and well-being of animals 
in captivity and in the wild.
    Conservation biology is a relatively young science that uses 
interdisciplinary approaches to address the challenges to maintaining 
biological diversity. By definition, conservation biology is value-
driven, based on the premise that the conservation of species 
diversity, ecological systems, and evolutionary processes are important 
and benefit both current and future human societies. And, by its very 
nature, conservation biology must be adaptable because in our changing 
world, threats to biodiversity will continue in new and uncharted ways, 
as noted in the response to question 1 above.
    National Zoo scientists were among the founders of the field of 
conservation biology, and they continue as leaders today, with global 
perspectives, diverse expertise, and long-term experience in conducting 
inter-disciplinary zoo- and field-based research. For all of these 
reasons, the Zoo is establishing the Smithsonian Conservation Biology 
Institute (SCBI), incorporating its five existing science centers plus 
a sixth center encompassing the Zoo's animal care staff. SCBI staff, 
located at the National Zoo's main campus in Washington, D.C., at the 
Zoo's Conservation and Research Center in Front Royal, Virginia, and at 
field sites around the world, will continue to work to achieve our 
goals for excellence in the study, management, protection, and 
restoration of threatened species, ecological communities, and 
ecosystems.
3.  What is the importance of the public outreach and the fellowship 
        programs to your work? How does the fellowship program 
        initiated with George Mason University compare with the 
        fellowship program authorized in section 122(c)?
    Answer: The importance of public outreach to the Zoo is captured in 
one of the goals of the Science Plan for 2006-2016, which is to 
``Educate and Inspire the Public'' by providing a scientific basis for 
public education and outreach in conservation. This involves being a 
national provider of objective, science-based information and education 
materials to the conservation community, policymakers, Federal 
agencies, zoos, universities, K-12 schools, the media, and the public. 
Another component is to develop exhibits and education programs which 
lead to inspiring and dynamic science-based zoo experiences that foster 
caring and greater public awareness of animals, their habitats, and the 
need for conservation action.
    Fellowships are a key part of another goal in the Science Plan, to 
``Train the Current and Next Generation.'' Fellowship opportunities 
impact not only the careers of the individual fellows but also the 
Smithsonian and all of its broad disciplines of research. The fellows 
benefit from this support, often used for thesis or dissertation 
research, which in turn impacts the academic and research communities 
as they become future researchers, professors, and museum professionals 
of tomorrow. Fellows contribute enormously to the quantity and quality 
of Smithsonian research, stimulating the Institution's research 
community by bringing new ideas from their disciplines, contributing to 
exhibitions, and conducting research in specialized areas that enrich 
and enhance information about the national collections. Conducting 
basic scientific research and exploring history and culture increases 
the Smithsonian's ability to carry out its mission. Their research 
contributes to the understanding of the critical issues of global 
change, bio-diversity and cultural diversity. For example, National Zoo 
fellowships have made substantial contributions to the conservation of 
tigers and other critically endangered species in their home countries.
    The fellowship program with George Mason is part of the overall 
Smithsonian-Mason Global Conservation Studies Program jointly 
administered through the National Zoo's Center for Conservation 
Education and Sustainability and the Mason Center for Conservation 
Studies. A new Memorandum of Understanding will provide for support of 
eight graduate students (two per year) in a four-year program 
culminating in a Ph.D. in Environmental Science and Policy. The support 
takes several forms including stipends for teaching (based at George 
Mason) and research (based at the Zoo's Conservation and Research 
Center) and tuition remission. This is a renewal of a program which 
over the past eight years has produced an average of one to two Ph.D.'s 
per year.
    In contrast, the fellowship program proposed in H.R. 3086 would not 
be geared to providing support for Ph.D. candidates throughout their 
study program. Instead, it would give fellowships of not more than one 
year (with the possibility of renewal) for U.S. and foreign students to 
participate in the policy process, provide expertise to the Federal 
Government, obtain international wildlife conservation experience, and 
encourage capacity building and partnerships in other nations.
4.  The administration has expressed concerns about the authorization 
        of a Center for International Wildlife Recovery Partnerships. 
        However, the program activities of this Center (i.e., wildlife 
        research; wildlife conservation and reintroduction; 
        international coordination, public education and training) 
        track well with the activities of the Smithsonian Institution's 
        Conservation Biology Institute, which was formed in a re-
        organization of the Smithsonian's Science and Conservation and 
        Animal Program Directorates. Would the administration and the 
        Smithsonian support amending the bill to formally incorporate 
        the Smithsonian's capabilities via a partnership agreement with 
        the Department of the Interior to function as the bridge to 
        enable greater cooperation between the Department of the 
        Interior and non-Federal NGO stakeholders?
    Answer: The National Zoo has had a number of longstanding 
partnerships with the Department of the Interior, in particular with 
the U.S. Fish and Wildlife Service, as well as with the National Park 
Service and the U.S. Geological Survey. These relationships have 
enabled the Zoo to assist with the recovery of species listed by the 
USFWS as Endangered or Threatened under the Endangered Species Act. 
This includes species in the United States which are the subjects of 
endangered species recovery plans, as well as species in Africa, Asia, 
and Latin America which are covered by the USFWS-administered 
Multinational Species Conservation Funds (African and Asian elephants, 
rhinos, tigers, great apes, and sea turtles) and the Wildlife Without 
Borders program.
    In addition to the Zoo's individual efforts to work with the USFWS 
and other Interior agencies, as noted in the Zoo's July 28 testimony, 
in 2005 the Zoo's 3,200-acre Conservation and Research Center led an 
effort to form a consortium, the Conservation Centers for Species 
Survival (C2S2). This consortium includes four partner institutions 
which also manage large areas of land for endangered species research 
and conservation. C2S2 institutions are now working with the USFWS and 
other government agencies, including the U.S. Geological Survey, Bureau 
of Land Management, and State fish and wildlife agencies, for the 
survival and recovery of species listed under the Endangered Species 
Act.
    Similarly, the Zoo is the lead institution within the Smithsonian 
for the partnership with the World Bank and a number of other 
organizations in the Global Tiger Initiative. As part of this 
Initiative, the Zoo and the Bank are now developing the Tiger 
Conservation and Development Network, designed to strengthen the 
capacity of Asian countries to protect and recover their tiger 
populations. This is being done in consultation with the USFWS, to 
ensure that it contributes to the tiger conservation goals laid out in 
the USFWS-administered Rhinoceros and Tiger Conservation Act, as well 
as with the National Park Service and a number of other organizations 
are also advising the Zoo in this program.
    The Asian elephant, another critically endangered species sharing 
many habitats in Asia with the tiger, is also the subject of a new 
partnership effort led by the Zoo. The Zoo is organizing a new 
strategic planning effort with other U.S. zoos interested in elephants, 
the Association of Zoos and Aquariums, Asian range countries, the 
International Union for the Conservation of Nature's Asian elephant 
specialist group, key non-governmental organizations, and the USFWS. 
The result will be a set of prioritized actions which are fully 
coordinated with the goals of the USFWS and the Asian Elephant 
Conservation Act.
    Thus the Zoo is not only an active participant in endangered 
species conservation efforts, but also is serving as a catalyst to 
encourage additional contributions from a wide range of partners. The 
Zoo would like to consider ways in which these contributions could be 
expanded in the future, in consultation with the Department of the 
Interior and the Subcommittee.
5.  Should the Smithsonian Institution be included as a participating 
        agency on the Global Wildlife Conservation Coordination Council 
        authorized in Title II? Would this Council be a positive 
        improvement, in general?
    Answer: The Smithsonian Institution supports the overall goals of 
H.R. 3086. The position of the Administration on the specific 
provisions of the legislation which would create the Global Wildlife 
Conservation Council was presented in the July 28 testimony of the U.S. 
Fish and Wildlife Service.
Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
1.  H.R. 3086 would create a Center for International Wildlife Recovery 
        Partnerships which would be charged with developing and 
        implementing an international research program with a focus on 
        captive animal care and propagation. What is your view of this 
        provision? Do you have any concerns with this language being 
        included in the bill?
    Answer: H.R. 3086 would establish the Center for International 
Wildlife Recovery Partnerships as part of the Institute for 
International Wildlife Conservation. The concerns of the Administration 
on the establishment of the entire Institute was given during the July 
28, 2009 hearing in the testimony of the U.S. Fish and Wildlife 
Service.
2.  Do you think the legislation is necessary? Could additional 
        authorities be given to existing agencies to fulfill the same 
        goals?
    Answer: There is support for the provisions of the legislation that 
codify the Wildlife Without Borders program. The U.S. Fish and Wildlife 
Service will need to comment about what other authorities it might be 
given to achieve the same goals.
3.  What agency and laws currently govern the care of captive animals 
        in the U.S.? Have these laws been successful in governing the 
        care of captive animals?
    Answer: The Animal Welfare Act, administered by the Department of 
Agriculture, regulates the care of warm blooded animals in captivity 
for exhibition purposes. The U.S. Fish and Wildlife Service and the 
National Marine Fisheries Service regulate the import, export, and 
interstate commerce of many species in captivity under the Endangered 
Species Act (which also implements the Convention on International 
Trade in Endangered Species) and the Marine Mammal Protection Act. The 
USFWS also regulates the movements of injurious wildlife under the 
Lacey Act. Some provisions of the latter three laws require the 
agencies to evaluate the conditions of transport and housing prior to 
authorizing import, export, or interstate movements. The implementing 
agencies are in the best position to comment on the overall success of 
these laws in the regulation of the care of captive animals.
    The National Zoo works closely with each of the implementing 
agencies to ensure that all of its activities comply with applicable 
provisions of each of these laws.
    In addition, the Association of Zoos and Aquariums (AZA) sets 
standards for animal management and care, and evaluates each member 
institution regularly as a condition for maintaining its accreditation. 
The Zoo works closely with AZA to ensure that its facilities meet or 
exceed the accreditation standards.
4.  Do you think H.R. 3086 will change the laws governing the way U.S. 
        facilities care for their captive animals or is the focus only 
        on effecting change in international facilities?
    Answer: Provisions of H.R. 3086 which pertain to captive animals 
are found in Section 123, which establishes the Center for 
International Wildlife Recovery as part of the larger Institute for 
International Wildlife Conservation. The U.S. Fish and Wildlife Service 
would be responsible for determining the priorities and operating 
procedures for the Center, which would be charged with conducting a 
number of activities to further the conservation of species covered by 
the Endangered Species Act, the Convention on International Trade in 
Endangered Species, and/or the Red List of the International Union for 
the Conservation of Nature. The National Zoo does not believe the 
intent of the legislation is to change the overall regulatory framework 
for the conditions under which animals are held in captivity, which is 
regulated by the laws and agencies noted in the answer to question 3 
above. Instead, the legislation calls for activities to mobilize 
partners to complement conservation activities undertaken by U.S. 
government agencies outside the United States; enhance coordination and 
cooperation between government agencies and non-governmental 
stakeholders; facilitate long-term investments in captive breeding, 
reintroduction, rehabilitation, release, habitat protection, and 
research; enlist accredited zoos and aquariums and other governmental 
and non-governmental partners to assist with research and public 
education; and assess opportunities for restoration of transboundary 
species.
5.  H.R. 3086 would require the Center to provide animal care, 
        technical and zoological assistance to identify endangered 
        species that are candidates for rehabilitation and 
        reintroduction in the wild and utilize its expertise and 
        facilities to rehabilitate endangered species and reintroduce 
        those species to the wild. Is it normal for an agency to have 
        its own facilities to rehabilitate or care for animals? If not, 
        do agencies usually use zoo facilities to conduct these 
        activities? How have these relationships worked? Are the 
        facilities ever forced into actions that they would not 
        necessarily take on their own?
    Answer: The U.S. Fish and Wildlife Service and the National Marine 
Fisheries Service will need to provide information about the overall 
policies and programs for the rehabilitation and reintroduction of 
endangered species back into the wild.
    Since 1988, the National Zoo's Conservation and Research Center has 
been involved in developing and using the best scientific techniques in 
the captive propagation of endangered Black-Footed Ferrets for ultimate 
release back into the wild. These activities are done in close 
cooperation with the USFWS National Ferret Black-Footed Ferret 
Conservation Center in Wyoming, which manages the overall 
reintroduction program. This activity was undertaken voluntarily by the 
National Zoo as part of its goal to advance scientific excellence in 
conserving wildlife.
6.  You were asked at the hearing about the number of zoos working with 
        the Service to care for seized animals. Can you provide the 
        Committee with the number of facilities hosting seized animals? 
        Do the facilities cover the costs of animal care or does the 
        agency reimburse the facility? Can the facilities recoup some 
        of the costs through displaying the animals?
    Answer: The National Zoo does not have information about the total 
number of facilities working with the U.S. Fish and Wildlife Service to 
care for seized animals, or the arrangements for covering costs.
    The Zoo's collection includes the following reptiles which were 
seized by the USFWS:
    <bullet>  six Radiated Tortoises (Geochelone radiate) received in 
1999 from California;
    <bullet>  three Grand Cayman Iguanas (Cyclura nubile lewisi) 
received in 1998 from Florida (one of which was transferred to Columbus 
Zoo in Ohio in 2006 and another transferred to Gladys Porter Zoo in 
Texas in 2000);
    <bullet>  two Yellow-spotted Amazon River Turtles (Podocnemis 
unifilis) received in 1997;
    <bullet>  four Gila Monsters (Heloderma suspectum) received in 1996 
(one of which died in 1997 and another in 2002);
    <bullet>  two more Gila Monsters (Heloderma suspectum) received in 
1981 (one of which died in 1998);
    <bullet>  five Green Tree Pythons (Chondropython viridis) received 
in 1996 (two of which were transferred to University of Virginia in 
1998; one died April 2005 and one died November 2006).
    The Zoo's records do not indicate who paid for the costs of 
shipping these animals to the Zoo, but all subsequent expenses have 
been the responsibility of the National Zoo or other zoos involved in 
subsequent transfers. Animals usually arrive as loans from USFWS due to 
chain of custody and pending trial issues. Once the legal issues are 
resolved USFWS is usually willing to donate the animals. In general, 
accredited zoos and aquariums close to ports of entry or other places 
where animals are seized are usually the first stop for temporary 
holding of confiscated animals.
    The National Zoo does not charge admission and thus it does not 
have a means to directly recoup its costs. In any case, the reptiles 
which have been placed with the National Zoo, like many other animals 
which are seized by the USFWS, are not the kind of animals which would 
be likely to generate increases in zoo visitation, with or without 
admission fees.
7.  Education of American consumers would seem to be something that 
        could be done without a new law. Do the existing multi-species 
        funds or wildlife grant programs authorize funds for education 
        efforts?
    Answer: The U.S. Fish and Wildlife Service, which implements the 
Multi-national Species Fund and establishes the policies for grant 
eligibility, will need to provide the answer to this question.
    The National Zoo has as one of the goals of the Science Plan for 
2006-2016, to ``Educate and Inspire the Public'' by providing a 
scientific basis for public education and outreach in conservation. 
This involves being a national provider of objective, science-based 
information and education materials to the conservation community, 
policymakers, Federal agencies, zoos, universities, K-12 schools, the 
media, and the public. Another component is to develop exhibits and 
education programs which lead to inspiring and dynamic science-based 
zoo experiences that foster caring and greater public awareness of 
animals, their habitats, and the need for conservation action. These 
activities are not funded by any grants from the USFWS.
8.  What could be done to further your existing conservation efforts? 
        Is lack of adequate funding the key issue?
    Answer: As noted in the National Zoo's testimony presented at the 
July 28 hearing, the world today faces an unprecedented loss of 
biodiversity and multiple conservation challenges. The Zoo will never 
have enough resources to accomplish all of our global biodiversity 
conservation objectives alone, and we believe this applies equally to 
other conservation organizations and agencies. Given these growing 
challenges and the limited available resources within any one 
organization, partnerships and cooperation are critical to effective 
action. That is why the Smithsonian Institution has joined with the 
World Bank to form the Global Tiger Initiative, and with George Mason 
University to form the Smithsonian-Mason Conservation Education 
Program. It is also the guiding principle behind the National Zoo's 
initiative to leverage the resources of its 3,200-acre Conservation and 
Research Center with the four of its partner institutions in the 
Association of Zoos and Aquariums having the largest land areas to form 
the Conservation Centers for Species Survival, and to join forces with 
the Smithsonian Tropical Research Institute and five zoos and 
conservation organizations to form the Panama Amphibian Rescue and 
Conservation Project.
    These are some of examples of the many partnership efforts of the 
National Zoo to join forces with other organizations to achieve greater 
results than any single organization could accomplish alone. However, 
all of these efforts are still limited by the joint resources available 
among the respective partners. These cooperative efforts could achieve 
even greater results if they were conducted in concert with new 
policies and programs by government agencies and donor organizations 
which give incentives to accredited zoos and aquariums, universities, 
and non-governmental organizations to undertake such cooperative 
efforts.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Monfort, for 
highlighting the important role that zoos play in international 
wildlife conservation and for supporting the conservation goals 
in this piece of legislation.
    Dr. Wasser, welcome to the Subcommittee. You are recognized 
now to testify for five minutes.

   STATEMENT OF SAM WASSER, PH.D., DIRECTOR, THE CENTER FOR 
         CONSERVATION BIOLOGY, UNIVERSITY OF WASHINGTON

    Dr. Wasser. Thank you, Madam Chairwoman. I appreciate the 
invitation to appear here today and appreciate the entire 
Subcommittee's time afforded me.
    Developing nations hold some of our greatest biodiversity 
treasures, but they really need reliable information on the 
sources and magnitude of the risks facing them to be able to 
effectively manage these resources. I commend H.R. 3086 for 
acknowledging and attempting to meet those needs.
    My center pioneered measures to acquire DNA and a host of 
physiological indices eliminated from the body in feces. We use 
feces because it is the most accessible wildlife product in 
nature, and its collection is entirely noninvasive. We work 
closely with wildlife authorities and NGO's in the application 
of these tools to wildlife conservation on a global scale. I 
will describe two applications of this, starting with the 
illegal wildlife trade.
    The impacts of the burgeoning illegal wildlife trade are 
beginning to rival those of habitat loss. Ivory trade 
epitomizes this. Poaching-related elephant mortality now 
exceeds 10 percent of the population annually. Demand from 
high-paying industrialized nations, such as China, U.S., and 
Japan, are driving this trade. They caused the price of ivory 
to increase ninefold in the past five years, and this has 
become a very high-profit, low-risk enterprise that now is 
largely driven by organized crime.
    We collaborate with Interpol, the U.S. Fish and Wildlife 
Service, and African and Asian authorities using DNA to 
determine the origin of large ivory seizures that bear the 
signature of organized crime. We also determine their modus 
operandi.
    DNA from feces is used to map the elephant genetics across 
the entire continent of Africa. We then match the same DNA from 
ivory to this map, and that allows us to determine the major 
poaching hot spots in Africa.
    Prior to our work, law enforcement thought that the large 
ivory seizures consist of people assembling ivory from stocks 
across Africa, a kind of cherry picking, and what we found, 
though, is that poachers are repeatedly hammering the same 
populations over and over again as though they got a purchase 
order from dealers to get a certain number of tusks at a 
certain period of time.
    We also found that these poachers and dealers tend to 
smuggle ivory to neighboring countries before they export it. 
It is a risk-reduction strategy so that poachers are unable to 
finger the dealer, should they get caught. Traditional 
investigatory measures really would be unable to detect those 
kinds of trends.
    Like H.R. 3086, we contend that source countries are really 
the best place to contain this illegal trade. We help them to 
do this by identifying the poaching hot spots, focusing the 
limited enforcement resources of these poor countries on key 
poaching areas. This prevents illegal wildlife trade products 
from entering the international market where the massive volume 
of containers shipped daily make this trade logistically and 
economically nearly impossible to trace once it enters the 
global market.
    This strategy of focusing on the source countries is also 
one of the only ways to keep wildlife from being killed in the 
first place. We have exposed with our work some of the largest 
source countries in this illegal trade, and we have found them 
openly denying their involvement. These methods can also be 
applied to other wildlife trade, such as illegal timber and the 
tiger trade, and it is important to recognize that this 
industry is currently between five and $20 billion annually, 
and this has a tremendous impact to our biodiversity.
    Now, the second application of this that I want to speak to 
is monitoring human disturbance impacts over large landscapes. 
While we pioneered measures to get DNA and physiological 
products from feces, we also went further to develop effective 
methods of finding them. We actually train detection dogs, 
essentially analogous to narcotics dogs, to simultaneously 
locate large numbers of samples from multiple target species 
across huge parts of the wilderness. Dogs work in habitats from 
deserts to savannah, rain forests, open sea areas, and species 
as diverse as pocket mice, spotted owls, jaguar, caribou, 
wolves, tigers, and anteaters.
    The comprehensive sampling by these dogs has enabled us to 
develop DNA-based methods that simultaneously estimate the 
population sizes and distributions of multiple species over 
large, remote landscapes with a high degree of precision. We 
get stress hormones, reproductive hormones, nutritional 
hormones, toxins, immunoglobulins, all of which enable us to 
develop an entire health panel of the animal that allows us to 
partition the impacts of these pressures occurring in response 
to environmental pressures.
    These combined tools allow us to assess change in animal 
abundance and distribution along with the causes of those 
changes over huge landscapes, and these are invaluable tools 
for guiding managers about what and how to mitigate.
    In sum, developing nations hold some of the most important 
resources in biodiversity around the world, and if we do not 
act now to develop methods that help guide their practices, 
then we will be in trouble. Thank you.
    [The prepared statement of Dr. Wasser follows:]

        Statement of Samuel K. Wasser, Director, The Center for 
             Conservation Biology, University of Washington

    Madam Chairman and members of the Committee, thank you for 
providing me with the opportunity to address the important subject of 
the Global Wildlife Conservation, Coordination and Enhancement Act of 
2009.
    My name is Samuel K Wasser. I am the Director of the Center for 
Conservation Biology and hold an endowed chair in Conservation Biology 
in the Department of Biology at the University of Washington.
    I have a Ph.D. in animal behavior and have conducted national and 
international wildlife research for more than 30 years.
    The Global Wildlife Conservation, Coordination and Enhancement Act 
of 2009, hereafter termed the ACT, calls for capacity building to 
improve management in biodiverse countries, partnerships between 
government and non-government entities, outreach and more.
    My testimony addresses issues of direct relevance to the ACT: The 
need for reliable information on the sources and impacts of human 
disturbances to insure effective decision making by wildlife 
authorities in the U.S. and abroad. Filling that void requires 
identifying the location, form and magnitude of the disturbances facing 
wildlife. These, in turn, require reliable estimates of population 
sizes of multiple species, how species use their environment, how 
disturbance impacts that use, and the associated impacts of disturbance 
on morbidity and mortality.
    My Center has pioneered the development of a number of genetic and 
physiological tools to cost-effectively assess the sources and extent 
of human disturbances on wildlife at a global scale. We are applying 
them to problems ranging from identifying poaching hot spots to 
determining impacts of oil exploration, toxin exposure, loss of prey 
and ecotourism on wildlife over very large landscapes. We apply these 
methods to species as diverse as African elephants, pocket mice, 
Northern Spotted owls, jaguar and whales. The methods we pioneered are 
now being used by scientists around the world and includes 
collaborations with the U.S. Fish and Wildlife Service, the U.S. Forest 
Service, the U.S. Geological Service and the Bureau of Land Management, 
wildlife authorities in Cameroon, Kenya, Zambia, Uganda, Malawi, Hong 
Kong and Taiwan, and inter-governmental organizations including the 
Interpol Working Group on Wildlife Crime and the Africa-based Lusaka 
Agreement Task Force. We also have collaborations with several non-
government organizations as well as members of industry. This work 
touches on many of the priority issues in the ACT and is thus, by 
example, a strong endorsement of what the ACT proposes.
The Problem:
    As populations, economies, and demands for more resources grow, so 
do the footprints of humans and the number of disturbances that occur 
concurrently. Addressing these problems requires tools that can 
localize and distinguish between co-occurring disturbances over large 
geographic scales in order to maximize effectiveness of mitigation 
efforts.
    The problem is particularly acute in developing nations. These 
countries often possess the greatest biodiversity; yet, they lack funds 
to manage them, let alone to thoroughly investigate the causes of the 
problems that need to be addressed. Poaching, roads, logging, opening 
habitat for oil exploration, land conversion for agriculture, 
unrestrained tourism, unregulated use of herbicides and pesticides, 
excessive hunting quotas, and use of fire to clear farm or ranch land 
are just a handful of the pressures countries are inflicting on their 
wildlife.
    The Global Wildlife Conservation, Coordination and Enhancement Act 
of 2009 aims to help developing countries meet their conservation needs 
through capacity building and collaborations between government and 
non-government entities. These efforts are extremely timely; a better 
understanding of the system makes mitigation more efficient thereby 
reducing costs to already financially strained budgets.
    The problem is compounded by demands for wildlife products, from 
ornaments, to traditional medicines, timber and fuels placed on these 
biodiverse countries by industrialized economies. Developing countries 
with high biodiversity are often enticed to meet these demands, since 
sale of their natural resources can be a relatively easy source of hard 
currency. Much of these sales are unregulated if not illegal; in many 
such cases, government officials, but not the governments themselves, 
are the ones that profit. The country and the environment are the big 
losers in these instances. Politically unstable countries are 
especially likely to fall victim since hard currency is vital to the 
purchase of weapons and ammunition necessary for these regimes to stay 
in power.
    As the ACT acknowledges, reliable information and effective 
education are among the greatest defenses of these practices. If we 
know where wildlife are being exploited, as well as the magnitude and 
forms of human impacts, we are in a better position to make the right 
management and enforcement decisions, as well as to inform the public 
about what is transpiring. The latter is important because it is among 
the most expeditious means of encouraging change.
    Some of the most valuable tools for providing critical information 
to managers are coming from advancements in genomics, bioinfomatics and 
medicine. DNA analysis has had major impacts on law enforcement, 
helping to convict the guilty, free the innocent, identify the victim 
or find their places of origin. Medical diagnostics have similarly 
grown, allowing physicians to acquire a comprehensive health profile of 
a patient from a single blood sample. We have developed similar tools 
to acquire such information from wildlife, cost-effectively, without 
adding more disturbances to wildlife in the process.
Our Approach:
    My center has pioneered methods to acquire DNA, stress, nutrition 
and reproductive hormones from feces. We are also perfecting methods to 
acquire toxins and immunoglobulins from feces. Obtaining this 
information from feces has several advantages. Feces contain an 
enormous amount of physiological information since it is a principle 
route for elimination of DNA, hormones and other physiological products 
from the body. Feces is also the most accessible wildlife product in 
nature and can be acquired without disturbing wildlife in any way. The 
only remaining challenge is finding it.
    To address this, my center pioneered methods to train detection 
dogs to find scat/feces, performing much like narcotics detection dogs 
locating drugs. Our dogs are able to locate scat with high reliability 
from up to 18 species at once, over very large remote areas. We even 
have dogs that detect feces from baleen and toothed whales that is 
floating on the water surface; dogs ride on the bow of a boat, 
detecting whale fecal samples at distances greater than a nautical mile 
away.
    The information we are able to obtain from these noninvasively 
collected samples is remarkable and unprecedented. The methods are 
relative inexpensive and becoming cheaper and less complicated all the 
time. The use and application of these tools for capacity building are 
considerable, as are the opportunities for partnerships between 
government and non-government organizations.
    The following detailed examples illustrate the utility and breadth 
of these methods for wildlife conservation and their fit with the 
priorities of the ACT.
    My first example comes from Africa, where our tools have 
transformed the fight to contain the illegal ivory trade.
Combating Illegal Trade in African Elephant Ivory:
    We used DNA to track the source and modus operandi of those in the 
illegal ivory trade across Africa. These tools have proven particularly 
useful to authorities policing this trade.
The Problem:
    Demand from high paying industrialized nations has caused the price 
of ivory to increase 9-fold in the past five years. Although profit is 
high, prosecution risk and punishment is disappointingly low; wildlife 
crimes are low priority compared to weapons, drugs, murder, rape and 
terrorism. Organized crime syndicates are now driving this trade, 
taking full advantage of this high profit, low risk enterprise. 
Liberalization of laws promoting global trade have compounded the 
problem. Close to 1 million containers are shipped daily with the 
potential to transport large volumes of contraband, and customs is able 
to inspect < 1 % of them.
    Another problem stems from underestimation of this trade. 
Population size and hence mortality estimates from many nations are 
unreliable, in part because of Africa's vast remoteness, but also 
because some countries providing these estimates may have conflicts of 
interest. Extrapolating from seizure rates, we estimate that elephant 
mortality rates are currently in excess of 10% annually from poaching. 
The significance of this loss cannot be overestimated. Elephants 
evolved to have enormous impacts on habitat structure. They are the 
single most important source of seed dispersal for large trees and thus 
their loss will surely have significant impacts on the carbon-capturing 
potential of central African forests. Their loss will also negatively 
impact ecotourism, one of the most reliable sources of hard currency 
for many African nations.
Our Approach:
    We collaborate with Interpol, USFWS and African and Asian 
authorities, using DNA to determine the origin of large ivory seizures 
that bear the signature of organized crime. We simultaneously identify 
the responsible countries, and how poachers/dealers are getting the 
ivory out of source countries.
    DNA acquired from elephant feces is used to map the frequencies of 
multiple genes across Africa. We assembled this map over the past 10 
years with the help of scientists, governments and managers across 
Africa, and the generous support of the USFWS African Elephant 
Conservation Fund. We acquire the same DNA markers from seized ivory. 
Matching the genes in ivory to the multi-locus gene frequency map 
enables us to determine the ivory's origin(s) with considerable 
precision, and hence the major poaching hot spots in Africa.
    We conclusively identified Zambia and Tanzania as two of the 
largest source countries in this illegal trade. The Zambia seizure was 
shipped from Malawi to Singapore in 2002. The seizure weighted 6.5 tons 
and included 531 large tusks plus 42,000 ivory signature seals (often 
called chops or hankos). This was the largest seizure since the 1989 
ivory ban and second largest on record. Zambia unsuccessfully 
petitioned CITES <SUP>1</SUP> that same year to diminish the 
conservation status of their elephants, which would have allowed them 
to partake in subsequent CITES sanctioned ivory sales. Three year 
later, another 6 tons of ivory was seized in the Philippines, shipped 
from Zambia. We were unable to analyze that shipment because it was 
subsequently stolen from the warehouse where customs had it stored.
---------------------------------------------------------------------------
    \1\ CITES, the Convention on International Trade in Endangered 
Species, is an agreement under UNEP that determines the international 
conservation status and trade rules surrounding wildlife, worldwide.
---------------------------------------------------------------------------
    A similar case occurred in 2006; Tanzania shipped 11 tons of ivory 
to Hong Kong, Taiwan and Japan within a two-month period. This was the 
largest single string of seizures on record, making the perpetrator 
among the largest illegal ivory dealers in Africa. We showed that the 
ivory was primarily poached in southern Tanzania, spilling into the 
northern tip of Mozambique. Like Zambia, Tanzania petitioned CITES to 
diminish the conservation status of their elephants that same year, but 
subsequently withdrew the petition owing to public pressure. Then, in 
March 2009, it happened again. Vietnam seized 6.2 tons of ivory shipped 
from Tanzania. Two months later, the Philippines seized 3.5 tons of 
ivory shipped from Tanzania. Two additional seizures were recently 
seized in Kenya, also believed to have originated from Tanzania. 
Meanwhile, this month Zambia declared that they will once again 
petition CITES next year to diminish the conservation status of their 
elephants, announcing that two other elephant range states will follow 
suit. Several sources have indicated these two other countries to be 
Tanzania and Mozambique. These findings illustrate the need to expose 
countries in denial of their illegal trade, and to hold them 
accountable. Education is vital to any hope of pressuring them to take 
action to fight these crimes.
    These cases all share a number of features. The large ivory 
seizures resulted from poachers hammering the same populations 
repeatedly, in contrast to the common belief that dealers were 
assembling large shipments of contraband ivory by cherry-picking from 
stocks across Africa. In the case of Zambia, poachers/dealer smuggled 
the ivory into a neighboring country (Malawi) for shipment to Asia. 
This is a risk reduction strategy, making it difficult for apprehended 
poachers to identify the dealers. We identified a similar strategy in 
our investigation of a seizure of forest elephant ivory made in Hong 
Kong. In 2006, four tons of ivory were seized in Hong Kong in a 
container, shipped from Cameroon. X-ray revealed the container behind a 
false wall in the back of the container. Ivory chips were also 
recovered in two other containers with false walls, returning to 
Cameroon with used tires for resale from Hong Kong. We found that all 
of this ivory was poached in southern Gabon, but shipped from Cameroon. 
Traditional investigatory methods that rely on shipping documents could 
not have confirmed that.
    We contend that source countries are in the best position to 
control this burgeoning illegal trade, which is also consistent with 
priorities of the ACT. Local empowerment is vital. Our methods are 
helping source countries achieve these objectives by providing tools 
that can focus their limited law enforcement resources on key poaching 
areas. Focusing on source countries also helps prevent products from 
entering the international market where they are logistically and 
economically nearly impossible to trace, and may be the only way to 
keep wildlife from being killed in the first place. At the same time, 
we are exposing source countries that are underestimating the extent of 
their illegal trade, and identifying strategies employed by large, 
organized ivory dealers.
Educating the Public:
    The illegal ivory trade is an area where public opinion and hence 
education clearly matter, highlighting another objective of the ACT. 
The 1989 ivory ban was implemented by CITES, largely because extensive 
education campaigns created enormous public pressure to stop the 
slaughter of 700,000 elephants in less than 10 years. Public pressure 
was so great that it virtually eliminated demand, stopping the trade 
almost overnight. Unfortunately, the public stopped paying attention 
several years later, believing the problem to be solved. Demand rose 
again while pressure to enforce the ban subsided. The ivory trade issue 
soon became the most contentious issue in CITES, and this has severely 
impacted the objectivity of decision making on this issue. Meanwhile, a 
higher percentage of remaining elephants are now being killed than at 
any other time in history.
    Public education is once again needed to overcome these issues. Our 
center is doing our part by publishing our findings of this renewed 
illegal trade in high quality refereed journals, accompanied by press 
releases. We are simultaneously publishing this work in respected lay 
journals with broad exposure, such as Scientific American. This is an 
area where scientists can play a unique collaborative role with 
government. Unlike government employees, scientists are encouraged to 
publish their work. Our publication in Scientific American this month 
encouraged a member of the Tanzanian parliamentarian to call for a full 
investigation of Tanzania's ivory trade, new counts of elephant numbers 
will soon be conducted in southern Tanzania that include independent 
observers and last week 6 Tanzanian businessmen were apprehended and 
charged with smuggling 11 tons of ivory as well as 11 counts of 
conspiracy, unlawful hunting, exporting concealed and undeclared items 
and making false documents.
    Our forensics methods can also be applied to other illegal wildlife 
trades, currently a $5-20 billion/yr annual industry causing tremendous 
loss of biodiversity. Among these, the illegal timber trade is probably 
most serious. In some countries (e.g., Tanzania and DRC) estimates 
suggest that nearly 100% of international timber sales are illegal. The 
trade is thus totally unregulated, the government receives no revenue 
form this illegal trade and some of our most important remaining 
forests for carbon capture are being destroyed in the process. 
Forensics tools such as these that can help localize these trades are 
vital.
    As a final note, lack of financial support has been the biggest 
obstacle to our work. USFWS generously provides us $50-75K per year 
from the $1 million annually appropriated by congress to the African 
Elephant Conservation Fund. However, USFWS support covers only a 
fraction of our costs. Source countries either cannot afford to pay for 
these analyses or have no desire to see this work conducted. Seizing 
countries appear to consider this trade too low priority to contribute 
funds for DNA analyses. Despite these constraints, we try not to let 
funding be an obstacle; otherwise the seizing countries would never 
turn over the ivory for analysis. I accordingly hope that the ACT will 
be able to increase support for this work in the future.
Monitoring Impacts of Anthropogenic Disturbance:
    Our Center has taken a similar noninvasive approach to monitoring 
impacts of habitat loss and human disturbances with equal impact.
The Problem:
    Impacts of habitat loss and human disturbance present yet another 
suite of challenges that have proven difficult to address in developed 
and developing countries, despite the considerable pressures they place 
on wildlife. Scientists strive to address these problems by acquiring 
reliable mortality rates in relation to these pressures. However, this 
approach has proven problematic. Such pressures rarely kill the animal 
directly. Rather, they increase their probability of dying, and this 
takes time. Many other events can occur in the interim, complicating 
such linkages. Mortality rates also require accurate population 
estimates. These are difficult to acquire, often being extrapolated 
from expensive telemetry studies that track only a small number of 
animals at great cost, while bearing limited representativeness to the 
entire population. Moreover, radiocollaring procedures are highly 
invasive, increasing mortality risk from the capture procedures.
    A second problem stems from the fact that disturbances rarely occur 
in isolation; where there is one disturbance there are typically many. 
Without knowing which disturbance is having the impact, it becomes 
impossible to know what and how to mitigate. The impacts of mitigation 
are equally difficult to monitor. Long time intervals may elapse at 
considerable expense before the effects of these mitigations become 
known. Sometimes they cause more harm than good.
Our Approach:
    Our Center has developed noninvasive genetic and physiological 
measures obtained from wildlife feces to help developed and developing 
nations quantify human impacts and guide their mitigation. One of our 
greatest strengths stems from tools we developed to comprehensively 
sample large parts of the landscape. Detection dogs locate large 
numbers of fecal samples from multiple species over considerable 
distances. Using dogs for sample detection also has very low associated 
bias. Detection dogs are selected for their highly obsessive play 
drive. This obsessive play drive makes their sampling less biased than 
nearly any other available method. Since the dog's primary motivation 
is to get its ball, which occurs whenever the dog finds a sample from 
the correct species, the dog will not bias its search by the animal's 
sex, social status or capture history. That means all individuals of 
the target species have an equal chance of being detected. No other 
method can make that promise. The dogs also find the samples where they 
lie, whereas most other methods lure the animal to the sample 
collection location.
    DNA in these samples is analyzed to confirm the species, sex and 
individual identity of the animal. This allows DNA measures to be 
employed in field designs that can reliably estimate population size in 
vast, highly remote areas. The distribution of samples also reflects 
the species' distribution over the landscape, allowing us to determine 
precisely what features are attracting or repelling individuals over 
time. Stress, reproductive, and nutrition hormones, as well as other 
procedures in the same samples are similarly tied to the landscape 
features, allowing us to physiologically partition disturbance impacts.
    We have shown that DNA collected by dogs greatly enhance the 
accessibility and cost-effectiveness of the genetic and physiological 
measures. DNA samples collected using dogs provide more reliable 
population size estimates (i.e., have lower associated error), as well 
as more reliable data on the disturbance of species across their 
habitat, because the dogs covered a greater area and the probability of 
sample detection is higher. Data are thus more representative of the 
population as a whole because a greater variety of individuals and 
areas are sampled. Large number of samples collected over multiple time 
periods, also provides more reliable associations to temporal and 
physical disturbances, particularly those that change over time (e.g., 
changes in human resource use across the season). These highly 
informative sampling methods are very straight forward, and versatile 
enough to be used on virtually any combination of species, in nearly 
any type of habitat.
    This makes these methods ideally suited to assist management 
decisions by authorities in developing countries.
    We are using these methods on a wide variety of species and 
habitats, including pocket mice, northern spotted owl, fisher, grizzly 
bears and Mexican wolves in North America, tigers in Cambodia, maned 
wolves, cougar, jaguar, giant-ant eater and giant armadillo in the hot 
dry Brazilian Cerrado, caribou, moose and wolf in the frozen oil sands 
of Alberta, right whales and killer whales in the eastern and western 
US. They can even be used to locate rare plant species over vast remote 
wilderness areas.
    The following four examples show the breadth of these methods in 
terms of species, habitat, climate and questions addressed.
Impacts of Oil Sands Exploration on Caribou, Moose and Wolf:
    One of the most timely applications of our methods is monitoring 
impacts of oil development in the oilsands of NE Alberta on threatened 
caribou, moose and their primary predator, the wolf. The oilsands have 
abundant oil reserves, but its heavy black viscous oil, termed bitumen, 
is expensive to extract and must be rigorously treated to convert it 
into an upgraded crude oil. Current oil prices per barrel have recently 
made it cost-effective for companies to extract and process the 
bitumen. SAGD (steam assisted gravity drainage) is the most common 
method used to extract this oil. Seismic and delineation drilling 
determine where and how much oil is present. Steam is then used to heat 
and move the material through underground veins to an extraction area. 
These operations must occur in the winter, when the ground is frozen 
and are strictly controlled by the Alberta government due to the 
sensitive nature of boreal forest. Thus, the habitat goes from remote 
wilderness most of the year to a booming town in winter and then back 
to wilderness as soon as the snow begins to melt.
The Problem:
    We are working in collaboration with the Chipewyan Prairie Dene 
First Nation, StatoilHydro Canada and the Alberta provincial government 
to monitor impacts of the oil exploration on the caribou, moose and 
wolf living on oil sands lease areas in NE Alberta. The study began 
four years ago, at the onset of oil exploration in the area, and plans 
to continue for 10 years through the oil extraction process.
    The caribou, moose and wolf are monitored because their large size 
and ranging behavior make them likely to be impacted by oil development 
activities. The caribou is a species of particular concern because it 
is threatened in Alberta. The moose offers a good comparison species 
because it is similar in size but differs in microhabitat and social 
structure. The moose is also a primary prey species of the Chippewa 
Prairie Dene First Nation. The caribou is a prey species of secondary 
importance to the Dene. The wolf is the primary non-human predator of 
the moose and caribou.
Our Approach:
    The comprehensive sampling provided by the dog teams allows us to 
simultaneously monitor: How population size changes for each species 
across years; what factors in the environment each species is attracted 
to, or avoiding; and how the stress, nutritional status and 
reproduction of each species vary over space (relative to distance from 
key resources and anthropogenic disturbances) and time (relative to 
intensity of extraction activities within and between years). The study 
also includes a low exposure control area where little or no oil 
extraction is occurring.
    This year, four dog teams searched a 3,000 km2 area, two feet deep 
in snow, four times in just 10 weeks, and collected 1800 samples from 
these species.
    Results to date show how the abundance, distribution, stress and 
nutritional status of these three species are impacted by the presence 
of high- versus low-use oil exploration roads, in conjunction with the 
natural and anthropogenic habitat features they cross. We are already 
identifying ways to reduce impacts of oil exploration on wildlife 
through better road management. Results also suggest that practices 
other than wolf removal may offer the best solution to saving 
threatened caribou in these areas over the long-term.
    Results have been so effective that other companies operating in 
the oilsands are now asking to be included in our monitoring program.
Causes of Decline of the Southern Resident Killer Whales of Puget 
        Sound:
The Problem:
    The southern resident killer whale population in Puget Sound 
declined by 20% in the 1990's and eventually led NOAA to declare them 
an endangered population under the Endangered Species Act in December 
2005. At least three hypotheses have been advanced to explain their 
decline: ecotourism, loss of prey and excessive toxin loads of PCBs and 
PBDEs. Each hypothesis has been advanced by NOAA, the public and 
scientific sectors, in heated fashion, creating enormous pressure on 
NOAA to mitigate. But, where should they focus their mitigation?
Our Approach:
    We are using our methods to separate the relative impacts of 
ecotourism, prey and toxin load in an effort to determine what 
pressure(s) is most urgent to mitigate. NOAA is analyzing the DNA from 
our samples for individual killer whale identities as well as the 
identities of their prey types. We are analyzing stress, nutrition and 
reproductive hormones, as well as toxin loads, all from the same 
samples in relation to temporal changes in boat traffic and salmon 
abundance.
    Dogs ride on the bow of a boat and detect scat at distances >1 mile 
away. Stress and nutrition hormones from these samples have already 
shown that lack of their primary prey, Chinook salmon, is the single 
biggest cause of their decline. Thus, recovering salmon should be the 
single biggest effort in attempts to recover this species. The diet 
impact may be significantly magnified by release of toxins stored in 
fat reserves, increasingly metabolized during starvation. (Methods 
already exist to measures these toxins in dolphin scat and will soon be 
optimized for killer whales.) In fact, cleaning up toxins at the same 
time as recovering the salmon could result in more rapid killer whale 
recovery/unit effort. Ecotourism may also play a role in acute stress, 
mandating best practices during ecotourism.
    The fact that these scat methods enabled us to learn all this from 
an animal that spends >90% of its time under water is testimony to the 
remarkable power of this technique.
Wide Ranging Mammals in the Brazilian Cerrado:
    Increasing agricultural expansion and land use is having severe 
impacts on persistence of wide ranging species. Mortality of such 
species disproportionately occurs outside of nature reserves that are 
intended to protect them. The Cerrado habitat of Brazil comprises the 
world's most diverse tropical savanna and is home to hundreds of 
species found nowhere else in the world. This habitat also comprises 
one of the world's most threatened regions as land is being rapidly 
converted for agriculture production of soybean and sugar cane for 
biofuels.
The Problem:
    The government responded to the high rate of land conversion by 
mandating that private landholders set aside 20-30% (depending on the 
State) of their farmland as natural habitat. However, some landholders 
purchased this set-aside land outside their farms instead of 
maintaining natural habitat within their farmland.
The Approach:
    We used our methods to assess differential impacts of these 
different land use practices on movement of wide-ranging wildlife 
species across the landscape by examining how the type of land mosaic 
best promotes or reduces presence of maned wolves, puma, jaguar, giant 
armadillo, giant anteater and tapir.
    Results indicated that natural islands in a sea of agriculture are 
critical to allow these wide ranging species continued movement through 
converted habitat. This is vital since protected areas are too small in 
number and size to sustain all of these species.
    Dogs readily located scat from the study species across the 
landscape. All species were found inside and outside of Emas National 
Park (ENP). However, the jaguar was almost entirely restricted to 
forest habitat, the majority of which lies outside the park. The jaguar 
is accordingly at greatest risk from isolation from habitat 
fragmentation. The maned wolf, puma, giant anteater and tapir made 
extensive use of the landscape mosaic surrounding the park, although 
the vast majority of scats were concentrated in or very near patches of 
natural habitat.
    The giant armadillo (IUCN Vulnerable) also showed a clear 
preference for open habitats in this region. However, we found no 
evidence of burrow digging or scat samples from armadillos in croplands 
or pasture further than 100 meters from natural habitat. This is 
particularly important since open habitats are nearly non-existent 
outside protected areas in this region.
    Hopefully, these results will help convince the Brazilian 
government to tighten mandates, assuring that set-aside land remains 
inside farmland for the benefit of these incredible species.
Northern Spotted Owls in the Pacific Northwest
    The Northern spotted owl (NSO), Strix occidentalis caurina, is the 
flagship threatened species of the Pacific Northwest. Federally listed 
under the Endangered Species Act in 1990, the NSO continues to decline 
at a rate of about 7% throughout its range.
The Problem:
    Habitat loss from logging and land conversion have historically 
contributed the greatest threats to this species. This prompted 
authorities to establish Spotted Owl Special Emphasis Areas (SOSEAs) 
that cannot be logged as long as NSO are shown to have occupied them 
within the past 3 years. Timber sales also are required to establish 
that the land is free of spotted owls before any sales go through.
    Then, a new problem arose that complicated these regulations. The 
barred owl (BO)--a close relative of the NSO that is twice its size, as 
well as a competitor and a predator--expanded its range into the west 
coast from the northeast US, occupying a huge portion of the spotted 
owl's range. Some managers argue that the impact of the BO range 
expansion on NSOs is so great that future timber concessions may no 
longer affect NSO persistence. That question has yet to be answered.
    Regardless, managers are now faced with a different problem:
    The primary means of establishing NSO presence, as a prelude to 
timber sales or harvesting SOSEAs, is conducted by vocal surveys; NSO 
indicate their presence by their vocal response to simulated 
territorial calls given by observers. However, NSO are becoming 
increasing unresponsive to these calls when BOs are present, apparently 
fearing attack by BOs if they vocally announce their location. If the 
primary means of detecting NSO is no longer reliable, how can these 
surveys be used to enforce current regulations re: timber sales and 
preservation of SOSEAs?
Our Approach:
    To address these problems, we trained detection dogs to locate NSO 
by their pellets and feces, without requiring an owl vocal response. In 
the springs of 2008 and 2009 detection dogs located spotted owls by the 
scent of their pellets and feces. They detected 17/18 known owl pairs 
in 2008. In 2009, they detected owls in 12 out of 18 sites surveyed; no 
owls were detected by any method, including vocal surveys in the 
remaining 6 sites. These methods can be used to simultaneously survey 
for BOs with pellets and/or feces identified to the species level by 
DNA, enabling this method to also be used to more readily address 
overall impacts of BO on NSOs. Discussions have already begun with 
USFWS that could employ this method more broadly.
Concluding Remarks:
    Effective global conservation requires reliable information on the 
sources and magnitudes of human and natural impacts on the environment. 
Such information is limited in developed countries, and even more so in 
developing countries. The ACT recognizes this by its objectives of 
increasing the flow of information required to make sound management 
decisions, as well as by the importance it places on educating the 
public to be better environmental stewards. The approach pioneered by 
our center exemplifies the importance of these priorities, as outlined 
in the ACT.
    We partner with government and non-government entities to provide 
highly accessible, noninvasive genetic and physiological tools to aid 
global conservation, addressing questions such as the extent, 
distribution and strategies behind the illegal wildlife trade, and the 
impacts of human and natural disturbances on wildlife health.
    We developed novel tools to acquire this information cost-
effectively, over large remote areas, without adding disturbance to 
wildlife. And, results are helping inform developed and developing 
nations how best to address global conservation issues of paramount 
importance to our planet's well-being.
    We strive to publish our work in high quality, peer-reviewed 
journals with accompanying press releases, as well as in respected 
magazines aimed at the educated general public. This approach appears 
to be working, judging by the near monthly appearance of our work in 
the national or international media. It also fills an important void as 
this route of information transfer is relatively uncommon in the 
government sector.
    The objectives of the Global Wildlife Conservation, Coordination 
and Enhancement Act of 2009 are particularly important in these hard 
economic times, when priorities are easily shifted elsewhere. We hope 
the ACT will encourage our efforts as well as those of others, and look 
forward to the opportunity to work with our representatives and 
managers on these important issues.
                                 ______
                                 

   Response to questions submitted for the record by Dr. Sam Wasser, 
    Director of the Center for Conservation Biology, University of 
                               Washington

Questions from Chairwoman Madeleine Bordallo (D-GU)
1.  Other witnesses expressed concerns with the new organizational 
        structures authorized in H.R. 3086. However, there appeared to 
        be little disagreement among the witnesses regarding the 
        principal objectives of the bill (i.e., greater coordination 
        within the Department of the Interior and with other relevant 
        Federal agencies; expanded public outreach and education 
        regarding the illegal trade in wildlife and wildlife products; 
        authorization of the Wildlife Without Borders Program; 
        expansion of training opportunities, especially for law 
        enforcement capabilities in range states; greater collaboration 
        with non-Federal NGO stakeholders, especially utilization of 
        technical and educational assets within the zoo and aquarium 
        community, etc.). How might you suggest the bill be amended to 
        clean up the purported organizational clutter while maintaining 
        the principal objectives? Can these objectives be attained 
        simply by directing existing bureaus and programs within the 
        Department of the Interior to do them?
    Enhancing existing bureaus and programs (e.g., directing existing 
bureaus and programs within Interior) is the best approach to cleaning 
up the organization clutter, while maintaining principal objectives of 
the ACT. However, there also needs to be a vehicle that fosters 
collaborations outside of interior, encouraging novel approaches to 
some of these issues. An advisory committee that includes members of 
NGOs and members of the scientific community across universities would 
help assures that.
2.  Recognizing that there will likely never be sufficient Federal 
        appropriations to address all identified needs it is important 
        that we utilize the contributions of non-Federal stakeholders. 
        Do you agree? Are there additional ways to formally incorporate 
        these capabilities beyond the grant programs authorized under 
        the Multinational Species Conservation Fund? Do you support the 
        creation of the Global Wildlife Conservation Advisory Committee 
        in H.R. 3086?
    I do agree that supplemental non-Federal contributions would be 
valuable, but it is important that contributors do not drive the 
agendas to avoid conflicts between competing organizations becoming 
obstacles to progress. A Global Wildlife Conservation Advisory 
Committee would provide an important means of assuring objectivity as 
long as the committee had the appropriate balance of government and 
non-government organizations, including members of the scientific 
community.
3.  Do you support the establishment of an International Wildlife 
        Conservation Fund in the Treasury to provide a means for the 
        Secretary of the Interior to accept and utilize gifts and 
        donations? In order to ensure that there is no potential for 
        conflict of interest, should such a fund be managed by 
        agreement through a non-Federal entity such as the National 
        Fish and Wildlife Foundation, or a university-based 
        institution?
    I wholeheartedly support such a fund. An organization like the NFWF 
would be appropriate to manage these funds as long as there was a 
process to guide their focus areas and ensure transparency. A well-
balanced advisory board would also be key in this respect.
4.  Dr. Monfort testified that the Smithsonian Institution has recently 
        created a Conservation Biology Institute whose program 
        activities are quite similar to the activities proposed for the 
        Center for International Wildlife Recovery Partnerships in H.R. 
        3086. Would it make sense to amend the bill to direct the 
        Secretary and the Smithsonian, through a cooperative agreement, 
        to develop a partnership to incorporate these capabilities and 
        the capabilities of the zoo and aquarium and university 
        research community at large, to enhance U.S. international 
        wildlife conservation capabilities? If you disagree, please 
        explain why?
    I commend the work and vision of the Smithsonian's Conservation 
Biology Institute. I also believe there are many other organizations 
doing great work and that there needs to be a vehicle that assures 
equal opportunity in order to capitalize on the creativity that exists 
across the US. I am concerned that giving any one organization too much 
power will limit the potential of this program.
Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
1.  Why has the price of elephant ivory increased 9-fold in the past 
        five years? Who is creating this demand?
    Demand for ivory from high paying industrialized nations, 
particularly China, U.S. and Japan, have been largely responsible for 
the 9-fold increase in the price of ivory. The growing economy and 
middle class in China has been the greatest contributor to this growing 
demand in recent years; their growing middle class buys ivory to flaunt 
their new-found wealth. Japan has consistently maintained their high 
demand. The principle demand in the U.S. is hunters buying ivory 
imported primarily from China, which they have carved into pistol and 
knife handles.
2.  On Page 3 of your testimony, you indicate that ``Wildlife crimes 
        are low priority compared to weapons, drugs, murder, rape and 
        terrorism.'' If you were the head of law enforcement in one of 
        the African range states, how would you address this problem?
    First, it is important to note that the problem exists in both 
consumer countries and exporting countries. Very few of the large 
dealers ever get prosecuted, and when they do, punishment is often 
minimal. In 2006, Japan convicted an ivory dealer of importing the 
largest ivory seizure in that country's history, but gave him a 
suspended jail sentence and a $6,000 fine for a seizure valued at $10 
million. The U.S. has the highest interdiction rate at its borders, but 
prosecutions of illegal ivory traders within the U.S. remain 
embarrassingly low.
    One of the biggest problems facing African range states is that 
corrupt government officials and other powerful entities are often 
participating in these crimes. Thus, this problem is a double-edged 
sword. This is also why vehicles such as the Global Wildlife 
Conservation Act are so vital. Often law enforcement agencies have 
their hands tied until their citizens support their cause. We need 
mechanisms to identify the countries driving the trade and to 
communicate this to their public. We also need to educate the public of 
the long-term consequences that result from loss of their biodiversity. 
Media in these countries is vital; so are outspoken celebrities that 
people will listen to.
    If I were a law enforcement official in an African range state, I 
would work to insure that my efforts are encouraged and supported by 
the public. I would insist on independent counts of the wildlife in my 
country so that escalating mortality rates from illegal trade could not 
be masked. I would work with scientists doing work such as our center 
to help identify the poaching hot spots and focus limited law 
enforcement to those areas. I would work with the judiciary to ensure 
that punishments are severe. I would solicit capacity building from 
effective law enforcement agencies such as Interpol. I would also 
encourage and strengthen intergovernmental law enforcement entities 
such as the Lusaka Agreement Task Force, whose mission is to police 
wildlife trade across international borders. I would especially 
strengthen enforcement at key trade routes including ports of entry and 
especially shipping ports for countries with a coastline.
3.  You identify Zambia and Tanzania as two of the largest sources of 
        illegal ivory. In these two countries is it a lack of will 
        power, manpower, resources or is it just apathy that has 
        created these elephant killing fields?
    None of the above. These are poor countries in terms of available 
hard currency, but also countries that have enormous natural resources 
that can be illegally exploited for personal gain. This problem becomes 
self-perpetuating because money breeds power, especially in these 
countries with high disparity of wealth. Often those profiting are more 
powerful than those doing the policing. Sometimes, the fox is guarding 
the henhouse. There is also strong influence of Asian countries such as 
China operating in those countries, creating the demand for these 
products and the opportunities for their sale.
4.  What is the current situation in Zimbabwe in terms of wildlife 
        poaching?
    The situation in Zimbabwe is currently worse than ever before. They 
have one of the highest rates of inflation in the world, creating a 
serious lack of hard currency. These factors, coupled with enormous 
political turmoil in that country have created numerous opportunities 
for wildlife trade violations. Reports of such violations appears 
almost weekly on wildlife watch ``listservs''. These include: elephants 
being killed to feed soldiers, ministers ordering elephants shot to 
feed people during celebrations, hunting rights being sold for high 
prices to wealthy hunters abroad just for photo ops, government 
stockpiled ivory showing up in illegal seizures, sale of ivory for arms 
from China. All of this perpetuates a climate of taking what you can 
before it's too late. There has not been a formal wildlife count of 
Zimbabwe's elephants in over a decade and the government keeps quoting 
this decade-old count to argue they have too many elephants. Those on 
the ground state otherwise. They have recently wiped out nearly all of 
their remaining rhinos. The list goes on. The fact that a country with 
so many known wildlife violations was permitted by CITES (Convention on 
International Trade in Endangered Species) to downlist their elephants 
and participate in the legal ivory sale that occurred in 2008 is a 
travesty that speaks poorly of the international safeguards that are 
supposed to be protecting our planet's biodiversity. Countries 
participating in the sale were supposed to have demonstrated that they 
are effectively controlling illegal trade in their country. Zimbabwe 
had no such claim.
5.  You mentioned that you provide tools focused on law enforcement 
        resources in key poaching areas. Is the fact that AID, which 
        has far more money than Fish and Wildlife Service, has a policy 
        of not supporting law enforcement activities a real problem in 
        fighting against well armed poachers?
    I do believe that countries could benefit greatly if AID money were 
devoted to this cause. I also believe that doing so is consistent with 
their mandate. When natural resources are illegally exploited and sold 
as a source of hard currency, this unregulated enterprise destroys the 
country's biodiversity, negatively impacts water catchment, negatively 
impacts tourism and impacts acquisitions of legal sources of hard 
currency in these countries. The illegal sale of natural resources also 
is used to keep corrupt officials in power, and a well-known source for 
supporting terrorism, all at the expense of the country's long-term 
political and economic stability. AID should be working to stop this 
trade because such efforts prevent illegal trade from compromising the 
political and economic stability of these countries.
6.  Since we have stopped commercial logging on millions of acres and 
        destroyed the jobs of thousands of loggers, why has the 
        population of the Northern Spotted owl continued to decline by 
        about 7 percent?
    Loss of habitat is the primary problem, resulting from poor timber 
management and excessive logging of old growth forests. This has most 
recently been exacerbated by invasion of barred owls from the east (a 
competitor and predator of the spotted owl), also facilitated by 
habitat destruction from excessive timber practices in the intervening 
areas. One policy that has been particularly problematic in my view is 
the logging of previously occupied areas of importance to spotted owls 
when owls have not been documented to occupy these areas for three or 
more years. The three-year period is arbitrary and is not based on any 
scientific criteria. Logging of these previously important owl habitat 
areas (indicated on prior occupancy) further reduces opportunities for 
owl recovery by eliminating areas of historical importance that should 
remain intact to promote northern spotted owl recolonization. 
Essentially, the small amount of remaining old growth forest should be 
preserved in perpetuity for the recovery of spotted owls and the other 
species that evolved dependencies on this habitat.
7.  What is your recommendation for addressing the presence of barred 
        owls?
    Better timber management is the only long-term solution. Currently, 
plans are underway for massive culling of barred owls to address their 
acute threat to the spotted owl. I am unclear whether this will be an 
effective management activity over the short term. However, I believe 
there is little question that the barred owl will remain a problem is 
we do not manage the landscape to reduce further invasions, and give 
spotted owls a competitive edge in competition with barred owls already 
present. Culling barred owls will only provide a short-term solution, 
if any solution. Forests must be managed to give the spotted owls a 
fighting chance.
8.  How much of the wildlife conservation problem is getting nations to 
        value their wildlife?
    I believe that this is the single biggest problem and the most 
important long-term solution. Otherwise, poor land management practices 
and over-exploitation from short-term economic gain will always win. 
Education and outreach are key.
9.  Are there certain countries that are having more difficulties 
        protecting their wildlife and if so what is the reason?
    Countries that lack hard currency but have significant natural 
resources to exploit are certainly those most vulnerable. They are also 
some of the most important countries to preserve. Slowed development 
from lack of hard currency has historically been key to preserving 
wildlife in poor countries, often making them the remaining strongholds 
of biodiversity. Demand from global economies and trade are now putting 
that diversity at enormous risks as developed countries move in to 
exploit these riches.
10.  You were asked at the hearing about focusing on source vs. 
        consumer countries and you recommended the focus be on source 
        countries. Can you elaborate on what actions can be taken with 
        source countries to reduce or eliminate illegal wildlife trade?
    Focusing on source countries is the only viable way of keeping the 
wildlife from being killed in the first place. Liberalization of global 
trade makes illegal trade far more expensive and difficult to police 
once the wildlife products move outside the source countries, 
particularly when prosecution risk is so low. As an example, Interpol 
has only one permanent wildlife officer. CITES (Convention on 
International Trade in Endangered Species)--the principle organization 
mandated to police international wildlife trade, also has only one law 
enforcement officer.
    Source countries primarily need:
        1.  Vehicles, fuel and munitions to police their trade
        2.  Capacity building
        3.  New tools to identify the sources of the problems in their 
        countries (e.g., genetic tools to identify the source of 
        poaching, and improved methods of estimating wildlife 
        population sizes, mortality rates, and resource use)
        4.  External methods that expose source countries in denial of 
        the extent of illegal trade in their country, coupled with 
        national and international public pressure to do something 
        about it.
        5.  Education inside and outside source countries so that 
        people realize what they are losing and show source countries 
        that they care, i.e., publically support enforcement activities 
        within source countries.
        6.  Good science, conveyed by media and other ways of reaching 
        the public is key here.
        7.  We need to improve the effectiveness of CITES--the UN 
        agreement responsible for overseeing the international wildlife 
        trade--and redirect their mission from one of protecting trade 
        to protecting wildlife. Otherwise, no trade will be 
        sustainable. When a species is at serious risk, all efforts 
        need to be directed at getting their illegal trade back under 
        control. The elephants are a prime example, where politics over 
        rights to trade have occurred at the expense of protecting a 
        species that is keystone across Africa.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Wasser, for your 
commitment to wildlife research for over 30 years and for your 
support of this important legislation.
    Now, I would like to recognize Mr. Potter, and you can 
begin.

 STATEMENT OF J. CRAIG POTTER, INTERNATIONAL WILDLIFE LAWYER, 
                 LAW OFFICES OF J. CRAIG POTTER

    Mr. Potter. Thank you, Madam Chair and distinguished 
Members of the Committee. It is a great honor for me to be here 
today to present my views on this legislation and related 
matters.
    Although I am here as a citizen and a taxpayer, I have some 
experience with these issues going back for many years. I was 
actually the Deputy Assistant Secretary at the Department of 
the Interior when we established the line item for the Wildlife 
Without Borders program. I was also at Interior when we 
reauthorized the Endangered Species Act the last time it was 
reauthorized, which was in 1982.
    I left government in 1988, and I have been involved on the 
outside with these issues, one way or another, ever since. I 
guess I had the good fortune, or the bad fortune, as it may be, 
to have seen these issues from both sides, and so I bring to 
you my perspective with that in mind.
    Many of the points that I want to make with respect to this 
legislation have already been made, so I will try to succinctly 
highlight just a few key items.
    First of all, with the introduction of this bill, and on 
July 14th with the introduction of H.R. 3198, I believe this 
Subcommittee has come to the brink of a huge opportunity. You 
have an opportunity, as I see it, to use the broader purposes 
of H.R. 3086 as a foundation from which to take action now on 
the authorization of the Wildlife Without Borders program. In 
my written statement, I describe my perspective on the various 
programs within the Wildlife Without Borders program.
    With respect to the species program, in particular, 
Congress has appropriated since 1988 some $67 million, and that 
has been matched by approximately $150 million from the private 
sector. This program, in my view, is probably the most 
effective grant program in government, and I think that, 
through the Multinational Species Conservation Funds and the 
oversight that this Committee has with respect to those 
matters, this program is a key, obviously, to Wildlife Without 
Borders.
    The regional programs and the global programs provide an 
amazing opportunity, from my view, to look at the heart of the 
future of this program, which is capacity building. The 
concerns that I have with H.R. 3086 have been, to some extent, 
explained, but the basic concern I have is that an overemphasis 
on that bill at this time may dilute the opportunity to really 
think about what Wildlife Without Borders has done and where it 
can go in the future.
    The final point that I would like to make with respect to 
Wildlife Without Borders is reflective of the written testimony 
of my distinguished colleagues on this panel and, in fact, 
myself. I note that there are at least three dates of inception 
that are quoted by three or four of us here. Fish and Wildlife 
Service dates this program to 1975. If correct, that means that 
the regional program was when Wildlife Without Borders began. I 
dated the inception to the creation of the line item in 1983, 
and Mr. Carter dates it to the inception of the Elephant 
Conservation Act in 1989.
    The point I want to make is that all of these are correct. 
This program has grown from within. It has had the opportunity 
to be seen and viewed, and it has expanded, and it is time for 
this Committee and Subcommittee to take consideration of what 
might be done with it in the future.
    More importantly, I think that the opportunity is here to 
officially recognize and authorize the Wildlife Without Borders 
program as it should be recognized and authorized, and I think 
that important point, I hope, would not be lost on the 
Subcommittee.
    The fact that wildlife do not recognize borders was 
mentioned by Ms. Derek. I think that point needs not to be lost 
on us. Without international cooperation, an increasing number 
of these species will be lost, but the point is that they do 
not recognize international boundaries, and the Wildlife 
Without Borders name itself centers on that very issue.
    If the Subcommittee decides and chooses to embrace any or 
all of the new programs that are encompassed in H.R. 3086, I 
think it could do that with the reauthorization or the 
authorization of Wildlife Without Borders and with the 
convening of an advisory committee to look at the many points 
that have been raised in this proposed legislation, but I am 
fearful, for some of the reasons that have been mentioned here 
by my colleagues, and for specific concerns that I have, and we 
can address further, if you want, that if we dilute that effort 
now, we may lose the opportunity to deal with a very important 
program at this point in time.
    Thank you very much for the opportunity to express my views 
on this important legislation.
    [The prepared statement of Mr. Potter follows:]

      Statement of J. Craig Potter, International Wildlife Lawyer

Introduction
    Thank you Chairwoman Bordallo and distinguished members of the 
Subcommittee for the opportunity to present my views on H.R. 3086, the 
Global Wildlife Conservation, Coordination and Enhancement Act of 2009. 
This hearing is an extraordinary opportunity to discuss the great need 
to enhance the capacity of the U.S. Fish & Wildlife Service to deliver 
conservation results on a global scale and I am honored to be with you 
here today.
My Experience and Background
    If you include the time I spent on the Senate Interior 
Appropriations Subcommittee in the late 70's, I have been involved with 
global conservation issues both in and out of government for over 30 
years. I was the Deputy Assistant Secretary for Fish and Wildlife and 
Parks at the Department of the Interior in 1983 when we 
administratively created the Wildlife Without Borders line item in the 
budget of the Fish and Wildlife Service.
    During my tenure at the Department of the Interior I was 
extensively involved with international conservation issues. Among 
other things, I am a former Head of Delegation for CITES and I also led 
the first U.S. Observer Delegation to RAMSAR in 1984. I was heavily 
involved in the last reauthorization of the Endangered Species Act in 
1982 and my experience there set the stage for much of the work I did 
in the private sector after I left the government in 1988. Since 
leaving government, much if not most of what I have done has related in 
one way or another to global as well as national conservation. In what 
we all know is becoming an increasingly globalized world, it is 
becoming harder and harder to distinguish between global and 
international conservation. And that, I believe is as it should be.
Wildlife Without Borders
    Since the mid 1970's, the U.S. Fish & Wildlife Service, through 
what is now referred to as the Wildlife Without Borders Program, has 
worked with many national and international partners to conserve 
wildlife around the world. Over this period of time, the Wildlife 
Without Borders program has produced a track record of excellence. 
Wildlife Without Borders has established a highly-successful program 
based on collaboration with foreign governments, international and 
domestic NGOs, and other U.S. Government agencies. With what amounts to 
very limited federal funding, this program has established a highly 
effective program that can quickly focus limited but leveraged 
resources in areas where they are most needed. Although the program 
began as a Regional initiative focused primarily in the Western 
Hemisphere it has grown over the years to encompass three distinct but 
coordinated programs. From a funding perspective, the bulk of the 
program has been focused on the so-called Species Programs, but from my 
perspective, much of the hope for the future of this program rests with 
the Regional and the Global Programs.
    As the Subcommittee is well aware, legislation was introduced by 
former Chairman Don Young during the last Congress to codify and 
specifically authorize the Wildlife Without Borders Program. It is my 
understanding that similar legislation has now been introduced by Mr. 
Young in the 111th Congress.
    Before sharing my perspectives on the three program components of 
the Wildlife Without Borders Program and addressing some of my concerns 
regarding H.R. 3086, I would like to express to the Subcommittee my 
basic fear that H.R. 3086 may actually dilute and even possibly 
diminish the critically important opportunity to act now to recognize 
and expand what is already by any definition a highly effective 
international conservation program.
The Species Program
    Building on Congressional mandates through the Multinational 
Species Conservation Funds, the Wildlife Without Borders Species 
Program is well recognized for its ability to quickly focus on-the-
ground funding to address critical conservation needs through the 
African Elephant Conservation Fund, the Rhinoceros and Tiger 
Conservation Fund, the Asian Elephant Conservation Fund, the Great Ape 
Conservation Fund, and the Marine Turtle Conservation Fund.
    Since the inception of the first international wildlife 
conservation fund in 1988, the U.S. Congress has appropriated $67 
million to help save two species of elephants, five species of rhinos, 
tigers, and Great apes, and six species of marine sea turtles. This 
money has been matched by more than $150 million in private funds which 
together have been used to finance more than 1,400 conservation grants 
in range states throughout the world. There is little doubt that 
without this lifeline of financial support some of these imperiled 
species would have continue their slide toward extinction.
The Regional Program
    I believe I am correct in stating that the Regional program 
component of The Wildlife Without Borders Program essentially began in 
the 1975 when Mexico and the United States signed the Agreement for 
Cooperation in the Conservation of Wildlife. That agreement established 
the U.S.-Mexico Joint Committee on Wildlife Conservation and 
effectively initiated what has become the Regional Program of the 
Wildlife Without Borders Program.
    Over the years, a fundamental goal of this program has been to 
build conservation capacity and establish ecosystem management regimes 
through the allocation of a relatively small amount of taxpayer money. 
This focus on capacity building, made possible by the vast and unique 
experience of the U.S. Fish and Wildlife Service, fills a much-needed 
niche by helping to develop and support the ability of international 
partners to conserve and manage wildlife resources and critical 
habitats regionally. These are the only funds available to assist some 
of these endangered international species and without this investment 
many of these species are much more likely to become extinct in the 
wild.
    There are now four regional programs in Latin America and the 
Caribbean, Mexico, Russia, and Africa. During the past five years, the 
Service has spent $10.8 million, which has been matched by $19.8 
million and has funded 304 conservation grants or only about one-third 
of the number submitted to the Service for funding consideration.
    The first regional program was established in 1983 for Latin 
America and the Caribbean. During the past five years, 154 grants have 
been awarded, 3,990 conservationists have been trained, and the cost to 
U.S. taxpayers has been $3.2 million or about $640,000 a year. Projects 
approved here included efforts to improve the conservation of the 
Andean tapir, which is the most endangered large mammal in the Andean 
region, efforts to save the Swainson's hawk which is extremely 
threatened as a result of pesticide use, and efforts to conserve 
jaguars in Argentina.
    The second regional program was established in Mexico in 1994. 
Between 2004 and 2008, the Service approved 83 grants allocating $3.1 
million in taxpayer money and among other things, training some 13,000 
conservationists. Although not well known, Mexico is home to an amazing 
one-tenth of all of the species known to science. Over 100 threatened 
or endangered wildlife species are shared between Mexico and the United 
States including bats, condors, desert sheep, gray whales, jaguars, 
manatees, and a large variety of migratory birds. Specific projects 
have been undertaken to conserve the forest habitat for monarch 
butterflies, jaguar conservation in the Yucatan region, and the 
restoration of the California condor in Baja California.
    Five years ago, the Service established its third regional program 
with the Russian Federation. During this period, there were 54 wildlife 
conservation grants approved, 58 conservationists were trained, 38 
habitats and ecosystems were addressed, and $461,000 in Federal funds 
were distributed. With over 6.5 million square miles, the Russian 
Federation provides essential habitat for a number of imperiled species 
including Amur tigers, polar bears, saiga antelope, Siberian cranes, 
and snow leopards. In addition, under this program, more than one 
million bird bands were distributed throughout Russia and more than 
2,000 surplus uniforms were donated for use by Russian conservation 
staff.
    Finally, just three years ago, the Service initiated efforts to 
create a regional program in Africa which is home to many of the 
world's most spectacular species and diverse ecosystems. To date, the 
Service has financed 13 grants which have been financed by over $2 
million in Federal and non-Federal matching money. The Service is also 
starting efforts to build regional efforts in China and India.
The Global Program
    The third component of Wildlife Without Borders is the Global 
Program. At this point in time this is a relatively small program, but 
as I stated earlier, I believe this program component has tremendous 
potential for the future. In Fiscal Year 2008, it is my understanding 
that the Service funded only nine projects costing the taxpayers just 
over $518,000.
    These projects have been designed to conserve some of the world's 
most endangered species, to strengthen the communication and 
cooperation among nations striving to conserve migratory species of the 
Western Hemisphere, to assist governments in international wetlands 
conservation under the RAMSAR Convention, and to address ongoing 
wildlife crises such as the bushmeat trade in Africa.
    The Global Program has the tremendous potential to address several 
critically important global conservation needs of cross-cutting 
significance such as capacity building and strengthening collaboration 
with developing institutions. Given the world we live in, these are 
particularly important short-comings at this time.
    In the light of the growing needs as highlighted in H.R. 3086, 
particularly in developing countries, now is the time to reflect on the 
role of the Wildlife Without Borders Program, as administered by the 
U.S. Fish and Wildlife Service in conserving wildlife and habitat 
around the world for future generations.
H.R. 3086
    While I strongly support the Findings and Purposes of H.R. 3086, I 
have serious concerns about the scope of the legislation and the 
impacts it might have on existing programs and activities, not only 
within the Department of the Interior but also across and within other 
Agencies and Departments as well. This legislation creates, out of 
whole cloth, a bureaucratic structure with unrealistic goals and 
timeframes that will, I believe, cause the redirection of already 
scarce resources and the dilution of incredibly important existing 
programs. I would also suggest that as written, this legislation may 
actually impede progress already being made under the Wildlife Without 
Borders Program.
    The history of Wildlife Law in this country is the history of well-
meaning laws and regulations that have been layered on the federal 
agencies and citizenry of this country, often without adequate 
consideration of their consequences. This is too important an 
opportunity to make the same mistake again and I strongly urge the 
Subcommittee to carefully consider the consequences of this legislation 
at this time.
    I note that the Findings and Purposes of H.R. 3086 closely mirror 
the Findings and Purposes of the Wildlife Without Borders authorization 
currently pending before this Subcommittee and ask that you consider 
whether the purposes of this overall legislative effort might be better 
met through a focused expansion of that program. Therefore I do 
support, with appropriate changes, the authorization of the Wildlife 
Without Borders Program as well as the establishment of the Global 
Wildlife Conservation Advisory Committee. I would urge the Subcommittee 
to turn its attention to the authorization and expansion of the 
Wildlife Without Borders Program and suggest that in that context you 
consider how the broader purposes of H.R. 3086 might be met.
    So as not to abandon the laudable objectives of many of the 
sections of H.R. 3086, I suggest the Subcommittee also consider 
establishing the Global Wildlife Conservation Advisory Committee as a 
way of addressing the feasibility, practicality and implications of 
some of the more expansive sections in the legislative package before 
the Subcommittee today. For the most part, I believe the sections of 
H.R. 3086 that cannot be appropriately addressed through the activities 
of an Advisory Committee could actually be addressed within the 
Wildlife Without Borders Program itself. As is always the case, the 
ability of the Program to address such efforts will likely be a 
function of the availability of appropriated funds.
Summary and Conclusion
    In the letter of invitation to appear today, the Subcommittee asked 
four critical and related questions. While it is my intent that my 
testimony will have addressed those questions, specific acknowledgement 
and response to those questions may provide some context for the 
Subcommittee to consider where it may wish to go from here with these 
important matters. I believe that the importance of providing technical 
assistance, building capacity and coordinating with range states as 
part of a strategic global wildlife conservation effort is critical. I 
also believe that a good framework to provide such assistance exists 
but could be substantially expanded.
    Regarding the question of the feasibility and implications of 
increased coordination between Federal, State and non-governmental 
entities involved in wildlife conservation, I believe there are many 
complexities and issues here and that the tradeoffs need to be 
carefully considered. I don't believe that H.R. 3086, as drafted, 
adequately considers the tradeoffs and complexities inherent in such an 
effort.
    Concerning the ways in which the U.S. may improve the effectiveness 
and efficiency of its global wildlife conservation efforts, I believe 
that the best way to do this is through the specific authorization of a 
sufficiently funded Wildlife Without Borders Program. This program has 
developed over many years and its success is a tribute to the 
dedication of a dedicated partnership of governmental and non-
governmental conservationists.
    Hopefully in the course of this testimony I have answered your 
questions regarding H.R. 3086, but if not I look forward to answering 
any additional questions you may have. Thank you, Chairwoman Bordallo, 
for the opportunity to testify before your Subcommittee on these 
important matters.
                                 ______
                                 

  Response to questions submitted for the record by J. Craig Potter, 
     International Wildlife Lawyer, Law Offices of J. Craig Potter

Questions from Chairwoman Madeleine Bordallo (D-GU)
1.  You and other witnesses expressed concerns with the new 
        organizational structures authorized in H.R. 3086. However, 
        there appeared to be little disagreement among the witnesses 
        regarding the principal objectives of the bill (i.e., greater 
        coordination within the Department of the Interior and with 
        other relevant Federal agencies; expanded public outreach and 
        education regarding the illegal trade in wildlife and wildlife 
        products; authorization of the Wildlife Without Borders 
        Program; expansion of training opportunities, especially for 
        law enforcement capabilities in range states; greater 
        collaboration with non-Federal NGO stakeholders, especially 
        utilization of technical and educational assets within the zoo 
        and aquarium community, etc.). How might you suggest the bill 
        be amended to clean up the purported organizational clutter 
        while maintaining the principal objectives?
    Response: As I suggested in my oral testimony, I think most of the 
purposes of H.R. 3086 could be well addressed by authorizing The 
Wildlife Without Borders portion of the bill and establishing an 
Advisory Committee to carefully consider and advise the Secretary as 
well as the Fish and Wildlife Service (``FWS'') regarding some of the 
other functions suggested in the bill. How you might separate these 
functions, however, should be carefully considered.
    For example, consideration should be given to moving some of the 
functions in H.R. 3086 directly to the Wildlife Without Borders Program 
(``WWB''), including possibly: 1) the development of an International 
Conservation Action Plan; 2) the implementation of Sections (a) and (b) 
of the Public Outreach, Education and Wildlife Awareness Program; 3) 
studying the feasibility of implementing section (e) of the Center for 
International Wildlife Recovery Partnerships Program, and; 4) the 
development of an Enhanced Approach to Law Enforcement.
    Regarding the Advisory Committee, I would suggest that 
consideration be given to using that committee to: 1) look carefully at 
the need for an Institute, with particular emphasis on whether it is 
advisable or necessary to split functions away from the FWS to achieve 
the objectives of the Act; 2) look carefully at the concept of 
International Wildlife Conservation Fellowships as part of an expanded 
Public Outreach Program, recognizing that Wildlife Without Borders 
could already be pursuing the general programmatic and educational 
outreach objectives of Sec.122 (a) and (b); 3) look carefully at the 
concept of a Center for International Wildlife Recovery Partnerships 
Program, including all of the functions described in sections (a)-(d), 
recognizing that Wildlife Without Borders could already be considering 
the establishment of an Emergency Rehabilitation and Recovery Grant 
Program under Sec 123 (e); 4) look carefully at the feasibility and 
advisability of establishing an International Wildlife Conservation 
Fund; 5) look carefully at the potential for Enhancing Law Enforcement 
Activities, recognizing that Wildlife Without Borders could already be 
pursuing this objective with the cooperation of others within FWS or 
perhaps even within other agencies, both within DOI as well as 
elsewhere, and; 6) look carefully at the feasibility and advisability 
of establishing a Global Wildlife Coordination Council. In the absence 
of an Institute, the Advisory Committee should be established by the 
Director of the Fish and Wildlife Service or possibly by the Assistant 
Secretary for Fish and Wildlife and Parks (``AS/FWP''). Either way, the 
Advisory Committee should be staffed by FWS and should make specific 
recommendations to the Secretary consistent with the broader purposes 
of a revised bill.
2.  Recognizing that there will likely never be sufficient Federal 
        appropriations to address all identified needs it is important 
        that we utilize the contributions of non-Federal stakeholders. 
        Do you agree? Are there additional ways to formally incorporate 
        these capabilities beyond the grant programs authorized under 
        the Multinational Species Conservation Fund? Do you support the 
        creation of the Global Wildlife Conservation Advisory Committee 
        in H.R. 3086?
    Response: I do agree that the contributions of non-Federal 
stakeholders should be utilized whenever possible, but not at the 
expense of other worthy and in some cases competing efforts by those 
non-Federal stakeholders. The key, it seems to me, is to increase the 
size of the pool of contributions available to address identified 
needs, which underscores that the identified needs and the Federal role 
in all of this should be carefully considered.
    As I mentioned in my oral testimony, use of the National Fish and 
Wildlife Foundation (``NFWF'') to formally incorporate these 
capabilities should be considered. I realize that Section 132(d) of 
H.R. 3086 establishes an administrative linkage with NFWF, but it may 
be possible or even advisable to use the Foundation for these purposes 
regardless of whether an International Wildlife Conservation Fund is 
established. If it were deemed inadvisable to use NFWF directly, the 
NFWF model could be useful in establishing a separately chartered 
International Fish and Wildlife Foundation.
    As indicated in my answer to question #1, I do support the 
establishment of the Global Wildlife Conservation Advisory Committee.
3.  Do you support the establishment of an International Wildlife 
        Conservation Fund in the Treasury to provide a means for the 
        Secretary of the Interior to accept and utilize gifts and 
        donations? In order to ensure that there is no potential for 
        conflict of interest, should such a fund be managed by 
        agreement through a non-Federal entity such as the National 
        Fish and Wildlife Foundation?
    Response: I support the concept of such a fund, but as suggested 
above, I think the establishment of this fund at this time would be 
premature. In my opinion, we need to make certain the Wildlife Without 
Borders Program is authorized and adequately funded before we turn our 
attention to the establishment of a new international fund. I'm not 
sure I understand the potential for a conflict of interest, but as 
indicated above, if such a fund were established, I think consideration 
could be given to administering it through the NFWF.
4.  Dr. Monfort testified that the Smithsonian Institution has recently 
        created a Conservation Biology Institute whose program 
        activities are quite similar to the activities proposed for the 
        Center for International Wildlife Recovery Partnerships in H.R. 
        3086. Would it make sense to amend the bill to direct the 
        Secretary and the Smithsonian, through a cooperative agreement, 
        to develop a partnership to incorporate these capabilities and 
        the capabilities of the zoo and aquarium community at large, to 
        enhance U.S. international wildlife conservation capabilities? 
        If you disagree, please explain why?
    Response: Several institutions within the zoo and aquarium 
community have programs, some of them long-standing, that are quite 
similar to the Conservation Biology Institute mentioned by Dr. Monfort. 
An example of such a program that has been in existence for many years 
is the Institute for Conservation Research (``ICR'') which was formerly 
the Center for Reproduction of Endangered Species (``CRES'') at the 
Zoological Society of San Diego's Wild Animal Park. The ICR already 
administers and operates a wide variety of conservation programs 
employing some 130 people in virtually all of the areas being 
considered by the Smithsonian.
    As was also mentioned in Dr. Monfort's written statement, a 
consortium of land-holding institutions within the zoo community has 
already formed the Conservation Centers for Species Survival (``C2S2'') 
to work specifically with the FWS to look at many of these same issues. 
Without understanding how and why these capabilities need to be 
coordinated better than they are now, I think it would be premature to 
mandate a role for the Smithsonian or any other zoological institution 
to incorporate or coordinate the capabilities of the zoo and aquarium 
community at large into this effort.
Questions from Ranking Republican Member Henry E. Brown, Jr. (R-SC)
1.  At the hearing, you were asked if more could be accomplished for 
        wildlife conservation if we bolster existing programs instead 
        of creating a new Institute and Center, as H.R. 3086 would do 
        if enacted. Can you give some example of programs that should 
        be enhanced with new legislative authorities and which may be 
        in need of additional funding?
    Response: In my opinion the existing programs that need to be 
supported in order to enhance wildlife conservation as envisioned in 
H.R. 3086 are those within the Wildlife Without Borders Program. In my 
written statement I summarized the excellent track records of the 
Species Program, the Regional Program and the Global Program in 
leveraging Federal dollars and I feel strongly that enhanced funding in 
all of these programs would get the biggest conservation return at this 
time.
    As indicated in my answer to question #1, above, I also feel that 
if the Subcommittee decides to pursue the purposes of Sections 122 and 
123 of the existing version of H.R. 3086, it should consider 
transferring the General and Educational Outreach components of Section 
122 as well as the Rehabilitation and Recovery Grant component of 
Section 123 to the Wildlife Without Borders Program. If the 
Subcommittee should decide to transfer these additional 
responsibilities to the Wildlife Without Borders Program, I would also 
recommend transferring the Authorization of Appropriations in both 
cases (or whatever portion of those authorizations that are deemed 
appropriate) to the Wildlife Without Borders Program to fund these 
additional efforts. The possible need for the other components of these 
two sections could then be carefully reviewed by the Advisory 
Committee.
2.  You recommend keeping the Global Wildlife Conservation Advisory 
        Committee created in H.R. 3086. The bill would have the new 
        Institute Assistant Director establish the Committee. Would you 
        recommend that this authority be given to the Director of the 
        Fish and Wildlife Service or another entity in the Department 
        of the Interior?
    Response: I cannot think of a more appropriate authority within 
Department to carry out this responsibility than the Director of the 
Fish and Wildlife Service unless it might be the AS/FWP. Unfortunately 
the AS/FWP has not really engaged on these issues thus far and even if 
that office were to take on this responsibility it would probably have 
to be staffed by FWS.
3.  Do you agree with the Mr. Robert's recommendation that no Institute 
        employees (or agency employees) should be on the Advisory 
        Committee?
    Response: I do agree with Mr. Robert's recommendation in terms of 
the Advisory Committee itself, although I think it would be perfectly 
appropriate and probably even preferable for Agency personnel to be 
involved in managing and coordinating the activities of the Advisory 
Committee.
4.  What is your view of the Global Wildlife Coordination Council? Is 
        it necessary or are existing federal coordination efforts 
        sufficient? If existing federal coordination efforts should be 
        enhanced, how should it be done?
    Response: While I don't feel existing Federal coordination efforts 
are sufficient, I think the establishment of a Global Wildlife 
Coordination Council at this time would be premature. In general, I 
think the establishment of such a Council may have great value, but I 
fear that in the absence of a clearer understanding of how the duties 
and responsibilities of the Council will actually be carried out and 
given the immense scope of the immediate responsibilities of the 
Cabinet Members involved, it is very likely this effort might be wasted 
at this time.
    In my opinion, the first step here should be to have the Advisory 
Committee look carefully at this issue. I also feel that the benefits 
of such a Council are likely to take shape more meaningfully following 
the passage and implementation of new legislation. The Subcommittee may 
want to take a look at the possibility of extending provisional 
authority to establish such a Council depending upon the results of 
review by the Advisory Committee and after further consideration by the 
Secretary.
5.  You discuss the necessity of providing technical assistance, 
        building capacity, and coordinating with range states as part 
        of a strategic global wildlife conservation effort. How would 
        you expand the existing framework to make it more successful?
    Response: If the watchword is success, I would begin by funding the 
Wildlife Without Borders Species Programs more adequately. These 
programs have already identified keystone species living in critical 
habitats around the planet. As presently structured they provide the 
opportunity for congressional oversight and an expanding species-based 
framework that increasingly and unavoidably must consider the role of 
habitat.
    We have been learning for some time now that for conservation to be 
truly effective it must be pursued on a larger scale within broader 
boundaries defined by natural landscapes and viable ecosystems. As we 
learn more about how to address our own conservation needs in the U.S. 
we are developing tools and skills that are directly applicable to the 
problems that are being encountered in range states. Transfer of these 
capabilities through capacity building and the provision of technical 
assistance is critical, but it must be done in a way that is consistent 
with the actual needs, capabilities and desires of those being given 
assistance.
    In terms of actually expanding the existing framework to make it 
more successful, a critical key from my perspective is the expansion of 
the Regional and Global programs of WWB. Looking at the broader 
purposes of H.R. 3086 it seems evident to me that many of these 
purposes could fit well within expanded Global and Regional programs. I 
have previously mentioned the direct transfer of some of the components 
of H.R. 3086 to WWB and consideration should be given to using those 
components to expand the existing framework of the Regional and Global 
Programs of WWB.
    At the risk of opening a can of worms, I would think about asking 
the Advisory Committee to look at more effective ways to actually 
deliver community-based conservation in range states. It really boils 
down to how habitat is managed sustainably, both economically and 
biologically. Some of the witnesses at the hearing suggested this can 
be done relatively easily and cheaply in range states but the 
experiences of many NGOs with lots of money over many years tells me 
that is not always the case. The need for effective partnerships here 
is critical and this is one of the key reasons to emphasize global and 
regional coordination among a variety of stakeholders.
6.  Why do you believe that ``much of the hope for the future of this 
        program rests with the Regional and the Global Programs''?
    Response: In my opinion the broader scope necessary to address the 
health, sustainability and species interdependence of landscapes and 
ecosystems mandates that the future of the Wildlife Without Borders 
Program must evolve, if it is to evolve in any significant way on a 
regional and global basis. The hallmark of the Species Program has been 
the ability to identify and respond to specific and in many cases 
emergency needs of critically threatened species around the planet. 
Central objectives of the regional and global programs should be to 
address broader problems such as climate change, human-wildlife 
conflict, the need to build local human and institutional capacity and 
the need to expand outreach and education to regional and global 
stakeholders. These objectives are in many ways remarkably similar to 
those of H.R. 3086 and they are what I was referring to when I 
expressed my feelings about the future of this program.
    In the long run I believe the Regional and Global Programs have the 
potential to more effectively deliver more broad-based conservation 
benefits than the more traditional local grants approach of the Species 
Program. Some of these programs are already being developed within FWS. 
Examples include the MENTOR program, supporting a team of African 
nationals to address the bushmeat crisis in East Africa and the Western 
Hemisphere Migratory Species Initiative which has as its purpose the 
establishment of a hemisphere-wide cooperative involving governments 
and NGOs to address the problems faced by migratory species. These 
could be just the tip of the iceberg, but they are, in my opinion the 
hope for the future of this program.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Potter. Now, I will 
recognize the Members for any questions they may wish to ask, 
alternating between the majority and the minority, and allowing 
five minutes for each Member, and if you have further 
questions, we may go a second round. I will begin with Ms. 
Derek.
    These questions are, I think, very generic. How can the 
United States maintain its leadership role in international 
wildlife conservation? Do you have any specific ideas?
    Ms. Derek. I really, in the time that I have spent on this 
issue and in my travels in an official capacity, I really think 
that the best results have been a combination of the U.S. 
Government support and NGO's. I think that their knowledge in 
the field on the ground and in the communities is vital, and I 
think it is the best way our tax dollars get spent on these 
important issues.
    Ms. Bordallo. Very good. Why is it important to increase 
public awareness among United States consumers regarding the 
illegal trade of wildlife?
    Ms. Derek. Well, as an American, I was surprised that we 
were number two in consuming endangered wildlife, and I believe 
that so much of that is a lack of education. I think that most 
citizens would not consume these animals if they only knew, and 
I think that there are a variety of ways to educate them, and I 
think it is vital. I think that we could solve the problem 
without getting more involved in law enforcement and 
prosecution if we would just use education.
    Ms. Bordallo. Education. How has WildAid demonstrated that 
public awareness campaigns can change consumer behavior? What 
have you done in that area?
    Ms. Derek. Our campaigns very much resemble mainstream 
commercial advertising. The production is very expensive, and 
we use pop icons from around the world especially targeted to 
those countries where the consumption of endangered wildlife is 
a problem.
    So, for instance, in China, we have Jackie Chan, Yao Ming, 
and virtually all of the Olympic athletes. We had a very big 
campaign during the 2008 Olympics; and we were reaching, 
through free air space, sometimes a billion people a week. It 
is highly effective, and it is my opinion, having been the 
object of the media at one time in my life, that when you take 
someone who is so popular and iconic in a culture, and you have 
them say that this is not appropriate to consume these 
products, I think it is more effective than any legislation or 
enforcement.
    We just did a study in China, and 55 percent of the 
population remember our campaigns and, in some questions, up to 
80 percent said that they would not eat shark fin soup again.
    Ms. Bordallo. Well, I tend to agree with you on that, using 
noted personalities and so forth. What is the size of your 
organization? What are the numbers?
    Ms. Derek. It is very small but highly effective.
    Ms. Bordallo. Highly effective and very small.
    Ms. Derek. I joined this organization because I meet a lot 
of people, very dedicated, wonderful people, regarding this 
issue, and they are very good at defining the problem, and 
WildAid had a solution that I could truly understand, so that 
is why I personally got involved with this.
    Ms. Bordallo. Are you represented in all of the states in 
the United States and other countries?
    Ms. Derek. Mainly international, yes.
    Ms. Bordallo. Mainly international.
    Ms. Derek. Yes.
    Ms. Bordallo. All right.
    Ms. Derek. We would like to get more involved in this 
country with the public awareness and education. I think our 
Harrison Ford piece and some of our athletes that we have used 
in some of our PSAs will be very beneficial.
    Ms. Bordallo. Well, persons like yourself would be able to 
develop this, I am sure, and to expand the organization.
    Ms. Derek. Yes.
    Ms. Bordallo. Thank you, thank you. I have two questions 
for Dr. Gould.
    Aside from the Administration's stated objections to the 
organizational reshuffling, does the Administration support the 
goals and activities of the bill, especially increased public 
outreach in education, increased emphasis on professional 
conservation training here and abroad, and greater cooperation 
and coordination with nongovernmental stakeholder 
organizations?
    Dr. Gould. I can answer that question in a very concise 
way: yes.
    Ms. Bordallo. Yes. Good.
    Dr. Gould. It is important to recognize that the Fish and 
Wildlife Service, as has been indicated by the panel here, 
works very closely with NGO communities and with international 
entities. We have always recognized the fact that these kinds 
of partnerships, outreach, training, appropriate law 
enforcement activities, coordination and cooperation is the 
best way to get to where we want to be collectively.
    Everybody in this room supports international wildlife 
conservation, and we are all kind of on the same page, and I am 
delighted to point out that all of those entities that you 
pointed out are cornerstones for effective partnerships to get 
to be the basis of eventually a law that will be very effective 
in international conservation activities.
    Ms. Bordallo. Good. I guess, then, it would be safe to say 
that just the organizational reshuffling is a little concern to 
you.
    Dr. Gould. Yes. The organizational issue is a major concern 
for us. As you are probably aware, we have CITES functions; the 
National Park System, due to their Organic Act, has some very 
legitimate activities in international wildlife conservation; 
the Department of the Interior has the USGS, which is very, 
very active in international conservation, both from a 
scientific perspective and from a technical-assistance 
perspective. There are lots of programs out there based on 
their own authorities and their own ``Organic Acts,'' so to 
speak, are legitimate activities that need to be recognized in 
a broader conservation law that takes this whole international 
conservation effort forward.
    Ms. Bordallo. Well, perhaps it is just too strung out, and 
we need really to bring it all together, and I think this can 
be worked out. So we look forward to working with you and your 
Department.
    Dr. Gould. The Administration looks forward to working with 
you further.
    Ms. Bordallo. How does the Service handle confiscated wild 
and endangered animals, and could that process be simplified 
and improved by formal partnerships with veterinary, 
zoological, and aquarium facilities?
    Dr. Gould. I would have to turn to my experts behind me.
    Ms. Bordallo. You can step forward.
    Dr. Gould. Can I have Benny Perez, our Chief of Law 
Enforcement, with your permission?
    Ms. Bordallo. If you could introduce yourself for the 
record and just answer that question, please. Yes.
    Mr. Perez. Good afternoon, Madam Chairwoman. I have been 
here before.
    We have six various regulatory authorizations to dispose of 
wildlife, including converting it to our own use, eventual sale 
of legitimate items for sale, destruction, and returning to the 
wild. All of that is codified in Regulation 50[c] of FAR Part 
12. We have a National Property Repository in the Denver area 
where we do stockpile a lot of the material that we seize that 
is utilized for some of the training that we deliver, the 
training of our own personnel, and then availability for a 
variety of uses. At some point, we make a determination as to 
the best use of that stuff, including disseminating it under 
our Suitcase for Survival program that we provide to elementary 
schools with a training module. Those items are used to further 
the conservation message within the U.S.
    Ms. Bordallo. Thank you very much.
    Now, I would like to ask our Ranking Member, Mr. Brown, if 
he has any questions, to please proceed.
    Mr. Brown. Thank you, Madam Chair, and thanks to the 
witnesses all for being so informative.
    My question is to Mr. Potter and, Dr. Gould, you might want 
to add in on this, too, and any other members of the panel 
equally. In your testimony, you stated that H.R. 3086 may 
actually impeded progress already being made under the Wildlife 
Without Borders program. Do you believe H.R. 3086 could 
diminish the funding available to the existing programs?
    Mr. Potter. I think that is possible, Mr. Brown. I think 
that is one of the issues that the Subcommittee needs to take 
into consideration, and I think that a number of points have 
been made here about the unfunded mandates issue. If some of 
the programs and reports are required to be done under this 
legislation, presumably those may have to be done by the 
existing staff of the Fish and Wildlife Service. That is not 
clear at all in the bill, and so that would be a concern that I 
would have, yes.
    Mr. Brown. Dr. Gould, do you want to weigh in on that?
    Dr. Gould. Yes, I do. Right now, the international 
conservation work that we do in the Fish and Wildlife Service 
is maxed out in terms of the amount of money we have to do the 
work we are doing. Much more could be done, obviously. If we 
were to add increased infrastructure, including many advisory 
groups that may be redundant to the kind of CITES advisory 
groups already in place, it would require a diversion of 
resources that we would have to take from somewhere. 
Unfortunately, that ``somewhere'' would be some very effective 
programs in the Wildlife Without Borders program, and we would 
not like to see that happen.
    Obviously, if we work together and minimize unnecessary or 
better overlapping infrastructure, we could more effectively 
use the resources we have available right now.
    Mr. Brown. Let me add further to that question. Would it be 
correct to state that you believe more could be accomplished 
for wildlife conservation if we bolstered the existing program 
instead of creating a new institute and center, as H.R. 3086 
does?
    Dr. Gould. Yes, sir.
    Mr. Brown. Mr. Potter?
    Mr. Potter. Yes. I agree with that, and to augment the 
point that was made by Rowan, I think one of the things that 
H.R. 3086 offers you the opportunity to do is to really look at 
the costs here and think about what needs to be done, and that 
could be done under the aegis of an advisory committee in 
concert with the expansion of our authorization of Wildlife 
Without Borders.
    Mr. Brown. Would any other members of the panel like to 
chime in? Have you got an opinion on it, anybody?
    Dr. Wasser, my question is to you. What impact has the 
African Elephant Conservation Act had on conserving this 
flagship species, and are the right grants being issued by the 
U.S. Fish and Wildlife Service?
    Dr. Wasser. I think the Elephant Conservation Act has been 
extremely effective. I think that they are utilizing their 
money very, very effectively. It is an extremely important 
mechanism to get funding to outside nations, as well as to 
include scientists, such as myself, to be able to develop 
methods that can be very effective and can nurture 
collaborations between other countries and the Fish and 
Wildlife Service.
    Mr. Brown. Ms. Derek, in your statement, you recognized 
that there are concerns with aspects of the bill. Would you 
support authorizing only the Wildlife Without Borders program?
    Ms. Derek. I would have to discuss this with some of the 
witnesses, I think, for me to have a concrete opinion on that.
    Mr. Brown. But that is your number-one program, isn't it?
    Ms. Derek. Yes.
    Mr. Brown. OK. Thank you, Madam Chair.
    Ms. Bordallo. I thank the Ranking Member, the gentleman 
from South Carolina, Mr. Brown, and now I would like to 
recognize the gentlelady from the Virgin Islands, Mrs. 
Christensen.
    Mrs. Christensen. Thank you, Madam Chair, and I want to 
also thank the witnesses for their testimony. It is really very 
informative as I read through it. I want to also commend our 
Chairwoman for her efforts to stop the illegal trafficking of 
wildlife and the adverse impact it has on a variety of habitats 
and eventually on all of us.
    My first question is around the institute. I want to 
understand the need for the institute, so maybe I will start 
with Ms. Derek and Mr. Roberts on this.
    What is it that the institute would do that the Department 
of the Interior and the Service is not doing or cannot do?
    Mr. Roberts. You are asking me to provide a rationale for a 
part of the bill that is not our highest priority from the 
point of view of WWF.
    Mrs. Christensen. OK.
    Mr. Roberts. Certainly, from our point of view, the 
essential thing is to strengthen the existing programs but also 
to strengthen coordination between them. It appears there are a 
variety of ways to strengthen coordination.
    Our plea is to simplify rather than to complicate, to 
coordinate without complications, and to simplify the 
administration of this program, which means relying as much as 
possible on existing programs and making sure that the 
financing, to the greatest extent possible, is managed by the 
Fish and Wildlife Service itself.
    So you are asking me to provide a rationale for something 
that is not the core of the bill that we support at this point 
in time.
    Mrs. Christensen. Ms. Derek, did you want to add?
    Ms. Derek. I would agree with Mr. Roberts. I think that 
unless it can enhance the work that is already being done by 
the Fish and Wildlife, I do not think it is at the core either.
    Mrs. Christensen. OK. I wondered about that. So maybe, in 
part, you have answered my next question. I have worked with 
the Coral Reef Task Force, and the council seems to be modeled 
on that, and the Coral Reef Task Force has been very effective.
    Let me go to Dr. Gould first. Since you are supporting 
codifying the Wildlife Without Borders, what about the council, 
in your opinion, and if it is in your testimony, I apologize; I 
did not get a chance to read all the way through it.
    Dr. Gould. Well, the proposed creation of the Global 
Wildlife Coordination Council is also of some concern. As 
written, the creation of this body would appear to diminish or 
conflict with legal authorities that have already been 
delegated to the Department and the Service by codifying an 
oversight role in other departments. So those are problems that 
need to be worked through. We absolutely support coordination 
and cooperation, but this particular structure could be 
problematic for those reasons.
    Mrs. Christensen. Did anyone else want to talk to the 
importance of the council in the bill? Mr. Roberts, is that 
something that is one of the core parts you support?
    Mr. Roberts. The council, in and of itself, seems like a 
perfectly worthwhile idea, bringing together different agencies 
with interests in wildlife. It is interesting. I have another 
meeting following on the Arctic. When you look at all of the 
different parts of the U.S. Government that touch conservation 
and wildlife, certainly coordination is essential, and having 
like mechanisms to make that happen are essential. In the case 
of the Arctic, it is of interest to Interior, to the State 
Department, to the White House, to the Navy, to Fish and 
Wildlife, and more.
    Having mechanisms for the U.S. Government to come together 
with coordinated, coherent planning is essential, particularly 
because, in a lot of parts of the world, the conservation of 
wildlife, the rule of law, sustainable use of resources is as 
much a security issue, as much an issue of development, as it 
is a conservation issue, per se. So having a mechanism to bring 
together the intelligence of the U.S. Government in a 
concentrated way, particularly as it relates to these programs, 
is important.
    Mrs. Christensen. Thank you. My time is up. Thank you, 
Madam Chair.
    Ms. Bordallo. I thank the gentlelady from the Virgin 
Islands. I have a couple of questions for Dr. Roberts.
    Could the U.S. Government be doing a better job of giving 
organizations like your own a seat at the table when it comes 
to the creation and execution of an international conservation 
strategy?
    Mr. Roberts. We at WWF, and also the wildlife trade 
monitoring program we call TRAFFIC that we created with IUCN, 
have been grateful for the partnership we have had with the 
U.S. Government which goes back many decades. Could it be 
stronger? Sure. Are we complaining? No.
    We have such a close partnership with government agencies, 
and there is such a track record of success in places like the 
Congo and Africa with particular species, in the Terai Arc in 
Nepal, which is a centerpiece. Actually, there is an exhibit in 
the National Zoo which talks about this partnership 
conservation effort in the Terai Arc in Nepal. So we are 
grateful that the bill emphasizes those partnerships, and if 
makes them stronger, great.
    Ms. Bordallo. Thank you.
    Mr. Roberts. I have one last point. I am sorry.
    Ms. Bordallo. Yes. Go ahead.
    Mr. Roberts. The other thing which is true is that for 
every dollar which is expended through Fish and Wildlife, in 
partnership with NGO's and the like, those dollars are 
multiplied sometimes fivefold, and so it is only smart for the 
government to encourage such partnerships because not only are 
we able to bring expertise and a global reach, but also we are 
able to bring financing from other sources to bear on the 
problem.
    Ms. Bordallo. I have another question for you, Dr. Roberts. 
How can the structures created within this particular bill be 
changed to better achieve the intent of greater coordination 
and cooperation within the Department of the Interior and among 
U.S. agencies in international wildlife conservation efforts?
    Mr. Roberts. That is a great question. Certainly, the first 
order of business would be to make full and best use of the 
structures that currently exist.
    Ms. Bordallo. To make the what?
    Mr. Roberts. The structures that currently exist before 
creating new ones, and I am sure our staff would be happy to 
work with Members of the Committee staff in looking at models 
of how that might work.
    Another point that I have made is the financing of this 
work, to use the Fish and Wildlife agencies as the first 
recourse to finance that work before using other entities. I am 
sure there are a lot of other ideas that we could bring to the 
table and are happy to work with your Committee to bring those 
forward.
    Ms. Bordallo. Well, we are looking forward to it, and that 
is the reason for a hearing, so we can get some of the input 
from you. I am a strong believer in coordinated efforts and 
consolidating. Since I have been a Member of this Committee--I 
do not know--I just asked the staff here--how many 
organizations do we work with? There are over hundreds of them 
some of them with the same purpose when they were organized. So 
it is very confusing, and sometimes you do not get as much done 
when they are just so spread out like that.
    So this is the reason for the bill, and we just want a 
little tighter coordination, and I think it would be much more 
beneficial in the long run.
    Mr. Roberts. Madam Chairwoman, our written testimony 
includes some very specific recommendations----
    Ms. Bordallo. Solutions.
    Mr. Roberts [continuing]. Regarding structure, 
simplification, coordination, so I----
    Ms. Bordallo. Very good. The staff will take a look at 
that.
    Mr. Roberts. Great. Thank you.
    Ms. Bordallo. Dr. Gould, you mentioned the fund established 
in this bill would create a conflict of interest because the 
same nongovernmental organizations that could donate to the 
fund would also be seeking resources from it. Now, why is this 
a concern now? It is my understanding that the current 
multinational species conservation funds allow the same kind of 
thing, and no concerns about conflicts of interest have been 
raised before.
    Dr. Gould. Well, as I understand it, these donated funds 
would also be potentially donated by entities that could come 
under both our regulatory and law enforcement functions or 
oversight, and so it could set up a situation where there might 
be a conflict of interest or some issue that might be looked on 
in a nonethical way. So we are concerned about having a 
structure in place that would put our people in a position of 
working with people that are contributing a lot of money to 
this particular function.
    You have to remember, we do permit a lot of activities in 
terms of trade in pelts. We permit a lot of activity related to 
hunting, trophies. We permit a lot of activity related to legal 
trade within the international community, legal trade through 
CITES, and so on and so forth. So the concern is, whatever 
structure gets set up obviates that potential that people would 
be questioning our role with those folks.
    Ms. Bordallo. So, for the record, Dr. Gould, prior to this 
bill being introduced, you had these concerns, the conflict and 
so forth.
    Dr. Gould. Yes. We have these concerns right now.
    Ms. Bordallo. Thank you. That is what I wanted to hear.
    Mrs. Christensen, you go ahead, and I have two more.
    Mrs. Christensen. It is related to the fund as well, and I 
was wondering if, given the concerns of conflict of interest, 
and I would ask this of anyone on the panel, does anyone have a 
recommendation for how that can be addressed and maybe a 
different structure for the fund or any other way than how it 
is presented in the bill? Is there some other way that we could 
do that and avoid a conflict of interest? Should a foundation 
be set up like the National Park Foundation, if there are any 
suggestions? You can go ahead, Mr. Roberts, if you have one. 
You did not. OK.
    Mr. Potter. I have a thought on that. It strikes me that 
you have a similarity here. You mentioned the Park Fund. The 
National Fish and Wildlife Foundation is an entity that does 
similar work that allows matching activities, and it is an 
entity that is outside the structure of the Interior Department 
but actually started within the structure of the Interior 
Department, and that is something to think about possibly.
    Mrs. Christensen. Thank you, Madam Chair. If there are no 
other answers, that is my only other question.
    Dr. Gould. I would like to make one other point.
    Mrs. Christensen. Sure.
    Dr. Gould. Apparently, the structure that we have right 
now, any donation specifically----
    Ms. Bordallo. Could you speak up a little bit?
    Dr. Gould.--specifically, donations go right into our 
Multinational Species Conservation Fund. It is a very pointed 
activity, and there is little chance that that money--there is 
any conflict of interest that could result from that kind of 
activity. That is a grant program for the five multi-species 
grant programs that we administer.
    The concern is that law enforcement comes under this 
institute, and if there was a general donation to this 
institute for general programs, that could constitute a major 
problem, and that is what I meant by we just do not see a way 
around that problem. I am sure that there are structures that 
we could come up with that would be beneficial, but that is a 
particular problem with this bill.
    Mrs. Christensen. Thank you. Thank you, Madam Chair.
    Ms. Bordallo. I thank the gentlelady from the Virgin 
Islands. I have two questions for Dr. Monfort.
    Why is it important, Doctor, to engage the conservation 
community, especially zoo and aquarium stakeholders, in 
assisting the Federal government in the conservation of 
wildlife?
    Dr. Monfort. Well, as I mentioned in my previous remarks, 
the zoo community consists of more than 200 organizations and, 
collectively, they have a tremendous capacity to help in terms 
of conserving species in a variety of different ways. Species 
recovery programs are one key way.
    Even small zoos can participate in doing recovery programs 
on species like amphibians, for example, where they do not need 
extensive facilities, but they happen to have scientific 
expertise or capacity.
    Larger zoological organizations, the larger ones, like the 
Chicago Zoological Society or the San Diego Zoo, a number of 
other zoos, including the Smithsonian and Bronx Zoo and so on, 
have quite an impressive capacity to do science, capacity 
building, training, and do that on a pretty wide scale already.
    So I think what we are talking about is a resource that 
already exists and is already making a strong contribution but 
that has a much greater potential than is currently being 
exploited, and I think that really relates to the whole issue 
of partnership, the importance of partnership that is outlined 
in the bill, the kinds of partnerships we are working around, 
for example, under the Global Tiger Initiative that we are 
doing, working with other zoos, with World Wildlife Fund, with 
the World Bank, and so on.
    So the zoo community is part of the conservation community, 
and it is open to becoming more involved and more engaged in 
conservation activities, so I think it is a very strong 
constituency on a number of levels that are relevant for the 
bill.
    Ms. Bordallo. Thank you, Doctor. One other question: Is it 
helpful to have a program that authorizes the Secretary to 
reimburse zoos and aquariums for costs related to the care and 
recovery and rehabilitation of injured, sick, or seized 
wildlife, and what limits should there be on such a program? 
Should certain facilities be identified, or should the program 
be available to all facilities?
    Dr. Monfort. There are already a large number of zoos that 
are engaged in wildlife rehabilitation, some that work in 
partnership with the Fish and Wildlife Service and state 
wildlife agencies, so that is something that is already 
ongoing, and I am sure that those zoos with that capacity would 
very much appreciate having the opportunity to recover costs 
related to those activities.
    It is, however, important to recognize there is a limited 
capacity, and the species that are selected for those sorts of 
programs ought to have appropriate conservation prioritization 
put to them. We cannot become a clearinghouse for every animal 
that has been confiscated or recovered, and so for those that 
are of high priority and have conservation value, then that 
would certainly be appropriate, but it is also equally 
appropriate to make sure that any organization involved in 
taking care of these animals is meeting the highest standards 
that we have to offer of animal care.
    I believe we have that under the Animal Welfare Act, but 
even way above and beyond that, we have the ability now, with 
modern zoological practice, to provide really outstanding care, 
and the AZA sets really tight standards, and I would think that 
that would be a good starting point for setting standards for 
organizations that were involved in that kind of work.
    Ms. Bordallo. When you said that the zoos, many of them 
already have this in place, what percentage of the zoos across 
the Nation would you say are carrying on with this?
    Dr. Monfort. I do not know the percentage. Actually, it was 
going around on the director's lists for the last couple of 
weeks. I think it is actually a fairly small percentage. It is 
quite a liability to take on, and you end up warehousing 
animals that take up a lot of space and resources. I think that 
you would see the potential for participation to increase if 
funding were made available.
    Ms. Bordallo. Yes. When you said some of the zoos are 
already, I figured it might be a large majority.
    Dr. Monfort. It is probably a minority, and those zoos are 
taking it out of hide basically to participate in those 
programs, by and large.
    Ms. Bordallo. And then I have two other questions for Dr. 
Wasser. Can you elaborate on some of the broader impacts of 
illegal wildlife trade?
    Dr. Wasser. Yes. I think one of the biggest problems facing 
nations is acquiring hard currency in many of these poor 
countries, and one of the most reliable sources of hard 
currency is their natural resources. So, frequently, natural 
resources are utilized to generate hard currency to keep 
regimes in power, and this has tremendous impacts on 
biodiversity.
    If you look at the effects of the illegal timber trade, 
right now, that is probably one of the most egregious crimes 
going on. This impacts climate change around the world. If you 
look at the ability of forest structure to recover, and you 
consider the amount of poaching of African elephants that is 
occurring in central African forests, which is one of our most 
important sources of carbon capture, and you have elephants 
which disperse billions of seeds annually and, right now, the 
numbers of elephants in that area have gone from 200,000 down 
to numbers probably near 15,000 elephants, the whole forest 
structure is likely to change in the very near future.
    So these are some of the impacts that are likely to happen 
and, as Ms. Derek said, there is also a serious relationship 
between the illegal wildlife trade, especially the bush meat 
trade, and the spread of emergent diseases. So these are all 
very, very serious impacts that will have repercussions over 
the long term, and sometimes they are hard to see in the short 
term.
    Ms. Bordallo. I have another question. Why focus on source 
countries as opposed to consumer countries?
    Dr. Monfort. Well, one of the problems is that if you look 
at the wildlife trade, right now, just the liberalization of 
trade laws to promote global trade has resulted in a situation 
where there are nearly a million containers being shipped 
around the world on practically a daily basis, and Customs is 
able to inspect about one percent of these.
    So when you think about that, plus the fact that these 
crimes are very, very low priority, once the wildlife products 
leave a country, it is virtually impossible to track them 
effectively. We get lucky a couple of times, but most of the 
time it is really a very, very difficult task.
    The source countries can defend their wildlife much, much 
more reliably. They just need tools to direct them to the 
proper sources. They have done it in the past and, relatively 
speaking, it does not take a lot of money. It takes vehicles, 
gasoline, and perhaps some munitions, and really the thought 
that people care, and that will allow you to really contain 
this trade, prevent it from getting into the global market 
where you cannot trace it, and it will thwart the ineffective 
prosecution that is happening in this trade right now.
    Ms. Bordallo. I thank you very much for your answer to 
that, and I want to thank all of the witnesses for their 
participation in the hearing today. Your answers will certainly 
assist us as we go forward with this legislation.
    I want to thank Dr. Gould, Bo Derek, Mr. Carter Roberts, 
Dr. Monfort, Dr. Wasser, and J. Craig Potter for being with us.
    Before we adjourn, I would like to thank one of our staff 
members, our clerk, Megan Maassen, for her dedication and her 
work in this Committee. I have traveled with her to hearings 
throughout the country. This is her last hearing with us today, 
and her abilities, spirit, and smile will truly be missed. So 
let us give her a hand. Megan?
    [Applause.]
    Ms. Bordallo. So if there is no further business before the 
Subcommittee, the Chairwoman again thanks the Members of the 
Subcommittee and our witnesses for their participation here 
this afternoon, and the Subcommittee now stands adjourned.
    [Whereupon, at 2:25 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by John F. Calvelli, 
Wildlife Conservation Society, follows:]

       Statement of John F. Calvelli, Executive Vice President, 
             Public Affairs, Wildlife Conservation Society

    This statement is submitted in support of H.R. 3086, Global 
Wildlife Conservation, Coordination and Enhancement Act and includes 
recommendations that are designed to significantly improve this 
legislation. The Wildlife Conservation Society (WCS) welcomes this 
legislation's establishment of an overarching international wildlife 
conservation program to facilitate broader international coordination 
and enhance conservation efforts at the Department of the Interior. WCS 
applauds the Committee's leadership on this legislation's comprehensive 
attempt to deal with conservation challenges such as habitat loss, 
illegal wildlife trade, climate change and emerging wildlife diseases 
through the authorization of the Wildlife Without Borders program, 
creation of an international wildlife institute, strengthened law 
enforcement and public education to reduce threats to wildlife, 
increased commitment to international wildlife treaty obligations such 
as CITES, support for captive breeding and wildlife recovery; and 
greater U.S. government collaboration in supporting global wildlife 
conservation.
    While H.R. 3086 laces together the many vital components of 
delivering U.S. government assistance to global wildlife conservation, 
WCS remains concerned about this legislation being an unfunded mandate 
for the Department of the Interior without specific mention of 
authorization of appropriations levels for key sections of the bill 
that cover wildlife and landscape conservation. WCS, through its 
economic investment projections for conservation, has been able to 
estimate that for select landscapes such as the Maya Bio Reserve in 
Central America and the Eastern Steppe of Mongolia alone, it would take 
anywhere in the range of $52 million to be able to implement lasting 
conservation strategies that would ensure the biological richness of 
these key landscapes over the next decade. WCS understands that the 
U.S. government cannot undertake the sole responsibility of providing 
conservation assistance globally. However, the cost of implementing a 
meaningful international wildlife conservation program would roughly be 
$100 million annually--$ 50 million each for the Wildlife Without 
Borders regional and global programs (Sec. 121)--which would not take 
into account the investments covering the Multinational Species 
Conservation Funds and the other components of this bill such as 
captive breeding, curbing illegal wildlife trade, delivering 
conservation education, strategic planning for future conservation 
investments and strengthening inter-agency coordination. In the absence 
of these authorization levels, the aspirations of this important 
legislation would fall short of delivering upon its mandate.
    WCS is also concerned about the proposed delegation of management 
authority of the International Wildlife Conservation Fund (Sec. 132) to 
the National Fish and Wildlife Foundation. While recognizing the 
contributions of NFWF to date, WCS believes the traditional 
responsibility of investing and reinvesting federal funds or accepting 
donations for the Fund must remain within the federal government. 
Existing U.S. Fish and Wildlife Service international programs are 
administered by the Secretary of the Interior in concert with the 
fiduciary role of the Secretary of the Treasury. It is recommended that 
these functions not be altered by this legislation.
    WCS is supportive of enhancing greater coordination (Sec. 201) 
between federal agencies that would elevate wildlife conservation 
through the highest ranks of the U.S. government while recognizing that 
this legislation needs to further clarify the role and purpose of each 
federal agency in order for an effective coordination model to work. 
The international conservation community currently benefits from modest 
levels of funding transferred via inter-agency mechanisms. For example, 
the U.S. State Department and U.S. Agency for International Development 
have regularly supported the work of the U.S. Fish and Wildlife Service 
on central African great ape conservation through the Congo Basin 
Forest Partnership (CBFP) and the Central African Regional Program for 
the Environment (CARPE). It is recommended that such examples of inter-
agency coordination that have delivered invaluable support to 
conservation on the ground are strengthened. It is also recommended 
that H.R. 3086 include provisions to clarify that the Secretary of the 
Interior remains a convener of a global wildlife coordination council 
and does not diminish the role of other federal agencies whose primary 
role is to advance U.S. foreign policy and assistance.
    WCS recommends that H.R. 3086 include regional pilot projects in 
the U.S. monitoring wildlife in large ports of entry to curb illegal 
wildlife trade and address health risks posed to humans, wildlife and 
local ecosystems. The pathogens that affect wildlife have, in many 
cases, destabilized trade and caused significant economic damage that 
have exceeded an estimated $100 billion in losses to the global economy 
since the mid-1990s. With increased international travel and trade and 
threats such as climate change affecting both wildlife and humans, 
monitoring wildlife at ports of entry for illegal trade and potential 
health risks will help us predict where trouble spots will occur and 
plan how to prepare for them. These efforts would complement the 
increased education and law enforcement capabilities that this 
legislation proposes.
    While WCS applauds this legislation for providing incentives to 
organizations caring for rescued animals (Sec. 123), we remain 
concerned about the status of confiscated and rescued animals. 
Oftentimes, monitoring large ports for wildlife trade and disease 
result in confiscation of thousands of wildlife species. As an 
institution constantly called upon by law enforcement and quarantine 
authorities in the New York metropolitan area to care for confiscated 
animals, WCS is confronted with this responsibility on a weekly basis. 
This responsibility has significant impacts on the conservation value 
of a species and management of additional species in our collections. 
It is recommended that this legislation clarify that captive breeding 
of rescued or confiscated animals not be incentivized.
    The Department of the Interior plays a pivotal and catalytic role 
in global wildlife conservation. H.R. 3086 will help develop new 
relationships and strengthen existing ones through increased 
collaboration among U.S. Government agencies. WCS stands in support of 
any U.S. government investment made for global conservation and 
continues to remain committed to leveraging financial assistance 
through private, corporate and philanthropic sources. WCS looks forward 
to working with the Committee to strengthen this legislation for 
effective and efficient implementation of on the ground global wildlife 
conservation programs.
                                 ______
                                 
    [A statement submitted for the record by Hon. Craig Manson, 
Former Assistant Secretary of Interior, follows:]

   Statement submitted for the record by The Honorable Craig Manson, 
 Former Assistant Secretary of Interior, Now Distinguished Professor & 
 Lecturer in Law, Capital Center for Public Law and Policy, University 
                 of the Pacific McGeorge School of Law

    Chairwoman Bordallo, Ranking Member Mr. Brown, and distinguished 
Members of the Subcommittee:
    It is a singular pleasure to be able to testify on this very 
important matter. I had the honor of testifying before the Committee 
many times between February 2002 and December 2005 when I served as 
Assistant Secretary of the Interior for Fish, Wildlife and Parks. In 
that position, I had responsibility for the United States Fish and 
Wildlife Service and the National Park Service. I paid particular 
attention to the international activities of both bureaus. Twice (2002, 
Santiago; 2004) Bangkok), I led the United States Delegation to the 
Conference of the Parties to the Convention on International Trade in 
Endangered Species of Wild Flora and Fauna (CITES). I was actively 
involved with our participation in the UNESCO World Heritage Committee. 
I also held a separate Presidential commission as United States 
Government Representative to the joint U.S.-Canada Great Lakes Fishery 
Commission. Additionally, I was the Secretary's designee as co-chair of 
the United States Coral Reef Task Force.
    I am now and have been since January 2006, a faculty member at the 
University of the Pacific McGeorge School of Law, resident in the 
Capital Center for Public Law and Policy. I teach about, and research 
issues of policy development at all levels of government.
    From the foregoing experiences, I have an appreciation of the 
issues that the drafters and supporters of H.R. 3086 wish to address. 
In my view, however, this well-intentioned bill is seriously flawed.
    Here are the reasons that I believe this bill is unnecessary and 
less useful than the status quo:
    1.  The bill creates unnecessary bureaucratic structures: The 
``Institute for International Wildlife Conservation'' is a high-minded 
notion to be sure. However, for many decades the Department of the 
Interior, the Fish and Wildlife Service and other agencies have 
successfully implemented international treaties and carried out 
Congressional mandates and Executive initiatives with respect to 
international wildlife conservation. The Institute created in Section 
101 would duplicate the functions of some other units of government and 
outright usurp the role of others.
    As for coordination of Federal, state, local, tribal and NGO 
wildlife conservation efforts, the bill is not clear as to how much 
involvement the Institute would have in the municipal affairs of these 
entities. In any event, the existing processes for development of the 
United States positions in CITES is a model for interagency cooperation 
and public participation in international wildlife conservation 
policymaking. This existing model does not require additional 
bureaucratic structures and can be replicated easily in other aspects 
of international wildlife conservation policymaking.
    With respect to the Global Wildlife Coordination Council, there are 
already plenty of things for busy Cabinet officers and their seconds to 
do without these additional meetings to track and attend. Nothing would 
be gained from adding to the schedules a Congressionally mandated duty 
when in fact, the Executive Branch, through Administrations of both 
parties, has fashioned adequate mechanisms to address the coordination 
issues that the Council would oversee. On the other hand, the Council 
represents another diversion of Cabinet members' time, attention and 
funds.
    The proposed ``Center for International Recovery Partnerships'' 
would at best duplicate the functions of other Fish and Wildlife 
Service and DOI programs. Indeed, the creation of the Center as 
proposed could eventually harm the programs which for many years have 
accomplished the intended goals without the additional overhead costs 
that inevitably accompany a restructuring like this one: adding 
positions with haughty titles like ``Executive Director'' and such.
    2.  The bill goes beyond Congressional oversight to micromanage the 
Fish and Wildlife Service, an Executive Branch agency. There is no 
question but that Congress has a right and a duty to legislate in areas 
within its constitutional powers and to see that its mandates are 
carried out. However, it is the President who is given the 
constitutional power to implement the laws passed by Congress. This 
power is conferred under Article II, section 3; the President ``shall 
take care that the laws be faithfully executed.'' This includes the 
power to determine how and by what means ``the laws be faithfully 
executed.'' Necessarily, then, Congress is obligated to give the 
Executive Branch the leeway to do this.
    H.R. 3086 amounts to nothing so much as a preferred organizational 
plan for one part of one bureau of a Cabinet Department. Such a thing 
Congress should not indulge. When it comes to a matter of ``preferred'' 
methods, the Executive has the greater prerogative as long as ``the 
laws be faithfully executed.''
    Not only does H.R. 3086 interfere with the Executive Branch's 
programmatic prerogatives, the bill also imposes many new and 
unnecessary reporting requirements for the Fish and Wildlife Service. 
These reports duplicate other reporting requirements and divert 
administrative resources from other tasks.
    Furthermore, the bill also offends separation-of-powers 
sensibilities by mandating ``Action Plans'' and ``Action Strategies.'' 
The development of such specific products should be left to the 
discretion of the Executive Branch.
    3.  The bill discourages innovation in species conservation 
worldwide. As written, the bill demonstrates a bias in favor of 
traditional approaches to species conservation, some of which may have 
little or no application in some foreign jurisdictions. Additionally, 
the bill does nothing to encourage new research or the exploration of 
scientificapproaches to conservation that depart from the present 
orthodoxical edifices. These facts serve to heighten a perception of 
the bill as simply repackaging existing programs unnecessarily to the 
benefit of no one.
    The United States over the last decade has remained exceptionally 
influential in the area of international wildlife conservation. Our 
accomplishments at CITES in Santiago, Bangkok, and The Hague, 
demonstrate that as fact. At Bangkok, for example, the State Department 
and the Interior Department took the opportunity to highlight illegal 
trafficking and to forge partnerships with the ASEAN states.
    The success of existing U.S. programs can also be seen in the 
desire of certain coral dependent states to participate in our coral 
reef programs. The successes, I believe, come from the fact that a more 
cooperative and collaborative approach was taken with our foreign 
colleagues. They were not treated as ignorant innocents who had to be 
shown the right way--they were rather regarded as important partners of 
equal standing in overcoming common problems. I think the tone of H.R. 
3086 may encourage a return to the paternalistic bad old days.
    Finally, I concur with the testimony of the Administration that 
portions of this bill could seriously hinder our broader international 
efforts to conserve wildlife globally, particularly those efforts 
undertaken within the mandate of other Federal agencies.''
    I thank the Chair and the Committee for this opportunity to present 
my views on H.R. 3086 and I can be contacted by the staff in the event 
of further questions.

                                 <all>

</pre></body></html>
